<html>
<title> - ASIAN CARP</title>
<body><pre>[Senate Hearing 111-386]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-386
 
                               ASIAN CARP

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   TO

    EXAMINE THE SCIENCE AND POLICY BEHIND THE FEDERAL FRAMEWORK AND 
  NONFEDERAL EFFORTS TO PREVENT INTRODUCTION OF THE AQUATIC INVASIVE 
                    ASIAN CARP INTO THE GREAT LAKES

                               __________

                           FEBRUARY 25, 2010


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
56-102                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                    Subcommittee on Water and Power

                   DEBBIE STABENOW, Michigan Chairman

BYRON L. DORGAN, North Dakota        SAM BROWNBACK, Kansas
TIM JOHNSON, South Dakota            JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           JOHN McCAIN, ARIZONA
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
JEANNE SHAHEEN, New Hampshire

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Buchsbaum, Andy, Director, Great Lakes Regional Center, National 
  Wildlife Federation, Co-Chair, Healing Our Waters--Great Lakes 
  Coalition, Ann Arbor, MI.......................................    42
Carl, Leon, Midwest Area Regional Executive, United States 
  Geological Survey, Department of the Interior..................     6
DeBeaussaert, Ken, Director, Michigan Office of the Great Lakes, 
  Department of Natural Resources and Environment, Lansing, MI...    28
Durbin, Hon. Richard, U.S. Senator From Illinois.................
Farrell, Jim, Executive Director, Infrastructure Council, 
  Illinois Chamber Infrastructure Council Waterway Committee, 
  Chicago, IL....................................................    35
Hayden, J. Michael, Secretary, Kansas Department of Wildlife and 
  Parks, Topeka, KS..............................................    25
Miller, Marc, Director, Illinois Department of Natural Resources, 
  Springfield, IL................................................    32
Stabenow, Hon. Debbie, U.S. Senator From Michigan................     1
Sutley, Hon. Nancy H., Chair, White House Council on 
  Environmental Quality..........................................     3
Taylor, John C., Associate Professor and Director of Supply Chain 
  Programs, School of Business, Wayne State University, Detroit, 
  MI.............................................................    38

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    57

                              Appendix II

Additional material submitted for the record.....................    69


                               ASIAN CARP

                              ----------                              


                      THURSDAY, FEBRUARY 25, 2010

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:33 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Debbie 
Stabenow presiding.

 OPENING STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM 
                            MICHIGAN

    Senator Stabenow. Good morning. I'd like to call to order 
this Water and Power Subcommittee hearing. Very much appreciate 
all of the witnesses and everyone who has traveled here today.
    We do have an exhibition, I understand, of what would be 
viewed as the more baby, smaller, Asian carp. If they do start 
to smell too much, please let us know and we will--you know, if 
the--if we need to move them, we will. But, we appreciate the 
fact that they've been brought in to just demonstrate--even 
with these smaller ones, not yet grown--what we are up against, 
in terms of the fish, the size, and so on, that we'll be 
talking about.
    It's my pleasure to welcome you, and I know that my ranking 
member, Senator Brownback, will be joining us this morning. We 
appreciate having one of his constituents from Kansas joining 
us on the panel today, as well.
    The purpose of the hearing is to examine the science and 
policy behind the Federal framework and the non-Federal efforts 
to prevent introduction of the aquatic invasive Asian carp into 
the Great Lakes.
    In 2003--I want to give you an example of what we have been 
hearing, in terms of the threat to the carp on individuals, as 
well as on the Great Lakes--in 2003, a woman named Mary 
Poplett, from Peoria, Illinois, decided to enjoy some 
unreasonably warm October weather with a little jet skiing in 
the Illinois River. As she cruised the waves, the sound of her 
ski's motor excited a 30-pound Asian carp swimming under the 
water, which leapt out and crashed into her. Image being hit in 
the face by a bowling ball, which is what she said it felt 
like. She broke her nose and fractured a vertebrae, knocking 
her unconscious. She would have drowned if other boaters hadn't 
stepped in and saved her life.
    Mary's not alone. Since Asian carp were introduced to 
control algae in catfish ponds down south in the 1970s, the 
carp have spread at a rapid pace, causing injuries, destroying 
ecosystems, and threatening entire industries. They are a very, 
very serious threat to our Great Lakes.
    As you can see, these fish like to eat. The two that are in 
front of us are viewed as ``baby fish.'' The Bighead Carp 
killed in Illinois weighed 92 and a half pounds.
    Because Asian carp don't have a true stomach, they can't 
store food between meals, so they are constantly eating. Every 
day they eat 40 percent of their bodyweight in plankton. Their 
incredible appetites mean that other fish are left to starve. 
You can see the effect on other fish species in areas where 
infestation is greatest. Asian carp now make up 90 percent of 
the fish in the water, which should be an alarm to all of us.
    Now these fish are on the verge of invading the Great 
Lakes. If they do, they could easily destroy our $7-billion 
fishing industry and our $16-million recreational boating 
industry, among other things, including what we view our way of 
life in the Great Lakes.
    Invasive species in the Great Lakes have already 
contributed to significant decline in fish populations. Asian 
carp could completely unwind the food web, with devastating 
effects for our existing fish populations.
    Today's hearing will explore solutions to this very serious 
threat. The Asian Carp Working Group, made up of State and 
Federal agencies, has developed a framework for Asian carp 
control, which will be the focus of our hearings today. That 
framework call for short-term and long-term actions to stop the 
spread of the Asian carp and protect the Great Lakes.
    I've introduces S. 2946, the CARP Act, along with Senators 
Brown, Schumer, Gillibrand, Franken, and Feingold--and this is 
a companion to a House bill introduced by Congressman Dave 
Camp--that includes many of the short-term actions included in 
the framework, with one notable exception. Our bill calls for 
the immediate closure of the Chicago Canal locks until a 
permanent strategy is developed. For thousands of years, the 
Great Lakes and Mississippi River ecosystems were separated, 
until the construction of artificial canals and locks 
connecting them. Continuing threats of invasive species, 
especially the Asian carp, make it clear that we need to return 
to some kind of permanent separation of the two ecosystems.
    This strategy was endorsed on Monday by the Great Lakes 
Commission, a group made up of 8 States and 2 Canadian 
provinces that border the Great Lakes. We want to talk about 
that today, as well.
    So, I'm very pleased that all of you are here. I look 
forward to the testimony. When Senator Brownback joins us, I 
will turn to him for opening comments.
    But, let me proceed with our first panel, and we welcome 
The Honorable Nancy Sutley, chair, White House Council on 
Environmental Quality. We very much appreciate your leadership 
and participation.
    Dr. Leanne Carl, director of the Great Lakes Science Center 
in the U.S. Geological Survey, from Ann Arbor Michigan.
    So, we welcome both of you, and I would ask that The 
Honorable Nancy Sutley proceed.
    Thank you.

 STATEMENT OF HON. NANCY H. SUTLEY, CHAIR, WHITE HOUSE COUNCIL 
                    ON ENVIRONMENTAL QUALITY

    Ms. Sutley. Thank you, Chairwoman Stabenow. Thank you for 
holding this hearing, and for your leadership on this issue.
    Invasive species, as you said, have been--long been a 
serious threat to many of our great ecosystems around the 
United States. The Great Lakes, in particular, has been 
attacked by invaders such as the zebra mussel and the round 
goby. For this reason, the Great Lakes Restoration Initiative 
identified combating invasive species as one of its areas of 
focus.
    As you noted, the Great Lakes face perhaps their most 
serious threat from an invasive species yet, from the Asian 
carp. We think, however, there's a chance to stop this invasive 
species before it becomes established in the Great Lakes. This 
will require urgent coordinated action across all levels of 
government--Federal, binational, State, and local--pursuing 
immediate-term and long-term actions.
    The Obama administration is engaging in this approach and 
working urgently to prevent these fish from establishing 
themselves in the Great Lakes.
    We have a unique opportunity to prevent the environmental 
and economic harm that this invasive species could cause. 
Earlier this month, 4 Federal agencies--the Army Corps of 
Engineers, the Environmental Protection Agency, the Department 
of the Interior, and the U.S. Coast Guard--in cooperation with 
State and local agencies, developed the draft Asian Carp 
Control Strategy Framework.
    The framework encompasses more than 25 short- and long-term 
actions, at an estimated cost of $78.5 million, to keep the 
Asian carp from becoming self-sustaining in the Great Lakes. 
The scale of this effort is unprecedented for invasive species 
control. Agencies are currently taking action and have outlined 
several short-term actions for the spring.
    Operationally, agencies have already deployed field crews 
for electroshocking and netting operations within the waterway. 
Work is underway to reduce the turnaround times for the eDNA 
verification efforts that will give us a more accurate and 
timely picture of the movement of Asian carp.
    A contract will be awarded this spring for construction of 
structures to block passages between the Chicago Sanitary and 
Ship Canal and the Des Plaines River, which will prevent fish 
movement around the electric barriers in the event of flooding. 
Construction and operation of a third electric barrier will be 
funded from Recovery Act in 2010 appropriations.
    Also, the Army Corps, the Coast Guard, and the Fish and 
Wildlife Service are looking at ways to use Chicago's 
navigational locks to impede carp movement. In the near term, 
that means looking at how they can be kept closed more 
frequently and, in the long-term, evaluating what it would mean 
to permanently close them. A plan is being developed right now 
which will modify lock operations, as appropriate, this spring. 
A final recommendation, following the assessment, will be 
presented to the Assistant Secretary of the Army for Civil 
Works in the next couple of weeks.
    Before any decision is made about the locks, we need to 
consider and understand the increased flood risk to 
northeastern Illinois and northwestern Indiana, reduction in 
the flow of commerce into the Chicago area, and slower local 
and Coast Guard emergency response on the waterway.
    The framework also identifies several long-term research 
efforts to provide significant tools for Asian carp management. 
This includes the development of control methods by USGS--and 
I'm sure my colleague will address those--where researchers are 
looking at carp-specific poisons and pheromones, and methods to 
disrupt spawning and egg viability.
    The framework also includes the Army Corps of Engineers 
Inter-Basin Transfer Study, which examines the technologies and 
techniques to reduce invasive species transfer between the 
Mississippi River and the Great Lakes aquatic basins. The 
Chicago Area Waterway portion of this study, which includes an 
analysis of permanent lock closure and of ecological 
separation, is expected to be completed in 2012.
    Because regional coordination is critical to this effort, 
Federal, bi-national, State, and local partners held public 
meetings this month to seek feedback on the draft framework, 
and, in addition, Federal agencies recently met a number of the 
Great Lakes Governors at the White House to discuss 
coordination and the most effective response to this threat.
    Let me close with this: We are making progress in this very 
daunting challenge that lies before us. The Congress has made a 
commitment to the Great Lakes Restoration Initiative and 
provided $475 million to meet the initiative's goals, including 
fighting invasive species and preventing the introduction of 
new species. The Obama administration is committed to working 
in partnership with Congress in this regard, and we are also 
taking immediate, aggressive, and coordinated efforts to manage 
and control the Asian carp threat. While we have a long path 
ahead, what I understand the scientists are saying, we can be 
successful in this effort.
    I welcome the ongoing dialog on this issue and thank you 
again for the opportunity to testify, and for your leadership 
on this issue.
    Thank you.
    [The prepared statement of Ms. Sutley follows:]

 Prepared Statement of Hon. Nancy H. Sutley Chair, White House Council 
                        on Environmental Quality

    Thank you Chairwoman Stabenow and Ranking Member Brownback for 
holding this hearing.
    Invasive species have long been one of the most serious threats to 
our ecosystems. The Great Lakes in particular have been devastated by 
invaders such as the zebra mussel and the round goby. For this reason 
the Great Lakes Restoration Initiative (GLRI) identified combating 
invasive species as one of its five areas of focus. The Great Lakes now 
face perhaps their most serious invasive species threat yet from the 
Asian carp. This time however, we have a chance to stop an invasive 
species before it becomes established in this important ecosystem. This 
will require an urgent and coordinated approach across all levels of 
government--Federal, State, and local--in pursuit of immediate and 
long-term actions. Federal officials within the Obama Administration 
are engaging in such an approach and are working urgently toward a 
single goal--to prevent these fish from establishing in the Great 
Lakes.
    Today we have a unique opportunity to prevent the environmental and 
economic harm that this invasive species could cause. Recognizing this, 
earlier this month, four Federal Agencies, including the U.S. Army 
Corps of Engineers, the Environmental Protection Agency, the Department 
of the Interior, and the U.S. Coast Guard, in cooperation with state 
and local agencies, developed the draft Asian Carp Control Strategy 
Framework (Framework).
    The Framework, guided by the latest scientific research, 
encompasses more than 25 short and long-term actions at an estimated 
cost of $78.5 million to keep Asian carp from becoming self-sustaining 
in the Great Lakes. The scale of the effort described in the Framework 
is unprecedented for invasive species control, unifying Federal, State, 
and local action and introducing a multi-tiered defense of the Great 
Lakes to immediately prevent Asian carp from developing self-sustaining 
populations in the Great Lakes while longer term control methods are 
developed.
    Federal and State Agencies are taking action right now on netting 
and fishing Asian carp in the rivers and channels that connect the 
Mississippi Basin to the Great Lakes. A set of actions are being 
planned for this spring and summer when fish begin moving again, and 
long-term planning to deal with Asian carp and other invasive species 
is underway.

                SHORT-TERM ACTIONS TO COMBAT ASIAN CARP

    Agencies have outlined several short-term actions for this spring. 
Operationally, Agencies have already deployed field crews for electro-
shocking and netting operations within the waterway, particularly 
around warm-water discharges where Asian carp may be wintering. Work is 
also underway to reduce turnaround times for eDNA verification efforts 
and to double testing capacity to 120 samples per week, which will 
provide a more accurate and timely picture of Asian carp migration.
    Using GLRI funds from an interagency transfer between EPA and the 
Corps, a contract will be awarded this spring for construction of 
structures to block passages between the Chicago Sanitary and Ship 
Canal and the Des Plaines River, which will prevent fish movement 
around the electric barrier in the event of flooding, when the two 
water bodies mix. Construction and operation of a third electric 
barrier (IIB) will be funded from both the American Recovery and 
Reinvestment Act (ARRA) and appropriations from the 2010 Energy and 
Water Bill. The electric barriers remain our best defense and these 
efforts will fortify them.
    Also, the Army Corps, Coast Guard, and the Fish and Wildlife 
Service are looking at ways to use Chicago's navigational locks to 
impede carp movement. In the near term, that means looking at how they 
can be kept closed more frequently, and in the longer term, developing 
an evaluation of what it would mean to permanently close them. A plan 
is being developed which will modify lock operations, as appropriate, 
this spring, and a final recommendation following this assessment 
process should be presented to the Assistant Secretary of the Army for 
Civil Works in the next several weeks.
    As you know, lock closure is a complicated issue. Before any 
decision is made we need to consider and understand the increased flood 
risk to northeastern Illinois and northwestern Indiana, reduction in 
the flow of critical commerce in the Chicago area, and slower local and 
Coast Guard emergency response on the waterway. While fish movement is 
limited this winter, agencies are considering all these issues and are 
developing a recommendation for modified lock operations as quickly as 
possible. In addition, it is critical to note that even a complete 
closure of the Chicago and O'Brian locks would not serve as an absolute 
barrier to fish movement. Alternate river paths to Lake Michigan exist, 
which are not blocked by locks, and separately the locks are not 
watertight, which may allow fish passage even when closed.

                 LONG-TERM ACTIONS TO COMBAT ASIAN CARP

    The Framework identifies several long-term research efforts that, 
used individually or in concert, will inform decision makers and 
provide significant tools for Asian carp management.
    What is likely to be the most important long-term research involves 
the development of control methods by the United States Geological 
Survey at the Department of the Interior. Researchers are looking at 
Asian carp-specific poisons and pheromones--as well as methods to 
disrupt spawning and egg viability using sonic and light barriers.
    The Framework also includes the Army Corps Inter-Basin Transfer 
Study, which examines technologies to reduce invasive species transfer 
between the Mississippi River and Great Lakes aquatic basins. The 
Chicago-Area Waterway portion of this study, which includes an analysis 
of permanent lock closure and of ecologic separation, has been 
expedited and is expected to be completed in 2012. The Framework also 
identifies activities to reduce downstream populations of the carp. It 
calls for educational and enforcement tools to prevent Asian carp from 
being sold or purposefully transferred, an investigation of Asian carp 
transfer in ballast and bilge water, and other Asian carp research.

                FEDERAL, STATE AND REGIONAL PARTNERSHIPS

    Because regional coordination is critical to this effort, and to 
the overall health of the Great Lakes, Federal, bi-national, state, and 
local partners held two public hearings earlier this month in Illinois 
and Michigan to seek feedback on the draft Framework. In addition, 
Federal agencies recently met with Great Lakes Governors at the White 
House to discuss the strategy to constrain the spread of Asian carp and 
ensure coordination and the most effective response to this potential 
threat across all levels of government. Finally, efforts to stop Asian 
carp migration will be strengthened with participation from water users 
including the commercial and recreational fishing and navigation 
industries and environmental groups, and their input is being 
solicited.

                               CONCLUSION

    Let me close with this: we are making true progress on the 
challenge that lies before us. Six months ago, Congress made a 
commitment to the Great Lakes Restoration Initiative and provided $475 
million to meet the Initiative's goals. An additional $300 million is 
requested for FY 2011. One of the focus areas in the Great Lakes 
Restoration Initiative is the management and control of invasive 
species in the Great Lakes, including preventing the introductions of 
new invasive species. The Obama Administration is working in 
partnership with Congress in this regard and has taken an immediate, 
aggressive, and coordinated approach to manage and control the Asian 
carp threat. And, moving forward, while we have a long path ahead, the 
best scientists have said that we can be successful in this effort and 
prevent Asian Carp from invading the Great Lakes.
    We welcome any input the committee, its members, or your colleagues 
in Congress would like to provide as we continue to work together and 
in collaboration with state and local agencies to fight the spread of 
Asian carp into the Great Lakes.
    Thank you for the opportunity to testify this morning and I look 
forward to your questions.

    Senator Stabenow. Thank you very much.
    Dr. Carl.

    STATEMENT OF LEON CARL, DIRECTOR, MIDWEST AREA REGIONAL 
 EXECUTIVE, UNITED STATES GEOLOGICAL SURVEY, DEPARTMENT OF THE 
                            INTERIOR

    Mr. Carl. Thank you, Chairman Stabenow. I thank you again 
for the opportunity to discuss the U.S. Geological Survey 
research on Asian carps in support of efforts to prevent their 
establishment in the Great Lakes.
    My name, again, is Leon Carl. I'm the regional exec for the 
Midwest area for the USGS.
    Today, I will briefly describe the USGS efforts to 
understand the biology and distribution of Asian carp in the 
U.S., as well as new and ongoing USGS research in the Federal 
Asian Carp Control Strategy Framework.
    The mission of USGS is to provide reliable, impartial, and 
timely scientific information. This information is used by 
resource managers and policymakers at the Federal, State, and 
local levels to make sound, science-based decisions.
    USGS scientists have assisted in developing the National 
Asian Carp Management and Control Plan, participated in the 
Interagency Asian Carp Rapid Response Team, organized research 
symposia, and have been involved in local and regional research 
and control planning efforts. USGS has been the primary Federal 
agency conducting ecological research on Asian carp for the 
past decade.
    The 2 primary science roles for USGS related to Bighead and 
Silver carp, collectively referred to as Asian carp, include 
tracking and reporting the geographic distribution of these and 
other invasive species in the U.S., and providing research and 
data to better understand the biology and manage populations 
effectively.
    USGS has provided information on the geographic 
distribution of Asian carp populations since they became 
abundant in the Mississippi River drainage. These data are 
delivered online to the USGS Nonindigenous Aquatic Species data 
base.
    USGS has synthesized and interpreted data and literature on 
the basic biology, life history, uses, and consequences of the 
introduction of Asian carp around the world, and developed a 
risk assessment for the U.S. The synthesis serves as an 
important information resource for researchers and natural 
resource managers, including the Fish and Wildlife service in 
its determination regarding the addition of Asian carp as 
injurious wildlife under the Lacey Act.
    Early ecological research conducted by USGS on Asian carp 
focused on understanding their basic biology and life history 
requirements in the U.S. This information underpins nearly all 
areas of the potential research to manage and control these 
species. Field data demonstrate that Asian carp are affecting 
some of our native filter-feeding fishes. Additional details on 
the USGS research were submitted in our written testimony. Most 
current and planned USGS research on Asian carp has progressed 
to the--to focusing on more complex ecological interactions and 
more specific methods to control Asian carps.
    USGS is identified as the lead agency to address nine 
action items in the Asian Carp Framework. These include 
projects on Asian carp prevention, detection, and control. The 
primary chemical control project will investigate the 
feasibility of incorporating toxins or bioactive compounds into 
an oral delivery system to target Asian carp without harming 
other species. Using this technology, toxins, identified 
through collaborations with pharmaceutical and agrochemical 
companies, would be encapsulated into a molecule that would be 
filtered by Asian carp as they feed. Once ingested, the toxin 
would be activated and the fish would die. This technology 
could also be used to target other invasive species, such as 
quagga or zebra mussels, and would reduce the amount of 
chemicals released into the environment.
    Building on completed preliminary research under other USGS 
projects, we are looking at pursuing the feasibility of using 
carp pheromones to improve control efforts. Releasing 
pheromones may help us to attract or repel Asian carp and 
enhance the effectiveness of more effective--or more 
traditional control methods, such as netting or electro-
fishing.
    Another control project under USGS will evaluate the 
possibility of disrupting spawning behavior, as well as 
repelling or killing Asian carp using sound waves. If 
successful, this technique would be implemented quickly to 
limit the distribution and abundance of Asian carp.
    In conclusion, the USGS science has provided significant 
contributions to our understanding of Asian carp biology and 
their impact on U.S. rivers. This information has proved 
valuable for our partners as they develop plans to prevent and 
control the expansion of Asian carp populations. However, there 
is still much to learn as Asian carps threaten new ecosystems.
    The USGS is committed to continuing our research and new 
efforts to develop control methods. We look forward to 
continuing our collaboration with our local, State, and Federal 
partners.
    Thank you very much, Chairman Stabenow, for this 
opportunity to testify. I would be happy to take any questions 
you or other members might have.
    [The prepared statement of Mr. Carl follows:]

   Prepared Statement of Leon Carl, Midwest Area Regional Executive, 
      United States Geological Survey, Department of the Interior

    Chairwoman Stabenow and members of the Subcommittee, I am Leon 
Carl, Regional Executive of the U.S. Geological Survey (USGS) Midwest 
Area. Thank you for the opportunity to testify on the Department of the 
Interior's (Department) efforts regarding the science and research on 
Asian carps in support of the Federal Asian Carp Control Strategy 
Framework (Framework) to prevent the establishment of Asian carps in 
the Great Lakes. Also included in this statement is a summary of on-
going Department efforts to address other aquatic invasive species in 
the Western United States (U.S.).
    The USGS, the science arm of the Department, conducts research to 
understand the interrelationships among earth surface processes, 
ecological and biological systems, and human activities. In support of 
the science, the USGS partners with other Federal and State agencies, 
tribal governments, and non-governmental organizations to provide the 
science needed to help resource managers address critical and complex 
natural resource issues.
    Today, my testimony will provide background on the biology of Asian 
carps, explain the Department's response to growing threats from 
bighead and silver carps, and describe what we are learning about these 
fishes as they became established and abundant in the great rivers of 
the central U.S. I will end by describing on-going and new USGS 
research efforts to address the threat of Asian carps to the Great 
Lakes using the newly drafted Framework.

                               BACKGROUND

    Bighead and silver carp (collectively referred to as ``Asian 
carps'') filter bacteria, algae, and zooplankton from the water 
column--elements at the base of aquatic food webs. Asian carps were 
imported into the U.S. in the early 1970s as biological control agents 
for nuisance algal blooms in wastewater treatment plants and 
aquaculture ponds, as well as for human food. They escaped from those 
uses, were first captured in the wild in the 1980's, and quickly became 
the most abundant large fishes in parts of the Missouri, Illinois, and 
Mississippi rivers. Both bighead and silver carps grow quickly and 
become large as adults, often averaging about 10 pounds in U.S. rivers. 
Records for both species approach 100 pounds, but in the U.S. silver 
carp over 20 pounds and bighead carp over 30 pounds are uncommon. 
Schools of silver carp often jump from the water, particularly in 
response to passing motorboats, sometimes reaching heights of 10 feet 
in the air. When jumping silver carp intersect with boaters or boat 
equipment, serious injuries or damage can result.
    Through time, Asian carps have steadily moved upstream through the 
Illinois and Des Plaines rivers into the Chicago Area Waterway System 
(CAWS). Because of the propensity of these fishes to outcompete native 
fish species in ecosystems they invade, great concern exists over the 
possibility of Asian carps colonizing the Great Lakes. Their 
establishment could threaten an important recreational and commercial 
fishery (valued at over $7 billion dollars annually) and the well-being 
of native species.

                      GROWING ASIAN CARP CONCERNS

    The Nonindigenous Aquatic Nuisance Prevention and Control Act of 
1990 established the Aquatic Nuisance Species Task Force (ANSTF), an 
intergovernmental entity including the U.S. Fish and Wildlife Service 
(Service), USGS, National Park Service, Bureau of Land Management, and 
Bureau of Reclamation within the Department, five other Federal 
agencies, and 12 Ex-officio members. The ANSTF is co-chaired by the 
Service and the National Oceanic and Atmospheric Administration and 
encourages Federal and State agencies to establish partnerships to 
augment work with partners to enhance collective efforts to address 
aquatic invasive species issues.
    In response to threats from Asian carps, the ANSTF established an 
Asian Carp Working Group in 2003. Led by the Service, this stakeholder 
group of private and public sector fisheries professionals, 
aquaculturists, and aquatic ecologists developed a comprehensive 
national Asian carp management and control plan. The final plan, 
Management and Control Plan for Bighead, Black, Grass, and Silver Carps 
in the United States, was approved in 2007 and included input and 
authorship from several USGS scientists. Most USGS research on Asian 
carps has focused on national goals to reduce feral populations, 
conduct research to provide accurate and scientifically valid 
information for effective management and control, and to effectively 
plan, implement and evaluate the management and control of bighead and 
silver carps.

                   ROLE OF THE U.S. GEOLOGICAL SURVEY

    The USGS has been the primary Federal agency conducting ecological 
research on Asian carps for the past decade. USGS scientists have 
participated in various interagency efforts during this time including 
assisting in the development and writing of the national Asian carp 
management and control plan, participating in the interagency Asian 
Carp Rapid Response Team, organizing research symposia focused on Asian 
carps, and have been involved in local and regional research and 
control planning efforts. The two main USGS science roles in regard to 
Asian carps have been to track and report their geographic distribution 
in the U.S. and to provide research to improve understanding of the 
biology of these fishes in U.S. ecosystems to better manage 
populations.

        MONITORING THE DISTRIBUTIONS OF ASIAN CARPS IN THE U.S.

    The USGS has been involved in monitoring the geographic 
distribution of Asian carps since they became abundant in the 
Mississippi River drainage. The primary means of delivering 
distributional data on invasive aquatic species is the USGS 
Nonindigenous Aquatic Species database (http://nas.er.usgs.gov). The 
database was created by the ANSTF with the goal of providing timely, 
reliable data about the presence and distribution of nonindigenous 
aquatic species using a National Nonindigenous Aquatic Species 
Information Center with: (1) a data repository and geographic 
information system; (2) a mechanism to allow sources such as 
researchers, field biologists, anglers, and others to report detection 
and occurrences of nonindigenous aquatic species; (3) transfer of 
information to interested parties; and (4) rapid communication of oral 
and written information. Real-time maps can be produced by users with 
the most recent distributional data reported. These maps are widely 
used by our partners and are frequently used by various media. The NAS 
database is perceived as a valuable resource by our partners and 
reporting distributional information on Asian carps to the NAS database 
is an objective in the Management and Control Plan for Bighead, Black, 
Grass, and Silver Carps in the United States.
    The USGS continues to collect valuable distributional data on Asian 
carps as part of the Long Term Resource Monitoring Program (LTRMP), 
which is implemented by USGS in cooperation with the five Upper 
Mississippi River System (UMRS) States (Illinois, Iowa, Minnesota, 
Missouri, and Wisconsin), and with guidance from the U.S. Army Corps of 
Engineers. LTRMP personnel collect data on water quality, aquatic 
plants, macroinvertebrates (e.g., larval insects, worms, crayfish), and 
fisheries throughout the year using standardized protocols across six 
study reaches in the UMRS. The objective of the LTRMP Fisheries 
Component relates to collecting quantitative data on the distribution 
and abundances of all fishes and communities in the UMRS. Therefore, 
protocols are not specific to Asian carps. Much useful data on the 
presence and abundance of these fishes has been collected, however, and 
these data continue to be reported to the NAS database and used by 
partners.

        HIGHLIGHTED USGS RESEARCH ON ASIAN CARPS IN U.S. WATERS

    In 2002, Congress petitioned the Service to list black, bighead, 
and silver carps as Injurious Wildlife under the Lacey Act. To help the 
Service address the petition, USGS collected and interpreted 
publications on the basic biology, life history, uses, and history and 
consequences of their introductions around the world, and developed an 
environmental risk assessment for the U.S. that led to the publication 
of Bigheaded Carps: A Biological Synopsis and Environmental Risk 
Assessment. This report, later published as a book, synthesized and 
interpreted information and data on bighead and silver carps from 
scientific literature from around the world and made it more 
accessible, and is seen as a foundation for understanding the biology 
of these fishes both in their native ranges and as invaders in U.S. 
rivers.
    When USGS researchers began studying Asian carps in U.S. waters, 
not enough was known about their basic biology to use traditional 
fisheries management tools. For instance, a basic tool of fisheries 
management is to model population growth. To develop a population 
model, some basic parameters must be known, such as body length of the 
species at known ages and the number of offspring produced. In the case 
of Asian carps, these parameters could not be estimated because not 
enough was known about Asian carps to even collect these data. 
Throughout the world many different anatomical structures of bighead 
and silver carps have been used for aging individual fish but there had 
not been a comparison of methods to determine the most reliable. USGS 
researchers collected a wide variety of aging structures from known-age 
fish and conducted such a comparison. Data analysis is still ongoing in 
this study, but it is clear that some structures provide more reliable 
age estimates than others. In gathering data from sources around the 
world, it became apparent that the timing and frequency of spawning of 
bighead and silver carps varied widely. Estimating the number of 
offspring an individual female could produce for population modeling 
requires data on the timing and frequency of spawning. USGS researchers 
completed such a study on Asian carps in the Missouri River and found 
that the spawning time of these fishes was much longer in their 
introduced ranges than in their native ranges and that individual 
females can have multiple spawns of portions of their eggs over that 
extended period of time.
    A fundamental understanding of Asian carp biology and life history 
requirements in U.S. waters underpins nearly all other areas of 
potential research to manage and control these species and completing 
key basic biological studies on Asian carps has been an early research 
focus of USGS. For example, one study examined the diet and diet 
selectivity of bighead and silver carps in the Missouri River and one 
of its tributaries. Another, a 2-year telemetry study examined the 
movements and habitat selection of bighead and silver carp captured 
from the Missouri River and a prominent tributary. As part of this 
study, side-scan sonar was used to image and map available habitats of 
the tributary.
    Predicting the potential range of an invading species can help 
guide monitoring efforts of natural resource agencies. Therefore, 
gaining an understanding of factors limiting distribution can prove 
valuable for natural resource managers. Water hardness has been 
proposed as a factor potentially limiting the distribution of Asian 
carps. If true, water hardness could be used to predict areas in which 
Asian carps could and could not survive. However, studies by USGS 
scientists have shown that bighead and silver carp egg survivorship is 
not substantially affected by water hardness suggesting that this 
factor would not be helpful in predicting potential distribution.
    Results from diet studies indicate that excessive filtering by 
Asian carps can affect native fishes. In a collaborative study between 
Florida State University and USGS examining diets of Asian carps and 
native filter feeding fishes found substantial dietary overlap between 
bighead carp and both bigmouth buffalo and paddlefish. Similar dietary 
overlap was found between silver carp and gizzard shad, suggesting 
competition between these species could occur when food resources are 
limiting. Preliminary results from a study in which USGS is a 
participant with many partners indicate that excessive filtering by 
Asian carps can even affect Asian carps. Data from this study indicate 
that Asian carps are quite robust when they first invade an area, but 
that they become thinner after they have been established for a few 
years.
    While conducting initial field research on Asian carps to 
understand their fundamental biology, USGS researchers also initiated 
two studies to assess efficacy of traditional fisheries management 
chemicals on controlling Asian carps. Both studies found that the 
susceptibility of Asian carps to rotenone and antimycin were similar to 
those of native fishes. Results of these studies helped inform 
development of the Asian Carp Rapid Response Plan, which was 
implemented in December 2009 to poison a 5.7-mile stretch of the CAWS 
when the electrical barrier (Barrier IIA) in Romeoville, Illinois, was 
de-electrified for scheduled maintenance.
    The USGS also completed initial experiments to determine whether 
naturally-produced Asian carp pheromones could be used to better 
control the distribution or reduce the population sizes of these 
fishes. For instance, many members of the minnow and carp family are 
known to have alarm pheromones that are released from traumatized skin 
and cause an alarm reaction in members of the same or closely-related 
species. In preliminary laboratory studies, juvenile bighead and silver 
carps exhibited a significant avoidance of skin extracts from members 
of their own species. Alarm pheromones could potentially be introduced 
into areas near locks to keep Asian carps from entering into these 
structures and gaining access to additional areas to colonize.
    The USGS researchers also conducted a study to support an objective 
of the Management and Control Plan for Bighead, Black, Grass, and 
Silver Carps in the United States that encourages the development of 
markets for bighead and silver carp flesh. Ensuring safety of consuming 
flesh of Asian carps is paramount to this objective. USGS collaborated 
with the Saint Louis Zoo to collect bighead and silver carps from the 
Missouri River and to analyze tissues for organic and inorganic 
contaminant concentrations. Data analysis revealed contaminant 
concentrations lower than in native fish from the same area and 
acceptable for human and animal consumption.

     NEW USGS PROJECTS ON ECOLOGICAL EFFECTS OF ASIAN CARPS IN THE 
                       MISSISSIPPI RIVER DRAINAGE

    As research on Asian carps in the Mississippi River drainage has 
progressed from basic to more complex research questions, additional 
effort has been placed on examining ecosystem level effects of these 
fishes. In FY10, USGS has two new studies looking at more complex 
ecological interactions of bighead and silver carp on large river 
ecosystems.
    The first study will examine whether excessive filtering of 
planktonic resources by Asian carps has altered the flow of essential 
fatty acids in the Upper Mississippi River System to such an extent 
that these effects are cascading through different trophic levels of 
the ecosystem. Specifically, this pilot study will determine if the 
abundance and quality of food resources for aquatic waterfowl have been 
affected by filter feeding by Asian carps.
    A second study will seek to determine the mechanism by which Asian 
carps negatively affect fishes with larvae that share open water areas 
with feeding Asian carps. It is unclear if the observed negative 
effects are due to competition for food resources or if the Asian carps 
are actually eating larval fishes. To examine this phenomenon further, 
USGS researchers will determine whether bighead carp can prey 
effectively on larval fish when the larvae of native fishes are present 
in relative abundance using genetic barcodes.

           USGS AND THE ASIAN CARP CONTROL STRATEGY FRAMEWORK

    The USGS is identified as the lead agency to address nine of the 31 
action items in the Framework. One action focuses on preventing further 
spread of Asian carps; two more actions will aid in Asian carp early 
detection and rapid response efforts; another will assess the effects 
of bighead and silver carps on plankton resources in the Great Lakes, 
and five additional actions will focus on developing control strategies 
for Asian carps.
    Short-term Action 2.2.7 addresses preventing further spread of 
Asian carps in the U.S. This research project will identify other 
pathways in addition to the CAWS that could allow even intermittent 
water flow between the Mississippi River watershed and the Great Lakes 
resulting in the exchange of species between basins. The USGS will work 
with the U.S. Army Corps of Engineers and other partners to help 
identify these places and the hydrologic conditions during which 
invasive species could be transferred.
    Two USGS action items in the Framework address Early Detection and 
Rapid Assessment (EDRA) of Asian carps. Short-term Action 2.1.11 will 
build on preliminary screening of tributaries of the Great Lakes 
identified in earlier USGS research as potentially supporting spawning 
of Asian carps. This research project will further refine predictions 
about suitable spawning locations in the Great Lakes for these fishes. 
Speculation exists as to whether adequate plankton resources are 
available in the Great Lakes to sustain Asian carps. Anecdotal evidence 
suggests that these fishes are more flexible in their feeding methods 
than previously believed and understanding their ability to use a 
variety of food resources is important in understanding where these 
fishes may be able to survive in the Great Lakes. Short-term Action 
2.1.12 will examine the ability of bighead and silver carps to use food 
resources in addition to plankton.
    Intensive filtering of planktonic resources by bighead and silver 
carps can lead to dramatic changes in those communities. One potential 
outcome observed in the literature is an increase in toxic bluegreen 
algae blooms. Long-term Action 2.2.14 will examine the potential 
ecosystem-level effects of bighead and silver carps on toxic algal 
blooms in the Great Lakes.
    Three of the USGS action items in the Framework involve developing 
species-specific chemical control methods for Asian carps. The primary 
chemical control project is Short-term Action 2.1.6. No method 
currently exists to control Asian carps or quagga and zebra mussels 
without treating the entire water column and euthanizing all fish and 
likely all mussels in the area treated. In this project, USGS will 
investigate the feasibility of using recent advances to incorporate 
toxins or bioactive compounds into a targeted oral delivery platform to 
achieve species-specific control. USGS researchers have developed a 
Cooperative Research and Development Agreement with a private company, 
Advanced Bionutrition Corporation, to use their patented oral delivery 
platform. Using this technology, fish toxins, perhaps rotenone, would 
be encapsulated into a neutrally-buoyant molecule of the preferred size 
filtered by bighead and silver carps. The molecule would remain safe 
and stable until the toxicity is triggered by something unique in the 
physiology of the targeted species, perhaps mucous on the gill rakers 
or the pH of the gut of bighead and silver carps. Delivering toxic 
doses of chemicals to Asian carps or zebra and quagga mussels in this 
manner would not only allow for species-specific control, but would 
require the release of lesser amounts of chemicals into the 
environment. This project is supported by Short-term Action 2.1.10. In 
one additional action item, Short-term Action 2.1.8, USGS researchers 
will work with a pharmaceutical or agrochemical company to identify 
chemical toxicants that may be specifically toxic to bighead and silver 
carps. Once identified, these chemicals would be tested on Asian carps 
as well as native fishes to examine selectivity.
    Preliminary research completed by USGS researchers on Asian carp 
pheromones showed promise in using these compounds to either attract or 
repel bighead and silver carp from specific areas. Using pheromones in 
combination with other control methods may provide substantial 
efficiency and efficacy in achieving population control. Short-term 
Action 2.1.7 will allow USGS to further pursue the feasibility of 
exploiting Asian carp pheromones to enhance containment or control 
efforts.
    The last USGS action item identified in the Framework is Action 
2.1.9. This research project evaluates whether it is possible to 
disrupt spawning behaviors of bighead and silver carps using sound 
waves. Sound waves of particular amplitudes and frequencies can alter 
fish behavior. This project will identify sound wave amplitude and 
frequency that elicit silver carp avoidance behavior to disrupt 
spawning aggregations and limit recruitment.

       HIGHLIGHTS--BUREAU OF RECLAMATION INVASIVE SPECIES PROGRAM

    Reclamation has been active in a wide-range of efforts to combat 
invasive species that impact the management of our facilities or cause 
damage to habitats. Reclamation is concentrating on ways to prevent 
invasive species infestation, develop early detection/rapid response 
measures, support control and management actions, conduct targeted 
research, restore habitats damaged by invasive species, extend outreach 
to the public, and strengthen coordination with our managing partners.
    For example, in Arizona and California, Reclamation partners with 
the U.S. Fish and Wildlife Service, other federal and state agencies, 
and the Palo Verde Irrigation District to control invasive aquatic 
weeds such as giant salvinia and parrotfeather. In California, 
Reclamation cooperates with the State agencies on hydrilla control. 
Approximately 450 acres of hydrilla have been controlled, and over 
3,000 acres of ponds, canals, and rivers have been surveyed. In New 
Mexico and Arizona, Reclamation participates in the Multi-Species 
Conservation Program by controlling nonnative fish to benefit 
threatened and endangered native species. In several states and in 
collaboration with other agencies, Reclamation is performing research 
and demonstrating control and habitat restoration of salt cedar 
infested areas. In Washington State, Reclamation is conducting habitat 
restoration along the Yakima River.
    Reclamation's greatest invasive species challenge is limiting zebra 
and quagga mussel introductions into the western states. These mussels 
arrived in the United States from Europe in the 1980s and spread to 
many Eastern state waterways. They have now spread into the Western 
states and as a result, Reclamation is concentrating on proactive 
measures, in close coordination with other Federal, state, and local 
entities, to help reduce the post-introduction spread and impacts of 
mussels at Reclamation facilities. An invasive mussel corporate task 
force has been established across Reclamation to focus on the 
development and implementation of a four-part strategy both on a 
regional and a Reclamation-wide basis. Reclamation has continued 
investigations to develop and implement facilities protection 
technologies (filtration for cooling water systems, biologically based 
pesticide product, and coating systems to minimize or prevent mussel 
attachment to critical infrastructure).
    Reclamation received funding through the American Recovery and 
Reinvestment Act (ARRA) of 2009 which will be expended for monitoring 
and detection at high priority water bodies in the western U.S. Nearly 
200 reservoirs will be studied. Early detection of mussels enables 
facilities protection actions before impacts to infrastructure and 
water resources are realized.
    Reclamation has developed an Equipment Inspection and Cleaning 
Manual which emphasizes prevention through inspection and cleaning of 
various types of equipment. Reclamation has also developed a 
comprehensive Integrated Pest Management Manual to assist field 
personnel in diagnosing and treating pest and invasive species 
problems. Reclamation has provided leadership to develop the Quagga-
Zebra Action Plan (QZAP) for the Aquatic Nuisance Species Task Force. 
Reclamation is also an active participant in the Western Regional Panel 
for Aquatic Nuisances Species and assisted in the development of the 
Columbia River Basin Rapid Response Plan. Reclamation has held numerous 
training sessions, and hosted a Western Invasive Mussel Management 
Workshop in May, 2009. Further information has also been posted on 
Reclamation's mussel website http://www.usbr.gov/mussels/

                               CONCLUSION

    In conclusion, USGS science has made significant advances to 
understand both the biology and the impacts of Asian carps on river 
systems. This information has proven critical for our partners as they 
develop prevention and control efforts. However, there is still much to 
learn as the Asian carps have the potential to enter new ecosystems. 
USGS is committed to continuing our ongoing efforts and to assisting in 
new efforts, aimed at developing control methods. We look forward to 
continuing our collaborative efforts with our local, State, and Federal 
partners.
    Thank you, Chairwoman Stabenow, for the opportunity to submit this 
testimony on USGS research to address the expansion of Asian carps in 
U.S. waters. I will be pleased to answer questions you and other 
Members of the Subcommittee might have.

    Senator Stabenow. Thank you, Dr. Carl.
    I've been joined by our ranking member. Senator Brownback, 
welcome. Thank you----
    Senator Brownback. Thanks very much.
    Senator Stabenow [continuing]. So much, for coming.
    Senator Brownback. Sure.
    Senator Stabenow. We're to have you make any comments.
    Senator Brownback. I don't have an opening statement that I 
want to make orally. I do have one that I want to submit for 
the record.
    [The prepared statement of Senator Brownback follows:]
   Prepared Statement of Hon. Sam Brownback, U.S. Senator From Kansas
    Senator Stabenow, it's a pleasure to be here today, and I thank you 
for chairing this important hearing.
    I am pleased to join you in welcoming the witnesses and members of 
the public. Particularly, I would like to note the presence of Mike 
Hayden, former governor of Kansas and current Secretary of the Kansas 
Department of Wildfire and Parks.
    The issue of aquatic invasive species has been a growing threat to 
the environmental, economic, and overall health of our national lakes 
and waterways. One such species, and the topic of today's hearing, is 
threatening the viability of one of our nation's most precious bodies 
of water.
    While Asian carp were initially introduced in the United States as 
both a commercial food source and as a mechanism for cleaning bodies of 
water, the ability to control their migration and dominance of local 
ecosystems has proven a monumental task for state and federal wildlife 
groups.
    In Kansas, as Secretary Hayden can attest to, we have had extensive 
experience dealing with invasive species. While I understand the Great 
Lake states have a unique situation in managing shared bodies of water, 
it is my hope that by examining our successes and failures, we can 
provide some guidance on what is the best approach for mitigating 
further damage these species cause to local communities and ecosystems.
    As a government we share the critical goal of providing all people 
within the United States access to a reliable, safe and secure water 
supply. It is essential, though, to balance this need in a manner that 
considers the dire economic climate our nation currently faces.
    I say this hopefully as a guide for Michigan and Illinois as they 
work to find an appropriate solution that will balance the need to 
prevent the spread of Asian Carp while maintaining the robust movement 
of goods throughout this region.
    Once again, I thank the witnesses for your presence and thank you, 
Senator Stabenow, for conducting this hearing.

    Senator Brownback. I do appreciate the panel that is here. 
Particularly, the next panel up has a dear friend of mine, 
Governor Mike Hayden, that's now secretary of wildlife and 
parks for State of Kansas. Very knowledgeable. So, I'm looking 
forward to his testimony, and others.
    I do note that this is quite an extraordinary issue, and 
I've seen a lot of press on it. So, I'm really looking forward 
to learning more of the technical issues on it and then how 
best it is that we might be able to address it. So, this is 
certainly good information for me for policy formation. I 
appreciate you holding the hearing.
    Senator Stabenow. Thank you very much. As you will see, 
that we have 2, what are referred to as ``baby carp.'' We 
understand that there was one that attacked a woman in the 
Illinois River that was up to 92 and a half pounds and jumping 
out of the water, causing her to be unconscious, so--but this 
gives you some example of--at their--at the small end, what it 
looks like. So----
    Let me first, Dr. Carl, ask you to talk a little bit more--
there's been some debate about whether or not the Asian carp 
would find the Great Lakes suitable as a habitat. Of course, 
again, looking at a $7-billion sport fishing industry and a 
$16-billion-a-year recreational boating industry, I mean, this 
is a--is important question for us. I wonder if you might 
describe a little bit more, in terms of your answer, as it 
relates to whether or not they would find the lakes suitable as 
a habitat, and what effect they have on our ecosystems as a 
whole. What areas of the Great Lakes are more likely to be 
affected by the Asian carp were they to sustain themselves?
    Mr. Carl. Thank you. That's quite a question.
    I think we already know that we've captured fish that have 
grown--the Bighead carp in Lake Erie--so I think the answer to 
the first part of that is: It is likely that they would be able 
to grow and mature in quite a few parts of the lake--the lakes.
    The key question might be, Can they reproduce in the Lakes? 
One of the very restrictive requirements that they have is, it 
seems to be 100 kilometers of stream--of large flowing 
turbulent water is needed at this point. What we base that on 
is--a lot of literature indicates that they haven't been 
successful if that amount of fast-flowing, large river is 
available.
    We have concerns about that. The principle, I think, 
limiting factor may be that the eggs, when they first come out 
of the female, are very dense and very small, and they go--they 
grow very much, they take on water, and they harden. At that 
time, they would sink to the bottom, and they probably would 
smother. It takes about an hour for that process to be 
completed, so that high velocity, turbulent water would be 
necessary.
    We're concerned that it may not be necessary to have a full 
100 kilometers of stream. Even if it is 100 kilometers of 
stream, USGS has identified 22 rivers in the Great Lakes where 
they would be--on the U.S. side only--be possible for them to 
spawn. They may not be large enough or turbulent enough.
    However, one of the concerns I have--and it gets to your 
question about where they might do well--are the connecting 
channels. If you look at the connecting channels, the St. 
Mary's has 120 kilometers of stream, the Niagara River is 58 
kilometers, St. Clair is 58, and the--the Detroit River is 56 
kilometers. So, there may be enough for them to spawn there. If 
they are successful in spawning--particularly, let's say, the 
St. Clair River; immediately downstream you have--Lake St. 
Clair would be a good place for larval fish to grow. So, that 
might be an area that they'd concentrate on. They do like 
concentrations of plankton, they are filter feeders most of the 
time, so that the areas--large embayments, such as Lake St. 
Clair, that the larvae would do well; the western basin of Lake 
Erie, I think, would also be an area; perhaps Saginaw Bay, 
Green Bay, and some of the larger embayments; and Lake Ontario, 
as well. So, those would be areas that they would likely 
concentrate on.
    We do have concerns--and it's in part of our control 
strategy--looking at other methods of feeding. We know that the 
Bighead carp will feed on detritus. That's the muck, 
essentially, on the bottom. So that there's real opportunity 
for them to eat on that, even where the plankton may be sparse 
caused by our quagga and zebra mussels. The silver carp 
apparently will eat algae mats. We have cladophora mats 
throughout the Great Lakes, so there is a good opportunity for 
these fish to grow in other places, as well.
    I'm not sure I've completely answered your question, but 
there--areas would be--that they would concentrate would be in 
the--some of those large embayments.
    Senator Stabenow. Basically, for anyone not knowing 
Michigan, you're talking about large population centers--
Detroit River, St. Clair River, St. Clair--Lake St. Clair, or 
Saginaw Bay--a lot of people. A lot of people involved in 
recreation or fishing activity or commercial activity.
    I'm wondering, though, based on what you're saying, if we 
should be monitoring other Great Lakes tributaries this spring.
    Mr. Carl. I have had discussions with Charlie Wooley, who's 
the deputy director of the--one of the east--of the Fish and 
Wildlife areas that's involved with this. I think we're going 
to be looking at, with the EPA and the Corps, a surveillance 
plan as we move forward. We have been looking at these control 
measures and--so much concentrated on the canal right now, but 
eventually I think we're going to do that.
    One of the projects that we have put--proposed and has been 
funded is to look at modeling to try to predict where we would 
find the fish spawning. That's probably the place--the best 
place to try to detect them, because they'd be concentrated. 
So, we would be looking at that. I would think we would use a 
tool like the eDNA to try to detect them in river systems and 
surveil the ones that we think are the most likely to have 
them. That we might be able to put into effect this summer. I 
can't predict that, because that's a management action. But, we 
would certainly be working with the Fish and Wildlife Service, 
and the State and tribal agencies, to try put that in place as 
quickly as possible.
    Senator Stabenow. Thank you.
    To Ms. Sutley, we thank you for your leadership, and for 
the resources that you've put together, and the efforts that 
have been made. We see a tremendous difference having a Great 
Lakes President with the resources that have been available to 
the Great Lakes. We want to continue to move forward, not only 
on this critical issue, but on other issues that are absolutely 
critical to 20 percent of the world's fresh water, called the 
Great Lakes.
    I wonder if you would speak to the fact--again, there's a 
difference when we look at legislation that has been introduced 
versus the plans that have been put together. Short-term 
efforts are similar. But, the--one big area relates to whether 
or not to temporarily close the locks until there is a 
permanent plan put in place.
    I'm wondering if you might explain the administration's 
position on the locks, and a little bit more of how we do an 
intermittent lock closure. From a layperson's standpoint, you 
know, the fish are moving all the time. So, it's hard to 
explain why we would choose to close the locks part of the 
time, when we know these fish--again, who are eating 
continually and moving continually--are not going to read the 
signs and know, ``Monday, Wednesday, Friday''--you know, I mean 
it--it's--so, there's a concern that I have about whether or 
not we are acting with a sense of urgency. I know people feel a 
sense of urgency, but are we acting with a sense of urgency 
about the reality of what is happening, what we have seen on 
the other side of the locks, from the eDNA, and what we know to 
be coming? I mean, time is of the essence. So, I'm wondering if 
you might just speak to the issue of the locks.
    Ms. Sutley. Certainly. Thank you, Senator.
    As I've said, we share the sense of urgency. As I 
understand, we have crews from the Fish and Wildlife Service, 
and from the Illinois DNR, who are out on the water right now--
they have been all winter--doing sampling and electro-fishing 
and netting, and trying to make sure that, while there's not a 
lot of movement, because of the winter, they're still keeping 
an eye, looking in the areas where the eDNA has been found, 
looking at where there are warm water discharges, to just--to 
ensure that we're keeping an eye on things and really focused 
on getting some answers by the springtime, with respect to the 
operation of the locks.
    So, the Army Corps of Engineers will make a--an--a 
recommendation, as I said, within a few weeks, to the Assistant 
Secretary of the Army for Civil Works, about lock operations 
for the spring and for the foreseeable future.
    I think that the questions are complicated. I think--I know 
everybody would like a simple answer, but it is a little bit of 
a complicated situation. First of all, the locks were not 
designed to be waterproof, so it's not entirely clear--and, 
again, something that the Corps is looking at--whether closing 
the locks would prevent--entirely prevent fish passage. The 
second set of issues are that we do need to understand the 
impact--the potential impact of lock closures on flooding in, 
not only the Chicago area, but throughout northeastern Illinois 
and northwestern Indiana--what happens to the commerce that's 
moving there currently, how to deal with the wastewater 
discharges into--the treated wastewater discharges into the 
canal, and also that it's used for emergencies by the Coast 
Guard and others. So, those are things that are being 
discussed.
    With respect to whether modified lock operations, as 
opposed to closing it off entirely--how--and I think it's a 
fair question to ask--the fish, they may be big, but I don't 
think they're that smart----
    Senator Shabenow. Right.
    Ms. Sutley [continuing]. That, really, right now the 
situation is that the--as I understand it, the canals are 
operated--the locks are operated on the show-and-go, so anybody 
who shows up with a boat, the locks are opened. So, one thing 
that the Corps is looking at is restricting the time that the 
locks will be open, so that it isn't on demand, that it would 
be some period of time, and then also looking at other things 
that they would be doing while the locks were open. So, whether 
further application of rotenone or other chemicals, also 
surveillance and netting and electro-fishing, and other things 
that they would be doing while the locks were open.
    So, that's all under consideration. As I said, we expect a 
recommendation, shortly, to be given to the Assistant Secretary 
of the Army for Civil Works.
    Senator Stabenow. I'll turn to my colleague here in a 
moment, but let me just ask, at this point, though, one other 
thing that--I realize this is the Army Corps, so you can't 
answer directly, but it is of great concern to me when we hear 
about--that a study that will be completed in 2012 regarding 
options. Again, very hard to listen to when we know that these 
fish are on the move and that we have an immediate situation 
happening. So, I'm hopeful that you will join us in developing 
a strategy to be able to move much more quickly and not have 
just a study on what could be done, but, given the Great Lakes 
Commission recommendation and the Governors coming together, 
and others, that we would zero in on and really focus on the 
ecological separation that they recommended, and be more 
focused on how to do that.
    I very much appreciate--I'm not at all insensitive to what 
the current situation means to Chicago, in terms of flooding or 
commerce, and that those are not insignificant, and that we 
need to address those, that--certainly. But, we can do that in 
a way that is--a way that allows us to protect the Great Lakes 
and address those issues. My concern is when we talk about 
timetables and we have the Army Corps looking at 2012. You 
might as well just, you know, start looking out for the carp, 
because I--that's too late. We have to create a much quicker 
turnaround, I think, to do this. So----
    Senator Brownback. Thanks, Senator Stabenow. I appreciate 
that.
    Dr. Carl, I was looking through your testimony, and you 
were going to talk, as well, about other invasive species. 
Obviously, this is a big fish to deal with, and a huge problem, 
and I want to hear more about this, as well, but zebra mussels 
are ones that are hitting more of the west United States and 
places in my State, and I wondered if you had any, just, 
thoughts of how we're doing on those control efforts or what 
needs--what more needs to take place.
    Mr. Carl. A couple things, I think. One, since their 
discovery in January 2007 in the lower Colorado River, the 
quagga mussel has spread to additional waters in the western 
U.S. Early detection provides the greatest potential for 
implementing effective and rapid response and management 
actions to--designed to minimize that impact.
    The USGS, through our Western Fisheries Research Center, is 
conducting a project, in collaboration with Washington State 
University, to develop and implement comprehensive approach for 
monitoring and evaluating capabilities--looking at evaluating 
capabilities essential to managing these invasive species in 
the Colorado River system, and I think that can then be brought 
to other ones.
    A second point that I would make is the biomatrix that 
we're discussing for the Asian carp, we're also proposing to 
use that with the quagga or zebra mussel, depending on what 
infestation you have. In that case, we do know there is a 
bacterium, called pseudomonas, that is toxic to the--both 
species. What we're looking at is packaging that--again, in a 
bio-matrix--encapsulating it in a molecule, and then being able 
to distribute that over the bottom, and basically treating and 
controlling them that way. I think that might have good, strong 
applications in the West, as well as the Great Lakes.
    We us a strategy, with the Great Lakes Fish Commission and 
the Fish and Wildlife Service, with the sea lamprey control, 
and we might envision something similar to that with both of 
those species to try to control those. It's not a solution that 
would eradicate them, but it was something that you could 
reduce their population numbers to the point where they 
wouldn't have the impact that they currently have, both in the 
Great Lakes and some of the western reservoirs that we're 
seeing now.
    Senator Brownback. Now, when you say doing--you're looking 
at doing this, or are you doing this in places now?
    Mr. Carl. The first priority, with the Great Lakes 
Restoration money, is the work on the Asian carp and finding a 
toxin for the Asian carp. We are also starting to develop that. 
We have--with the resources we have, we can work on the Asian 
carp first. Then the second priority would be to work on the 
quagga and the zebra mussel control, as well.
    Senator Brownback. So, you are researching this, at this 
point in time, but you're not using it anywhere? Is that what 
you're saying?
    Mr. Carl. That is correct.
    Senator Brownback. But, you think this same biomatrix that 
works on the Asian carp can work on the zebra mussel?
    Mr. Carl. It would be different in formulation, because, 
with the Asian carp, they're filter feeders, and we want 
something that's buoyant, that they would capture in their gill 
structure and then ingest, and then the toxin would dissolve in 
their gut. That's what we're thinking right now.
    With the mussels, they are on the bottom, so it would be 
something that would sink to the bottom. It would encapsulate a 
specific toxin that we already have--that have--we have 
identified, and put that on the bottom. So, it would be 
slightly different, but it's the same--we're working with a 
private company that has a patent on it, and we have an 
agreement with them, and we would be looking at the same kind 
of work. Potentially, you could use this for other species, as 
well.
    But, I mean, we're looking for field trials, we're--our 
estimate is, we'd be in field trials with the Asian carp in 18 
months. I can't predict where we would be with the--with the 
current resources, I can't predict where we would be with the 
other--this other species, zebra and mussel--zebra and quagga 
mussels.
    Senator Brownback. Some frame beyond 18 months.
    Mr. Carl. Yes. That's correct.
    Senator Brownback. Do you think you're moving fast enough 
on these things?
    Mr. Carl. I think there's a tremendous urgency to these--
both of those issues, both the zebra mussel, and quagga mussel, 
and the Asian carp. I think we are doing what we can with the 
resources that we have, at this point.
    Senator Brownback. So, I take it you don't think you're 
moving fast enough.
    Mr. Carl. I think that we are doing what we can. I guess I 
would repeat what we have said before. I think--is there room 
for improvement? Potentially, there is.
    Senator Brownback. In my--years ago I was secretary of 
agriculture in Kansas, and loved the job. It was a great job. I 
would see we'd--at times, we'd introduce things, or plants, 
into the State to do one thing, and it ended up taking over and 
doing something else, which we hadn't counted on at the time, 
but weren't smart enough, or didn't have enough study, to see. 
It was sure my experience. But, boy, the--you know, to get out 
there ahead of something, you've just got--your options get 
much better, and your dollar amounts are much less, and your 
possibilities for success are much higher, that speed does have 
an impact on these things. Or if you even want to try to 
biological control systems. I don't know--I didn't hear you say 
any sort of biological-type control system--I don't know if 
those are even possibilities on something like this. But, my 
experience with these has been, you're much better off getting 
out there faster, even if you--even if you don't have the 
resources you really would like to have, you get out there with 
what you've got, faster rather than later, and you're going to 
be a lot more effective with it. Because once they get 
established, as you know, it's just--it becomes much more of a 
task to get on top of them.
    Mr. Carl. I agree.
    Senator Brownback. Thank you. This is interesting. I'll 
look forward to the next panel, too.
    Senator Stabenow. Thank you very much, Senator Brownback.
    We're very pleased to be joined by Senator Bayh. Welcome. 
We would encourage you to ask questions.
    Senator Bayh. Thank you, Madam chairman. I apologize for 
being late. As both you and Senator Brownback are well aware, 
I've--or are very familiar with--I found myself trying to 
accomplish the impossible by being in two places at the same 
time. We are, on the Banking Committee, hearing from the 
chairman of the Federal Reserve today about the state of the 
economy. So, I needed to complete my time there.
    So, for the members of the audience who don't follow these 
things, that's why I'm late, and I apologize. It was not out of 
a lack of interest. On the contrary----
    Senator Brownback. You've got the Fed or the Asian carp?
    [Laughter.]
    Senator Bayh. I was interested, chairman. Did the committee 
provide the Asian carp here today?
    Senator Stabenow. Yes.
    Senator Bayh. I can't wait to see how this is reported in 
the press tomorrow, that this was a ``fishing expedition,'' 
``there was something fishy in the committee,'' ``we were 
sleeping with the fishes.'' I can't wait to see----
    Senator Stabenow. You know, this----
    Senator Bayh [continuing]. What the----
    Senator Stabenow [continuing]. This is----
    Senator Bayh [continuing]. Press will----
    Senator Stabenow [continuing]. This is lunch.
    Senator Bayh. Oh.
    [Laughter.]
    Senator Bayh. Asian carp as sushi, huh? That's--OK. I think 
I may stick with the cheeseburger.
    [Laughter.]
    Senator Bayh. In any event, it's interesting. I've been 
here a while, and I've not seen a prop quite that interesting. 
Fortunately, they are on ice.
    I didn't have the benefit of hearing the testimonies, so I 
apologize for that. But, it seems to me that what we need to 
try and do here is strike the appropriate balance. Anyone who's 
seen the Great Lakes, Chairman, as have I--and obviously your 
State is so familiar--knows that they are a tremendous natural 
resource and something truly unique. Many people in other parts 
of the country can't really understand how immense they are, 
and just how special they are. At the same time, we do have 
business and commercial interests, and this is a difficult time 
for our economy.
    So, my question is going to be, How do we go about 
protecting the Great Lakes while at the same time minimizing 
the threat to commerce and disrupting job creation and that 
sort of thing? So, that's what I'm going to be looking forward 
to. I won't ask either of you questions, because I didn't have 
the benefit of hearing you. I'm looking forward to reviewing 
your testimony. But, for our other witnesses, that's where I'm 
coming from. We've got to protect the Great Lakes, obviously, 
but don't want to--we have to do it in the most prudent way 
possible.
    So, thank you for your presence. I apologize for my 
tardiness, but I do look forward to having the benefit of your 
thoughts.
    Senator Stabenow. Thank you very much.
    I have just a couple more questions, and then certainly 
we'll throw it open to any Senators that want to follow up. 
But, let me follow up on Senator Brownback's question, really 
about budget and resources, which are obviously very important.
    So, first I would ask, Are we properly budgeting to carry 
out the activities that we've been talking about today, and 
other things that need to happen, so that we can monitor the 
locations that need to be monitored, that we can act, that we 
can move as quickly as possible to turn around and get results? 
I would ask both of you to respond.
    Ms. Sutley. Thank you, Senator.
    Senator Stabenow. Yes.
    Ms. Sutley. First, we've identified, in the framework, a 
resource need of about $78 million to fund the activities that 
are identified in the framework. We certainly thank you for 
your great assistance in helping us to get the $13 million in 
December, and that both the Army Corps of Engineers, in its FY-
10 appropriations and Recovery Act money, is going toward some 
of these immediate-term actions.
    We're very fortunate that the administration, the Congress, 
have funded the Great Lakes Restoration Initiative this fiscal 
year at $475 million and that, as part of the Great Lakes 
Restoration Initiative, as I said in my testimony, the--one of 
its priorities is to address invasive species. So, it is part 
of that effort.
    So, I think, in terms of resources for the things that have 
been identified in the framework, I think we--we feel like 
we're in pretty good shape there.
    I would say that the--we view the framework as a living 
document. As we identify other actions and other activities 
that may be necessary here, that's something that the working 
group and the folks who are spending all their time on this 
will discuss and make sure are coordinated. If they need 
additional resources, certainly we'll look at that, and look to 
Congress to help us secure those.
    Senator Stabenow. Dr. Carl, in answering that, I wonder if 
you might also distinguish between the activities that we can 
do right now and in the spring compared to activities that are 
experimental. Is there enough money, in--within the framework 
budgeted for these activities? Is the USGS leveraging all its 
expertise and partners? Because we really--I mean, we need to 
know--we need to know--and I realize that you are working, both 
of you, within a framework, within an administration, and 
decisions are made at various levels, but there is a great 
sense of urgency, that we have, and we need to know what you 
need, how soon you need it, and what it's going to take to be 
able move as quickly as possible right now and into the spring, 
as well as long-term.
    Mr. Carl. I've got----
    Senator Stabenow. Doctor.
    Mr. Carl [continuing]. Several parts to that. That's a----
    Senator Stabenow. Yes.
    Mr. Carl [continuing]. Good question. I think I would start 
out by saying that we have several scientists that have been 
working on Asian carp and been thinking about Asian carp and 
have had projects to do on Asian carp for several years. We 
brought those forward now that possibly didn't get as much 
attention before. So, what the Great Lakes Restoration 
Initiative--as I said, there were nine projects. I think they 
were all really good signs for managers. All were approved by 
the EPA, and they've all been funded at the level that we 
requested for this year.
    Now, my next concern, when I talked with EPA, was that this 
was an annual budget and it was approved for this year, and 
they are very much aware that many of these are long-term 
commitments. So, I think that what we have received so far is 
quite adequate for the first year in the study that we're 
looking at. So, I'm--I was astounded that we were able to put 
forward those projects and have them funded. I think we're 
going to do some really exciting research with that.
    In terms of leveraging, one thing I will say is that the 
USGS scientists--and there are quite a few at several centers--
are all working under a single manager, and that's me; and I 
think that is very helpful. We're very closely tied with our 
partners, which I think is also important. We have also started 
a consortium, which is looking at 4 primary USGS aquatic 
centers that work on control issues; and we're sharing 
knowledge, resources, and facilities; and bringing together a 
steering committee of partners to do partner-driven research. 
The focus is on partner-driven research. I think that's a--kind 
of a general answer.
    If I look to the question--the second part of your 
question, where you ask what we doing now, and what are we 
doing longer-term, I think most of the work that we are doing 
is longer-term. As I mentioned to Senator Brownback, the Asian 
carp, we're looking at field testing in 18 months. There are 
permits that we have to have from EPA and a lot of different 
things that have to occur in that timeframe, and the pressure 
is on our scientists.
    The shorter-term things, we had proposed and had accepted 
the idea of sonic disruption of spawning areas. In talking with 
one of my scientists, who had already been working on that, he 
had found a patented hydrocanon, coming out of the East Coast, 
that we're looking at taking over--rather than looking at sonic 
disruption of spawning grounds, we're actually looking at that 
for targeting carp that might be in the canal.
    So, we're looking at accelerating that program. I've 
already talked to the Illinois Department of Natural Resources, 
the EPA, the Army Corps, and Fish and Wildlife and we've gotten 
a green light from everyone to go for it. When the ice comes 
out, we plan on being at one of our centers, looking at Asian 
carp that we have--they're--within the watershed that they're 
already in, they're not in the Great Lakes--and looking at 
whether these are effective in either moving the fish out or 
killing them. After we're done with that, we would be looking 
at field testing--potentially on either the Illinois River or 
in the canal--and it could be this summer, depending on the 
results. There is risks to that strategy, but I think it's well 
worth it--the urgency that we have.
    If you then look at the longer-term things--what we're 
trying to do as a science agency--our goal is to increase the 
management tools for control. So, we're looking at selective 
toxin; we're looking at attracting them with pheromones; we are 
looking at sonically herding them and eliminating them; and 
we're looking at whether we can predict where they are through 
some modeling efforts with our water science centers. We also 
would like to see the eDNA technique developed better, so that 
we can use that as part of a surveillance plan. So there's a 
whole suite of potential management tools that we coming--
potentially could be coming on in the next few years, as we 
move forward.
    Senator Stabenow. Thank you.
    I think, at this point, we will move to our next panel, 
unless----
    Did you have any question Senator Bayh?
    Senator Bayh.  Just one brief question.
    I see some of the steps you've taken, whether its 
electronic fencing or poisoning or other things. How have the 
fish managed to frustrate the steps that have been taken, to 
date?
    Mr. Carl. We do have positive DNA above the weir. It's not 
clear right now how the fish got there. I think people presume 
that they came up over the weir. I'm not sure that they can, or 
not, because the weir is a fairly--is a pretty effective tool 
for that. There are other ways. One of the things that I didn't 
mention is that we're looking at subterranean methods for the 
fish to move from the Des Plains River to the canal system. 
Then that's one of the projects that we're going to look at. We 
think there's fractured bedrock and there may be----
    Senator Bayh. Or underground streams----
    Mr. Carl [continuing]. Underground streams.
    Senator Bayh [continuing]. Something like that?
    Mr. Carl. We'll be looking at that, beginning this spring. 
Again, we have to wait til the ground thaws----
    Senator Bayh. In terms----
    Mr. Carl [continuing]. To try----
    Senator Bayh. Forgive me----
    Mr. Carl [continuing]. That.
    Senator Bayh [continuing]. My chemistry is not what it once 
was. Pheromones?
    Mr. Carl. Pheromones. We haven't used those yet, but 
we're----
    Senator Bayh. What are----
    Mr. Carl [continuing]. Certainly----
    Senator Bayh [continuing]. What are pheromones.
    Mr. Carl. Pheromones are something that a animal gives off 
that either attracts of repels others. So, there's a fright 
pheromone, that we know that we've seen in the Asian carp, that 
will tell other Asian carp to go away. They may go away for 2 
or 3 days. Attractings pheromone often is a sex pheromone. A 
lot of work has been done on that with sea lamprey. They're 
very effective in bringing sea lamprey in.
    Senator Bayh. I'm not even going to touch that. But----
    [Laughter.]
    Senator Bayh. Just interested. Thank you.
    Senator Stabenow. Thank you, and that's a very important 
question.
    Again, thank you, to both of you. I realize that you are 
focused. We appreciate your leadership. But, we will continue 
to follow up with you, because we have a great sense of 
urgency. There is a strong bipartisan support for moving 
quickly and having the resources available, and being focused 
on what I view, as a crisis. So, thank you very much for being 
here.
    Thank you.
    We would ask our second panel to join us.
    Senator Stabenow. Welcome. We are very glad to have you 
with us.
    First let me say that Senator Durbin has submitted 
testimony for the record today, as well, which we welcome. We 
thank his leadership on appropriations and really championing 
the electric fences and the other resources that have been made 
available up to this point. So, we look forward to continuing 
to partner with him, as well.
    [The prepared statement of Senator Durbin follows:]
 Prepared Statement of Hon. Richard Durbin, U.S. Senator From Illinois
    Let me start by thanking Chairman Stabenow for holding this 
hearing. Asian carp pose a serious environmental threat to the Great 
Lakes. I know that the Chairwoman, like all of us representing Great 
Lakes states, is very concerned about this threat. Today's hearing is 
another opportunity for us to hear from agencies and private sector 
stakeholders who are working with Congress to contain this aggressive, 
invasive species.
    The Great Lakes are a national treasure. They represent one fifth 
of the world's fresh surface water, provide endless boating and beach 
recreation activities and are used as a major mode of transport for 
bulk goods.
    While the threat of an Asian carp invasion are real and imminent, 
this Administration, Members of Congress, state and local agencies, and 
environmental advocates are engaged and are working together to meet 
this collective challenge.
    The White House has identified the protection and restoration of 
the Great Lakes as a high priority, and Congress has concurred with 
full funding in FY10 for the $475 million Great Lakes Restoration 
Initiative. The agencies participating in this Initiative recognize 
that protecting the Lakes from an advancing invasive species is a 
priority we must address. And we must address it now.
    Asian carp present a complex challenge. They are deemed 
``invasive'' because there is no natural predator for the species in 
the Midwest. Asian carp reproduce quickly, out-compete other species 
and spread rapidly. Several federal agencies, along with the Illinois 
Department of Natural Resources, have been working together to 
implement rapid response measures to combat the Asian carp in Illinois 
waterways. These efforts are having an effect. But to contain these 
fish, we need a full arsenal of management options.
    On Feb 8th, the Administration released a $78 million Draft Asian 
Carp Control Framework . This plan to contain Asian carp lays out 
short-term and long-term actions, with an overarching goal of 
preventing the species from establishing in the Great Lakes. While 
individual components of the plan may invite further scrutiny and 
spirited debate, the Framework as a whole includes a mix of science, 
engineering and management options.
    The Framework calls for a longer term inter-basin study that 
determines all invasive access points into the Great Lakes, and 
considers more than just the Asian carp. Chicago is the current hotspot 
for invasive species to enter Lake Michigan, but the Great Lakes have 
multiple access points. With a better understanding of all our 
vulnerable locations, we will be better prepared to manage the threat 
from this and, as yet unknown, invasive species.
    The U.S. Geological Service found that an Asian carp can move 200 
miles in one year, so we can't afford to slow down. Thank you for your 
leadership, Chairman Stabenow, and for convening this important 
hearing. I look forward to hearing from our witnesses.

    Senator Stabenow. Let me just briefly introduce our second 
panel. Senator Brownback has introduced the Honorable Mike 
Hayden--Secretary Hayden--with the Kansas Department of 
Wildlife and Parks.
    Senator Brownback, did you wish to make any other comments?
    Senator Brownback. Only that Secretary Hayden was Governor 
Hayden, was also head of Fish and Wildlife, nationally, and, I 
found, just has an extraordinary knowledge of natural species 
and habitat and issues, and, I think, can be a great resource 
for us, and, on top of that, is a good friend and understands 
these systems and the processes, both politically and 
biologically.
    Welcome, Governor Hayden.
    Senator Stabenow. Great. We're very glad to have you. I 
want, personally, to welcome Ken DeBeaussaert, the director of 
the Office of the Great Lakes of the Michigan Department of 
Natural Resources and Environment, and a longtime friend. We 
served together in the State House of Representatives.
    So, it's wonderful to have you, Ken, and thank you for your 
leadership, as well.
    Marc Miller, the director of the Illinois Department of 
Natural Resources, is a very important partner in all of this 
as we proceed, and we very much appreciate your leadership.
    Jim Farrell, the executive director of Infrastructure 
Council for the Illinois Chamber of Commerce, a very important 
perspective as we move forward on how we solve this problem.
    Dr. John Taylor, it's great to have you, an associate 
professor, director of supply chain management programs, at 
Wayne State University, in Detroit Michigan.
    Mr. Taylor, we thank you.
    Mr. Andy Buchsbaum, regional executive director for the 
Great Lakes Regional Center, the National Wildlife Federation.
    We thank you so much for being here, as well.
    We'll ask each of you, because we appreciate having all of 
you, and because the number of guests that we have testifying--
we would ask each of you to speak for 5 minutes. You should 
have a clock in front of you, and a red light that will go off. 
We will then open it up from--questions, from there.
    So, Secretary Hayden, welcome.

STATEMENT OF J. MICHAEL HAYDEN, SECRETARY, KANSAS DEPARTMENT OF 
                 WILDLIFE AND PARKS, TOPEKA, KS

    Mr. Hayden. Thank you, Senator Stabenow and members of the 
committee. First of all, thank you for the opportunity to share 
our perspectives and experiences with the growing problem of 
invasive species. I want to emphasize that it is a growing 
problem. Every week, every month, every year, we're faced with 
new invasive species throughout the Nation, and, unfortunately, 
Kansas, even though it's in the heart of the country, is no 
exception.
    The focus of what you will hear today, several invasive 
species of fish collectively known as the Asian carp, is very 
important. The threat these fish pose to the Great Lakes is 
very real. Asian carp will impact commercial fisheries, 
tourism, recreational fisheries, and the ecosystem. We urge you 
to consider this carefully, and, most importantly, to act to 
prevent the further spread of these species.
    Asian carp have spread throughout the Mississippi River 
basin and, at this time, are only being stopped where there are 
obstructions, such as large dams big enough to prevent their 
passage. They have and continue to impact native fisheries 
throughout the heart of the Nation, and their numbers continue 
to increase, and actually increase very rapidly. In addition, 
they are a threat to public safety, as you've already heard, 
because of their ability and habit of jumping out of the water 
when boats pass. Imagine an entire school of fish, that may 
weigh 60 pounds or more, jumping 6 or 8 feet into the air when 
a motorboat passes, or waterskiers, or jet skis. People have 
been injured, and, unfortunately, they'll continue to be 
injured in the future, from the spread of these species. Again, 
we act you--we urge you to act now.
    But just as the Great Lakes are only part of the problem 
with the spread of Asian carp, Asian carp are only part of the 
invasive species problem. Invasive fish, plants, mussels, 
snakes, crustaceans, and other invertebrates, and diseases, are 
all a part of the problem. Invasive species impact every 
American and the American way of life. We're talking about the 
Asian carp today, as we should be, but what will it be 
tomorrow? You can build electric barriers, you can install 
fences along the flood areas, as outlined in the Federal 
Framework, but these measures only address one small component 
of the invasive species problem, and, in all honesty, their 
successes may well be limited.
    We have heard discussion about the potential Asian carp 
impact on native species in the Great Lakes, but we're ignoring 
the non-native interchange of water, waste, and species between 
the Great Lakes and the Mississippi River through the Chicago 
Sanitary and Ship Canal. Sources indicate that there are 
roughly 180 non-native species currently in the Great Lakes. 
There are several of these invasive species, such as the 
snakehead fish, in the Mississippi River who are moving 
northward. So we've got invasive species coming from the Great 
Lakes and threatening to enter the Great Lakes at the same 
time. Which one of these will be the next to invade the 
Mississippi Basin or the Great Lakes, or where else in this 
Nation?
    Abraham Lincoln once said, ``If I were to go west, I'd go 
to Kansas.'' Unfortunately, Lincoln never took up residence in 
Kansas, but a number of invasive species have.
    [Laughter.]
    Mr. Hayden. Coincidentally, one of them, the zebra mussel, 
was transported in ballast water of a ship and became 
established in the Great Lakes in the 1980s, and, since that 
time, has spread across the Nation and has become a very large 
problem. Zebra mussels now inhabit 6 Federal reservoirs in 
Kansas, and many other smaller lakes and streams. Similar to 
Asian carp, they pose a threat economically, environmentally, 
and to human health. They clog water intakes; they kill our 
native mussels, many of whom are threatened or endangered; they 
damage boats; and they cut the feet of swimmers.
    One example of Asian clams, for example, in Kansas. 
Recently, we have a local fire department--rural fire 
department hook up to a dry hydrant at a lake to fight a fire. 
The firetruck intake became completely clogged with these small 
clams, effectively rendering it useless against the fire. This 
is just one. We have hundreds of these small lakes with dry 
hydrants that we use to fight fires in the rural areas. If they 
continue to clog those up, it really, of course, renders us 
almost helpless against these fires.
    The opportunity for new invasive species seems almost 
endless. However, there are some solutions. First and foremost, 
preventing the introduction is always the cheapest and the 
easiest. In fact, getting rid of them is almost impossible once 
they become established. The zebra mussel is a very good 
example of that. Current laws make it too easy to bring non-
native species to the United States, and we often end up 
chasing one species after another, after they become 
established. National policy needs to move toward providing--
proving a species will not become a problem, before it is 
imported.
    Further management of invasive species already present is 
extremely difficult with the current level of Federal funding. 
Last year, Kansas got $37,000 from the Federal Government to 
fight invasive species, and that $37,000 is a reduction from 
the previous year. We don't have near the tools at either the 
Federal or the State level right now. We have not marshaled 
adequate resources to address this problem.
    We need your help, Madam Chair. The Asian carp and hundreds 
of other invasive species will continue to damage our 
fisheries, our water supplies, our tourism, and our economy, 
not only of the Great Lakes, but of the Nation as a whole. 
National policies need to make it harder for invasive species 
to come to this country, and more needs to be done to implement 
existing programs to prevent their spread.
    Thank you very much, Madam chairman.
    [The prepared statement of Mr. Hayden follows:]

 Prepared Statement of J. Michael Hayden, Secretary, Kansas Department 
                   of Wildlife and Parks, Topeka, KS

    Chair Stabenow and members of the committee, thank you for the 
opportunity to share our perspective and experience with the growing 
problem of invasive species. I want to emphasize this is growing 
problem. Every week, every month, every year, we are faced with new 
invasive species throughout this nation and unfortunately, Kansas is no 
exception.
    The focus of what you will hear today, several invasive species of 
fish collectively known as ``Asian Carp'', is important. The threat 
these fish pose to the Great Lakes is real. Asian Carp will impact 
commercial fisheries, tourism, the ecosystem associated with the Great 
Lakes and the associated local and regional economies. We urge you to 
consider this carefully and act to prevent the further spread of these 
species.
    Asian carp have spread throughout the Mississippi River basin and 
at this time only being stopped where there are obstructions such as 
dams large enough to prevent them from passing. They have and continue 
to impact native fisheries throughout the heart of the nation and their 
numbers continue to increase. In addition, they are a threat to public 
safety because of the silver carp's habit of jumping out of the water 
when boats pass. Imagine an entire school of fish that may weigh 60 
pounds jumping six or eight feet in the air when a motorboat, water 
skier or jet ski passes. People have been injured and unfortunately, 
more will be in the future.
    Again, we urge you to act now to prevent the spread of Asian Carp 
into the Great Lakes. But, just as the Great Lakes are only part of the 
problem with the spread of Asian Carp, Asian Carp are only part of the 
invasive species problem. Invasive Fish, Plants, Mussels, Snakes, 
Crustaceans, other Invertebrates and diseases are all part of the 
problem. Invasive species impact every American and the American way of 
life. We are talking about Asian carp today, but what will it be 
tomorrow? You can build electric barriers or install fences along the 
flood areas as outlined in the Federal Framework but these are measures 
that address one small component of the invasive species problem and 
successes may be limited.
    We have heard discussions about the potential Asian carp impacts on 
native species in the Great Lakes but we are ignoring the non-native 
interchange of water, waste, and species between the Great Lakes and 
the Mississippi River Basin through the Chicago Sanitary and Ship 
Canal. Sources indicate there are roughly 180 non-native species 
currently in the Great Lakes. There are several invasive species such 
as the snakehead fish in the Mississippi River Basin moving upstream. 
Which one will be the next species to invade the Mississippi River 
Basin, Great Lakes or somewhere else in the nation? As long as there is 
a direct connection between these two large basins we will continually 
be fighting this battle.
    Abraham Lincoln once said, ``If I were to go west, I would go to 
Kansas''. While Lincoln never took residence in Kansas, several 
invasive species have. Coincidentally, one of them, the Zebra Mussel, 
was transported in the ballast water of a ship and became established 
in the Great Lakes in the 1980's. It has since spread across the 
nation, including Kansas, and has become a very large problem. Zebra 
Mussels now inhabit 6 federal reservoirs in Kansas and many other 
smaller lakes and streams. Simalarly to Asian carp, they pose a threat 
economically, environmentally, and directly to human health. They clog 
water intakes, kill native mussel species, damage boats and cut the 
feet of swimmers. Asiatic Clams, or Corbicula, are another problem 
invasive. One example is a local fire department attempted to use a 
``dry hydrant'' at a lake to replenish their water supply on the fire 
truck. The fire trucks intake became completely clogged with these 
small clams or mussels effectively making the truck unusable to fight 
fire and protect the public.
    The opportunity for new invasive species seems almost endless and 
the different ways these organisms are spread is almost as big a 
problem. However, there are some solutions. First and foremost, 
preventing the introduction of invasive species is always cheaper and 
easier than removing them. In fact, getting rid of them is often 
impossible once they become established. Zebra Mussels are a good 
example. Once they are established, removing them from a large lake 
such as a federal reservoir would require measures so extreme that it 
just isn't practical. We must do more to prevent Invasive Species from 
coming to the nation. Current law makes it too easy to bring non-native 
species to the U.S. and we often end up chasing one species after 
another after they have become established. We lose the opportunity to 
prevent invasive species from becoming established by banning species 
AFTER they have become a problem rather than BEFORE. National policy 
needs to move toward proving a species will not become a problem BEFORE 
it is imported. Further, management of invasive species already present 
in U.S. waters is extremely difficult with the current level of federal 
funding support. Resources need to be directed to current management 
efforts such as the Asian Carp Management and Control Plan or the 
Quagga/Zebra Mussel Action Plan.
    Chair Stabenow, we need the Committee's help. Asian Carp and the 
hundreds of other Invasive Species will damage our native fisheries, 
water supplies, tourism and economy of the Great Lakes and resources 
across the nation unless more is done. National policies need to change 
to make it harder for Invasive Species to come here. And more needs to 
be done to implement existing programs to prevent the spread of 
Invasive Species.

    Senator Stabenow. Thank you, Secretary Hayden. Thank you 
for bringing a broader perspective to this, in terms of not 
only the Great Lakes and Asian carp, but what is happening in 
Kansas and across the country. Thank you.
    Mr. Hayden. Right.
    Senator Stabenow. Mr. DeBeaussaert.

STATEMENT OF KEN DEBEAUSSAERT, DIRECTOR, MICHIGAN OFFICE OF THE 
 GREAT LAKES, DEPARTMENT OF NATURAL RESOURCES AND ENVIRONMENT, 
                          LANSING, MI

    Mr. DeBeaussaert. Thank you, Madam Chair and members of the 
committee.
    First, Madam Chair, let me thank you for the leadership 
that you've shown, not only on this issue, but on other Great 
Lakes issues throughout your distinguished record of service to 
the people of the State of Michigan.
    My name is Ken DeBeaussaert, and I am director of the 
Michigan Office of the Great Lakes. I appreciate the 
opportunity to be with you today to talk about the policy of--
related to efforts to avert the looming catastrophe that we 
face if Asian carp become established in the Great Lakes.
    Allowing those carp to populate our waters will destroy the 
resource as well as the recreational opportunities. The Chair 
has indicated the economic impact there. So, we must act 
swiftly and collaboratively and wisely to address this crisis.
    As the Secretary noted, invasive species have already 
created havoc for the natural resources and economy, not only 
of the Great Lakes, but across the country. Invasive species 
have profoundly changed the ecosystem of the Great Lakes.
    Michigan has taken some specific actions to try to address 
this question, including enacting legislation requiring all 
oceangoing ships to obtain a permit for ballast water 
discharges in our State and taking legal actions to address 
ballast water issues, not only defending our State law, but 
also trying to seek some action to force the Federal agencies 
to act in areas where we think they--that they need to. We 
administer our own State regulatory programs to control aquatic 
and nuisance species, including restrictions on the transport 
of certain invasives--invasive species, and the establishment 
of a list of invasive species prohibited in Michigan.
    Specifically related to the question of Asian carp, 
Michigan has been involved over a long period of time. We've 
contributed financially to the construction of the electrical 
barrier in the Chicago Sanitary and Ship Canal system; we have, 
in Michigan, prohibited the possession of live Asian carp; 
we've participated in the rapid response activities, that I 
think we'll be hearing about in a moment, that occurred in 
December; we have consistently communicated. On our written 
testimony we have some attachment of communications to our 
Federal partners about the importance of actions, and some 
suggestion on how we might be able to move forward more 
quickly, including letters from our Lieutenant Governor to the 
Secretary--Assistant Secretary of the Army and the Governors; 
of course, correspondence with the White House.
    As others have said, I can't stress the following strongly 
enough: Once an invasive species gets established in the Lakes, 
we cannot eradicate it, fully control it, its spread, or the 
damage that it causes. In order to solve the problem, though, 
the threat of Asian carp must be treated as the crisis that we 
think it is, and steps must be implemented immediately to 
address it.
    As long ago as 2003, there was a--scientists and government 
officials and stakeholders were calling for the ecological 
separation of the Great Lakes and the Mississippi River Basin 
to prevent spread of invasives between those two bodies. We did 
not see action occur quickly enough, in our view. Short-term 
actions become long-term projects. For example, the 
installation of the second electrical barrier took over 6 
years, and it's still not fully operational; and it took 
several years to ban the importation of black carp and silver 
carp under the Lacey Act; and Bighead carp are not yet listed 
under that Act.
    So, we appreciate the efforts by the administration now to 
try to assemble all the Federal agency positions and actions in 
one place through the draft framework. There are, as--in my 
testimony, a number of areas where we are supportive of that 
document. But, overall, we're concerned that it does not 
provide the full comprehensive approach that's necessary in the 
short-term, and doesn't provide the kind of a long-term focus 
on the solutions that we need to achieve the prevention of this 
introduction. That, again, is that ecological separation that I 
mentioned.
    So, if we're really to embrace the new standard of care 
that was outlined by the EPA administrator, earlier this week, 
the draft framework, we think, needs to be revised and improved 
and strengthened, using that sense of urgency that's talked 
about in the regional--Great Lakes Regional--or Restoration 
Initiative plan of action.
    We have some specific recommendations that I have laid out 
in the testimony. I'll just touch on a few of them. First is, 
of course, developing and implementing plans for the permanent 
solution to the problem, that would ecologically and physically 
separate the systems. I would note that--as you have, that the 
Great Lakes Commission unanimously adopted that as a position 
earlier this week.
    In Michigan, we believe that closing the O'Brien and the 
Chicago locks until a permanent ecological barrier is 
constructed, consistent with protection of public health and 
safety, is important. We do support the need for additional 
studies, but need, as you've said, Madam Chair, to conduct them 
on a much faster timeline to get the kind of action that we 
think is necessary. There are a series of operational measures 
related to some of the other control structures that we've 
mentioned, and we support the additional interim barriers at 
other locations. We support the efforts to do additional 
studies on the biology and ecology of the carp, and predictive 
models to determine the areas at highest risk. We obviously 
need to provide the additional support for monitoring and to 
provide the reserve for chemical treatments, if necessary in 
the future, for rapid response activities.
    But, I would note that--and I think the--that the Congress 
may also be able to be--you know, help provide additional 
support, not only in the authorizations and appropriations, but 
also provide some clear direction about the timelines and 
activities that the Federal agencies must adopt to try to 
address this issue with the seriousness that we think it 
deserves.
    So, I thank you again for your interest in holding this 
hearing today, the urgency that I sense from you, that we have 
in the State of Michigan, and look forward to the rest of the 
presentations.
    [The prepared statement of Mr. DeBeaussaert follows:]

 Prepared Statement of Ken DeBeaussaert, Director, Michigan Office of 
   the Great Lakes, Department of Natural Resources and Environment, 
                              Lansing, MI

    Madame Chair and Members of the Subcommittee: My name is Ken 
DeBeaussaert, and I am the Director of the Michigan Office of the Great 
Lakes. I appreciate the opportunity to testify today about the policy 
behind the efforts to avert the looming catastrophe that we face if 
Asian carp become established in the Great Lakes.
    My role within the Michigan Office of the Great Lakes is to develop 
Great Lakes policy for issues critical to our state. Invasive species 
such as the Asian carp are certainly a critical issue. Allowing Asian 
carp to populate our Great Lakes will destroy the resource as well as 
recreational opportunities. We must act swiftly, collaboratively, and 
wisely to address this crisis.
    Invasive species have already created havoc for the natural 
resources and economy of the Great Lakes. Invasive species have 
profoundly changed the ecosystem of the Great Lakes, significantly 
impacted the Great Lakes sport and commercial fisheries, have hampered 
recreation, and caused many millions of dollars in damages to 
infrastructure all of which have a negative effect on Michigan's 
economy.
    Let me give you an example. Lake Huron once had a vibrant salmon 
sport fishery, with hundreds of charter boats attracting thousands of 
anglers each year to ports up and down its long coastline. Fishing 
derbies attracted additional anglers who launched their boats or kept 
their boats at local marinas. But invasive zebra and quagga mussels 
(Eurasian invaders) have caused the collapse of the salmon population, 
and thus the sport fishery. Gone are the fishing derbies, charter 
boaters have left the ports, and anglers have moved elsewhere. This was 
a several hundred million dollar industry, and it is gone.
    Michigan has taken aggressive steps to stop the further spread of 
these foreign invaders, including:

  <bullet> Requiring that Great Lakes ships to report on ballast water 
        management practices established by the shipping industry,
  <bullet> Enacting legislation requiring all ocean-going ships to 
        obtain a permit for ballast water discharges. The permit 
        specifies the use of an approved treatment system to prevent 
        release of invasive species via ballast water,
  <bullet> Taking legal action to address ballast water issues, 
        including successfully defending our state laws in federal 
        court and challenging federal agencies for their failure to 
        appropriately use existing regulatory authority to act, and
  <bullet> Administering state regulatory programs control aquatic 
        nuisance species in our lakes and rivers. These programs 
        include restrictions on transport of invasive species of fish, 
        establishment of a list of invasive species prohibited in 
        Michigan, and participation in actions to control sea lamprey 
        in Great Lakes tributaries.

    Specifically with regard to Asian carp, Michigan has:

  <bullet> Contributed financially to construction of the electrical 
        barrier in the Chicago Sanitary and Ship Canal; and
  <bullet> Prohibited possession of live Asian carp in the state; and
  <bullet> Participated in the response actions in December 2009 that 
        treated the Canal to remove Asian carp prior to maintenance of 
        the electrical barrier; and
  <bullet> Consistently communicated our concern and recommendations 
        for actions to federal agencies, most recently through a letter 
        from Lt. Governor John Cherry to the U.S. Army Corps of 
        Engineers in November, 2009.

    I cannot stress the following strongly enough: Once an invasive 
species gets established in the lakes, we cannot eradicate it, fully 
control its spread, or the damage it causes.
    The story of Asian carp does not need to be a legacy of destruction 
for future generations. The Great Lakes community, including Governors, 
congressional delegations, local government officials, and citizens has 
proven that they can work together on difficult challenges. This is a 
formidable challenge, but together we can and must solve it.
    But in order to solve the problem, the threat of Asian carp must be 
treated as a crisis and steps must be implemented immediately to 
address it. As early as 2003, scientists, governmental officials, and 
stakeholders were calling for ecological separation of the Great Lakes 
and the Mississippi Rover basins but we did not see action occur 
quickly enough. Short-terms fixes have become long-term projects. For 
example, the installation of the second electrical barrier took over 
six years, and it is still not fully operational. It took several years 
to ban the importation of Black Carp and Silver Carp under the Lacey 
Act. Bighead Carp are still not covered under that Act.
    We appreciate the efforts by the Administration to assemble all 
federal agency positions and actions in one place but the draft Asian 
Carp Control Strategy Framework proposed by federal agencies falls well 
short of a comprehensive approach to prevent Asian carp from entering 
the Great Lakes. In our view, the draft Framework fails to include 
necessary short term actions and fails to focus on ultimate solutions 
which we believe are achievable.
    The recently released Great Lakes Restoration Initiative Action 
Plan cites Asian carp as an Action Illustration for application of the 
Initiative. If the carp are allowed to get into Lake Michigan, the 
illustration will take a bad turn and it will be sorry day for the 
Great Lakes. From a state perspective, it is critical for the federal 
agencies to heed the three main operating principles in the Action 
Plan: accountability, action, and urgency.
    I started by saying that we must act swiftly, collaboratively, and 
wisely to address the threat posed by Asian carp. Here are my 
recommendations to meet those objectives.
    Federal and non-federal efforts consistent with protection of 
public health and safety must immediately be taken to prevent the 
migration of Bighead and Silver Carp into Lake Michigan. These actions 
include:

  <bullet> Developing and implementing plans for a permanent solution 
        to the problems that would ecologically and physically separate 
        the carp-infected waters of the Mississippi River basin from 
        the Great Lakes;
  <bullet> Communicating on actions and data in a timely manner;
  <bullet> Closing and ceasing operation of the O'Brien Lock and the 
        Chicago Lock until a permanent ecological barrier is 
        constructed between the Great Lakes and the Mississippi 
        watershed;
  <bullet> Initiating studies to be completed by the end of this year 
        to examine the feasibility of transferring cargo via other 
        transportation systems;
  <bullet> Operating other water control structures near Lake 
        Michigan--at the O'Brien Lock, the Chicago Controlling Works, 
        and the Wilmette Pumping Station in a manner that will not 
        allow fish to pass into the Lake;
  <bullet> Installing interim barriers at other locations this year, 
        including barriers between the Des Plaines River and the Canal 
        and in Indiana Harbor and Burns Ditch from the Grand Calumet 
        and Little Calumet Rivers to eliminate the potential for 
        flooding between the two watersheds;
  <bullet> Completing additional studies related to the biology/ecology 
        of the carp and predictive models to determine the areas at 
        highest risk for colonization in the Great Lakes, including 
        estuaries and bays, drowned river mouths, and river systems;
  <bullet> Providing additional dollars for continuous monitoring of 
        carp based on risk analyses, with funding on reserve for 
        chemical treatment used as a rapid response mechanism as 
        warranted;
  <bullet> Completing electrical barrier 2b this year;
  <bullet> Developing a proactive campaign to educate the public about 
        the risks, dangers of Asian carp so that they do not get hurt 
        or unknowingly (or knowingly) spread these dangerous fish into 
        inland waters; and
  <bullet> The Corps of Engineers must be given necessary authorities 
        and appropriations and may need additional direction from 
        Congress on the authorities that already exist in order to see 
        action occur more expeditiously.

    We all treasure the Great Lakes and share a commitment to their 
continued vitality. We must now all share a similar commitment to move 
aggressively forward to stop the spread of Asian carp. The Great Lakes 
states may have challenging discussions on specific actions, but that 
should not stop us from moving forward. Allowing Asian carp to populate 
our Great Lakes will destroy the resource and the recreational 
opportunities they provide us.
    My submitted testimony has additional attachments.*
---------------------------------------------------------------------------
    * Additional documents have been retained in subcommittee files.
---------------------------------------------------------------------------
    Thank you for your time. I appreciate the Committee's attention to 
this matter.

    Senator Stabenow. Thank you very much for your leadership.
    Mr. Marc Miller, we are very appreciative of your efforts, 
as well, in Illinois.

  STATEMENT OF MARC MILLER, DIRECTOR, ILLINOIS DEPARTMENT OF 
            NATURAL RESOURCES, SPRINGFIELD, ILLINOIS

    Mr. Miller. Thank you, Madam Chair. Thank you, members of 
the subcommittee, for this opportunity to testify on the role 
of the Illinois Department of Natural Resources in battling the 
Asian carp invasion.
    Since the early 1990s, we have been fully engaged in this 
effort. I will first mention a couple of recent actions that we 
have taken and then outline our action plans for the immediate 
future as we work with our Federal, State, and local partners 
to prevent the spread of Asian carp into the Great Lakes.
    First, I want to be absolutely clear on one very important 
point. Our commitment to this task is--has been and remains 
unwavering. We have been working closely with our partners--
partner States, including Michigan and Wisconsin--and the 
Federal agencies to develop effective control strategies.
    Illinois has also contributed significant resources to 
controlling Asian carp. One example of this is supporting, as a 
cost-share partner, $1.8 million for the creation of the 
electric barriers.
    Most recently, Illinois DNR has served as the lead agency 
for the successful rapid-response effort, an effort last 
December to prevent the upstream movement of Asian carp when 
the electric barrier system was shut down for maintenance. We 
laid down a chemical barrier while that barrier was shut down. 
The unified response of the Great Lakes States and Provinces 
was a shining leadership moment for our region, and a prime 
example of how a small group of committed people can make a 
difference.
    This unparalleled effort demonstrated that Federal, 
provincial, State, and local partners can work together to help 
ensure that this invasive species does not establish a 
sustainable population in the Great Lakes and threaten this 
globally important ecosystem. Over 400 people worked together, 
with contributions of supplies, equipment crews, and partners 
throughout the Basin. The Rapid Response team safely applied 
rotenone, a fish toxicant, to a 6-mile stretch of the Ship and 
Sanitary Canal. The Corps of Engineers performed critical 
maintenance on the electric barrier, and we led the cleanup and 
removal of over 18,000 fish including one Bighead carp. That 
one fish documented that the Asian carp were at the barrier and 
could have moved past the barrier in a potentially large number 
if we had not conducted that action.
    It is important to note that, as we consider additional 
operations, the cost of this one single action was over $3 
million and would not have been possible without the 
substantial donations of equipment and labor from the States 
and Provinces, and financial support from our Federal partners. 
We'd like thank all of those who were involved in this critical 
effort.
    There are several lessons that we've learned from this 
experience that I would like to share with the committee:
    First, meeting this challenge will require even greater 
collaboration and levels of partnership. We must enlist the 
scientific and communication resources, as well as the 
political leadership, of every State and Province in the Basin 
to join this effort.
    Second, early and sustained outreach to key stakeholders, 
proactive communication strategies, and operational 
transparency must continue to be maintained as we move forward 
with our framework strategy and operations.
    Finally, the collaborative approach that has been developed 
with our local, State, and Federal partners is working very 
well, and we believe it represents the best model for our 
future efforts.
    I now wish to outline actions to control Asian carp that 
IDNR is undertaking. These actions will be conducted as part of 
the Asian carp framework strategy that was announced recently.
    We will conduct Asian carp removal throughout the entire 
Chicago Area Waterway System. This includes identification, 
containment, and removal of carp using standard fisheries gear, 
including netting, electrofishing, contract commercial fishing, 
and toxicants such as rotenone. These priority actions will be 
focused above the barrier in locations most likely to hold 
carp. We have been working for the past several weeks to use 
these efforts--use these techniques to try to identify, and, as 
of yet, we have not found any carp.
    IDNR will also contract with commercial fishermen to 
operate below the barrier system, that front line of defense, 
to reduce populations and propagule pressure, or pressure for a 
invading specie, on the barrier system.
    Informed by Corps of Engineers eDNA--environmental DNA--
monitoring, we will conduct sampling and removal in hotspots of 
the Cal Sag Channel. This includes the entire length of the Cal 
Sag below O'Brien lock and dam, as well as the North Shore 
Channel, and the Wilmette pumping station.
    We will also participate with the Corps of Engineers 
efforts to refine environmental DNA technology so it is a 
better predictor of location and population size. Those 
questions are not answered today when we have that for 
management techniques.
    Also in the next 90 days, we will conduct a survey of all 
retail live bait locations to ensure that live Asian carp 
minnows are not being sold in Chicago area bait shops, 
something that is currently unlawful in Illinois. This effort 
is already underway.
    Included in my written testimony are some long-term actions 
that we will be taking, but we--as we look forward to working 
on this issue, all of our partners are very important, and we 
look forward to working with them.
    Aagain, thank you for the opportunity to be heard, today.
    [The prepared statement of Mr. Miller follows:]

  Prepared Statement of Marc Miller, Director, Illinois Department of 
                   Natural Resources, Springfield, IL

    Thank you, Madam Chair and members of the subcommittee, for this 
opportunity to testify on the role of the Illinois Department of 
Natural Resources in battling the Asian carp invasion. Since the early 
1990's we have been fully engaged in this effort. I will first mention 
a couple of the recent actions we have taken and then outline our 
action plans for the immediate future as we work with our Federal, 
State and local partners to prevent the spread of Asian carp into the 
Great Lakes.
    First I want to be absolutely clear on one point. Our commitment to 
this task has been and remains unwavering. We have been working closely 
with our partner states, including Michigan and Wisconsin, and the 
federal agencies to develop effective control strategies. Illinois has 
also contributed significant resources to controlling Asian carp. One 
example is that we served as the local sponsor for the Corps of 
Engineers' electric barrier system, contributing $1.8 million to this 
effort.
    Most recently Illinois DNR served as the lead agency for the 
successful Rapid Response effort last December to prevent the upstream 
movement of Asian carp when the electric barrier system was shut down 
for maintenance. The unified response of the Great Lakes States and 
Provinces was a shining leadership moment for our region, and a prime 
example of how a small group of committed people can make a difference.
    This unparalleled effort demonstrated that Federal, Provincial, 
State, and Local partners can work together to help ensure that this 
invasive species does not establish sustainable populations in the 
Great Lakes and threaten this globally important ecosystem. Over 400 
people worked together with contributions of supplies, equipment and 
crews from partners throughout the Basin. The Rapid Response team 
safely applied rotenone to a six mile stretch of the Chicago Sanitary 
and Ship Canal. The Corps of Engineers performed critical maintenance 
on the electric barrier system, and we led the cleanup and removal of 
18,000 fish including one Big Head carp. That one fish documented that 
Asian carp were at the barrier and could have moved past the barrier in 
potentially large numbers had we not conducted the action.
    It is important to note that as we consider additional operations, 
the cost of this single action was over $3,000,000 and would not have 
been possible without the substantial donations of equipment and labor 
from the states and provinces and financial support of our federal 
partners. Thank to all for this critical support.
    There are several lessons that we learned from this experience that 
I would like to share with the committee: first, meeting this challenge 
will require even greater collaboration and levels of partnership. We 
must enlist the scientific and communication resources as well as the 
political leadership of every state and province in the basin to join 
in this effort.
    Second, early and sustained outreach to key stakeholders, proactive 
communication strategies and operational transparency must continue to 
be maintained as we move forward with our framework strategy and 
operations.
    Finally the collaborative approach that has been developed with our 
local, state, and federal partners is working very well and we believe 
represents the best model for future efforts.
    I now wish to now outline the actions to control Asian carp that 
IDNR is undertaking. These actions will be conducted as part of the 
Asian carp framework strategy that was announced recently.

  <bullet> We will conduct a targeted Asian carp removal operation 
        throughout the entire Chicago Area Waterways System. This 
        includes identification, containment and removal of carp using 
        standard fisheries gear including netting, electro fishing, 
        contract commercial fishing, and toxicants such as rotenone. 
        These priority actions will be focused above the barrier in 
        locations most likely to hold carp. This operation began last 
        week.
  <bullet> IDNR will contract with commercial fisherman to operate 
        below the barrier system to reduce populations and propagule 
        pressure on the barrier system.
  <bullet> Informed by Corps of Engineers' eDNA monitoring, we will 
        conduct sampling and removal in hotspots of the Cal Sag 
        Channel. This includes the entire length of the Cal Sag below 
        O'Brien Lock & Dam as well as the North Shore Channel below the 
        Wilmette pumping station.
  <bullet> We will participate with the Corps of Engineers' efforts to 
        refine the E-DNA technology so that it is a better predictor of 
        location and population size.
  <bullet> In the next 90 days IDNR will conduct a survey of all retail 
        live bait locations to ensure that live Asian carp minnows are 
        not being sold in Chicago area bait shops, something that is 
        currently unlawful in Illinois. This effort is already 
        underway.

    We have also identified several longer term actions that we are 
proposing:

  <bullet> We will prepare for Rapid Response contingency operations, 
        including training, advance procurement of supplies and 
        necessary equipment.
  <bullet> We will lead the Asian Carp Management and Control 
        Implementation Task Force along with the U.S. Fish and Wildlife 
        Service. This plan outlines 133 different actions that will be 
        deployed nationally in all watersheds where Asian Carp are a 
        problem.
  <bullet> We will participate in additional research into barrier 
        effectiveness using tagged fish and advanced sonar technology.
  <bullet> Finally, we will work with our sister state agency, the 
        Department of Commerce and Economic Opportunity, to enhance 
        commercial markets for Asian carp and investigate requirements 
        for use of Asian carp products for humanitarian relief 
        purposes. These efforts will promote commercial fishing on the 
        Illinois and Mississippi Rivers and help reduce population 
        pressures on the electric barrier system.

    This is a problem that is not going to be solved by one state, or 
one agency. As a region we have a long and established history of using 
a proactive and collaborative approach. When we are divided, solutions 
to our problems can remain elusive. We believe our Great Lakes Region 
is stronger when we work together in partnership to solve common 
problems, and Asian carp is not an exception to this.
    The Illinois DNR looks forward to working with the other Great 
Lakes States and Federal Agencies in preventing Asian carp from 
establishing sustainable populations in the Great Lakes and in the 
larger problem of the exchange of invasives between the Great Lakes and 
Mississippi basins.
    Thank you for the opportunity to share our views.

    Senator Stabenow. Thank you very much. We appreciate your 
being here today, and your efforts.
    Mr. Jim Farrell, welcome. We realize that you have other 
challenges and perspectives, from your position, and we very 
much appreciate your being here as a part of the discussion.

 STATEMENT OF JIM FARRELL, EXECUTIVE DIRECTOR, INFRASTRUCTURE 
   COUNCIL, ILLINOIS CHAMBER INFRASTRUCTURE COUNCIL WATERWAY 
                     COMMITTEE, CHICAGO, IL

    Mr. Farrell. Thank you. Thank you very much.
    The Illinois Chamber would like to thank Senator Stabenow 
for inviting us to appear and contribute toward the resolution 
of this important matter. I'd also personally like to thank 
Senator Bayh and Senator Brownback for spending their time--
valuable time with us.
    We share the concern of the State of Michigan and others 
who want this invasive species stopped before it can enter the 
Great Lakes. We offer recommendations we believe can protect 
Lake Michigan from an invasion of Asian carp and simultaneously 
provide for commerce to continue uninterrupted.
    This discussion needs to move from the courtroom to 
conference rooms like this. The common objective is to stop the 
carp. Solutions should not pit Illinois towboat operators, like 
John and Jacque Kindra, of Kindra Lake Towing, against Michigan 
fishermen and charter boat captains, like Paul Jensen.
    Furthermore, we believe that out concern for the 
environment should give us cause to recognize commercial 
navigation as the most environmentally friendly and safest mode 
of freight transit. Depending upon the commodity being 
transported, a single barge carries the equivalent between 60 
and 120 truckloads of cargo. The Chamber has consistently used 
80 truckloads as an average in all examples.
    Further, we're encouraged that the Asian Carp Control 
Strategy Framework includes, in principle, 6 of the 8 
suggestions we present, and that the framework notes the 
historical perspective of when invasive species from the 
Mississippi Basin became an issue for the region. There is a 
precedent for an aquatic barrier, and that's what we're 
recommending.
    It is our goal that this testimony will bring to light the 
fact that lock closures are not the answer. Though it is 
convenient and simple to suggest the dramatic and easily 
visualized act of closing a lock, we submit that halting the 
migration of Asian carp should be, and can be, executed 20 
miles or more west of the Chicago and O'Brien locks without 
interrupting commercial navigation.
    Much, if not all, the recent alarm regarding Asian carp 
stems from eDNA. It must be emphasized that a positive eDNA 
test does not correlate to sighting an Asian carp, but rather 
to finding Asian carp DNA. We at the Chamber have stated, 
publicly and consistently, that this new technology has 
indicated the presence of DNA, yet has not produced a live 
Asian carp or even an Asian carp carcass upstream of the 
electronic fish barrier. Therefore, at best eDNA should be 
considered a warning, not an alarm.
    Commercial navigation cannot supply the needs of the region 
without consistent, continually available, operating locks. In 
the Chicago region the equivalent of well over a half a million 
truckloads of cargo enters and leaves annually by barge, with 
an additional tens of thousands of truckloads worth of cargo 
moved by barge within the region. That's the equivalent of 
truck lined up end to end from New York City to Los Angeles and 
back again.
    In addition, at the Chicago lock, tens of millions of 
dollars are at stake in accommodating recreational boating, 
commercial--and commercial passenger vessels. Chicago's Navy 
Pier is the largest tourist attraction in the Midwest and would 
be severely impacted without navigation being able to traverse 
the lock. This impact would be felt in retail; recreational 
boating; the entire convention, restaurant, and hotel trade. 
Passenger vessels made at least 7,790 transits of the Chicago 
lock just in 2009.
    Probably more importantly, we need to recognize, in this 
economy, that, if we're to create jobs, we must give businesses 
a commitment that lock closure is not an option. Certainty is 
required. Banks will not finance, businesses will not invest in 
the--in regions where businesses need the waterways.
    Now, we have produced a list of 8 suggestions for action. 
Today, in the interest of time, I'd like to focus on just items 
6 and 7. If the committee's interested--subcommittee's 
interested, they're items 6 and seven on our--on our list.
    We suggest that the blockage of fish of all types, by 
executive order or congressional mandate, be done through the 
EPA requiring adjusted standards which maintain oxygen levels 
that will not support aquatic ecosystems in the 15-mile section 
of the Sanitary and Ship Canal and the Cal Sag Channel upstream 
from Lockport. This is a manmade channel which is currently 70-
percent treated effluent, and this would create an aquatic dead 
zone between Lockport and the subcontinental divide.
    Further, since we wish to protect the environment, we would 
recommend the installation of remedial oxygenation to enhance 
water quality south of the Lockport lock, so that those 
downstream would not suffer from any reduced water quality. 
I've brought a map. I'll be happy discuss these in detail if 
they are of interest to the committee.
    [The prepared statement of Mr. Farrell follows:]

 Prepared Statement of Jim Farrell, Executive Director, Infrastructure 
 Council, Illinois Chamber Infrastructure Council Waterway Committee, 
                              Chicago, IL

    Illinois Chamber Infrastructure Council Waterway Committee Jim 
Farrell Executive Director, Infrastructure Council Suggested Asian Carp 
Strategy February 25, 2010 The Illinois Chamber of Commerce and its 
Infrastructure Council appreciate the opportunity to contribute to the 
effort to protect Lake Michigan and the Great Lakes Basin from the 
Asian Carp and other invasive species. The Illinois Chamber would like 
to thank Senator Stabenow for inviting us to appear and contribute 
towards resolution of this important matter.
    The Illinois Chamber of Commerce shares the concern of the State of 
Michigan and others who want this invasive species stopped before it 
can enter the Great Lakes. We offer recommendations, which have been 
submitted to the United States Environmental Protection Agency andthe 
Asian Carp Workgroup, for action to stop the Asian Carp. We believe 
these suggestions can protect Lake Michigan from an invasion of Asian 
Carp via Illinois waterways and simultaneously provide for commerce to 
continue uninterrupted.
    Separate and apart for our concern for a balanced and thoughtful 
approach to the problem of preventing the Asian Carp from reaching Lake 
Michigan is our concern for the creation and retention of jobs in the 
region. This discussion needs to move from the courtroom to the 
conference room. The common objective is to stop the carp. However, in 
the process we do not believe the Solutions should pit Illinois Tow 
Boat operators like John and Jacque Kindra of Kindra Lake Towing of 
South Chicago against Michigan fisherman and Charter Boat Captains like 
Paul Jensen of Muskegon.
    Furthermore, we believe that our concern for the environment should 
give us cause to recognize commercial navigation as the most 
environmentally friendly and safest mode of freight transit. Depending 
on the commodity being transported a single barge carries the 
equivalent of between 60 and 120 truckloads of cargo. (The Chamber 
consistently uses 80 truckloads as an average in all examples.) The 
Illinois Chamber is encouraged that the Asian Carp Control Strategy 
Framework, which we were unaware of at the time we created our plan, 
includes six of the eight suggestions we present. Further we are 
encouraged that the Framework notes the historical perspective of when 
invasive species from the Mississippi Basin to the Great Lakes Basin 
became an issue for the region. ``Historically, poor water quality in 
Chicago's urban waterways had controlled the transfer of invasive 
species between the Great Lakes and Mississippi River 
watersheds.''[Framework 1.2, page 4]
    There is precedent of on impenetrable aquatic barrier.
    It is our goal that this testimony will bring to light the fact 
that lock closures are not the answer. Though it is convenient and 
simple to suggest the dramatic and easily visualized act of closing the 
locks, we submit that halting the migration of Asian Carp should be, 
and can be executed twenty miles west of the Chicago and O'Brien Locks 
without interrupting commercial navigation.
    Just this week the Illinois Department of Natural Resources (IDNR) 
conducted electro fishing expeditions both in the Chicago Sanitary and 
Ship Canal and further down stream in the area of Peru, Illinois. Once 
again there were no Asian Carp found above the existing electric 
barrier at Romeoville. Asian Carp were found down stream roughly fifty 
miles from Lake Michigan. We respectfully submit that this most recent 
result from electro fishing affirms the Chamber's position that we can 
address this problem many miles downstream and west of Lake Michigan.
    Much, if not all, of the recent alarm regarding Asian Carp stems 
from eDNA testing performed by the University of Notre Dame. It must be 
emphasized that a positive eDNA test does not correlate to a sighting 
of Asian Carp, but rather to a finding of Asian Carp DNA. The Framework 
references the term ``vector'' as a delivery mechanism of Asian Carp. 
Many vectors have been discussed: cultural releases, bait, and the 
barges themselves. In fact Dr. Lodge whose research team is partnering 
with the United States Army Corps of Engineers on this technology 
acknowledged as recently as this month ;www.nd.edu' that ``These 
biological materials degrade in the environment, but this process is 
not instantaneous, and DNA can be held in suspension and transported.'' 
We at the Chamber have stated publicly and consistently that this new 
technology, which has indicated the presence of DNA has yet to produce 
a live Asian Carp or even an Asian Carp carcass upstream of the 
electronic fish barrier. Therefore, at best, eDNA should be considered 
a warning--not an alarm.
    As part of our testimony we have submitted my Sworn Affidavit which 
was a part of the Illinois Solicitor General's' response to the State 
of Michigan's Supreme Court filing which requested lock closures. And 
we have included a copy of our Public Comment prepared for the EPA 
Public Hearing held February 12, 2010.
    Below is the enclosure of both documents.*
---------------------------------------------------------------------------
     Documents have been retained in subcommittee files.

    Senator Stabenow. Thank you very much.
    Dr. John Taylor, welcome.

 STATEMENT OF JOHN C. TAYLOR, ASSOCIATE PROFESSOR AND DIRECTOR 
    OF SUPPLY CHAIN MANAGEMENT PROGRAMS, SCHOOL OF BUSINESS 
      ADMINISTRATION, WAYNE STATE UNIVERSITY, DETROIT, MI

    Mr. Taylor. Thank you.
    Madam Chair and members of the committee, today I am 
providing testimony on research that former Michigan Department 
of Transportation manager James L. Roach and I conducted in our 
roles as expert witnesses for the Michigan attorney general's 
case on Asian carp control. I should note, however, that this 
testimony is my own and is not on behalf of the Michigan 
attorney general's office.
    The research and report that I am testifying about examines 
the freight transportation and handling cost impacts of 
establishing physical barriers at the Chicago lock in downtown 
Chicago and at the O'Brien lock and dam located south of Lake 
Calumet. Our analysis determined that closure of the locks in 
question would affect some 7 million tons of cargo at the 
O'Brien and Chicago locks, 98 percent of that being at the 
O'Brien lock. These are the Army Corps of Engineer numbers on 
this matter.
    We highlight this number because there has been much 
confusion about the volume of commerce that would be affected 
by lock closures. Numerous news articles have referenced much 
higher tonnages, in the range of 16 million tons. However, 
these sighted tonnages, in many cases, involve goods moving 
through all portions of the Illinois Waterway System or the 
unaffected Lockport lock, downriver. The sighted figures could 
also be due to some misunderstandings that assumed the Lockport 
lock could be closed, even though Michigan has not requested 
this. We believe it is important to understand that the actual 
freight volume affected by a lock closure is 7 million tons.
    While that may seem like a lot of tonnage, let's put that 
in perspective: The 7 million tons represents about 1 percent 
of freight originations and terminations in the Chicago region. 
In 2007, a total of 4475 loaded barges moved through the 
O'Brien lock, or 18 per day for a 250-day year. There were 50 
loaded barges in 2007 at the Chicago lock.
    The volume is about the same amount of cargo that moves in 
two daily loaded rail unit trains. What's that mean? The 
Chicago region has 500 freight trains a day.
    In order to estimate the cost impact of closing the lock, 
we examined alternative means of accommodating the cargo 
affected by the closures. Common to all of them was the 
likelihood that most of the cargo would continue to move by 
barge to transload terminals downstream of the O'Brien lock, 
with subsequent movement via truck, rail, or pipeline to 
existing users.
    That being said, some of the cargo should--could shift to 
rail for the entire move. It is very important to understand 
that the use of multiple modes for one move is common today. 
For instance grain moves by truck, then by rail, and then by 
barge. Likewise, in a move that would unaffected--and I say 
``unaffected''--by the lock closure, coals moves first, from 
out West, by rail to Romeoville, down on the southern end of 
the system, and then is barged about 10 miles to powerplants on 
the Chicago Sanitary and Ship Canal. Similarly, construction 
sand is barged to a terminal and then trucked to its usage 
point.
    It is also important to understand that other modes, such 
as rail, currently carry the greatest percentage of many of 
these commodities' total tonnage moving in the region. For 
instance, only 6.8 percent of the cargo handled by water at the 
northwest Indiana Lake Michigan ports moves by barge, and 
mostly then on through the O'Brien lock.
    These ports also handle a large volume of goods that use 
other modes than water. For instance, the Burns Harbor port Web 
page states that it annually handle--annually handles 10,000 
railcars, 500,000 trucks, 250 barges, and 100 ships. The 250 
barges is the equivalent of 15,000 trucks, or 3 percent of the 
current truck movements happening at that port.
    A total of a half million tons of steel moved outbound by 
barge at the 3 Lake Michigan steel ports, per Army Corps of 
Engineers numbers, were just 1.9 percent of the Chicago 
region's 2007 production of 27.3 million tons of steel, so 1.9 
percent.
    For the 3 steel mills on Lake Michigan, their respective 
ports received, per the Army Corps of Engineers numbers, 
232,000 tons of coal coke by barge, compared to some 4 million 
tons moving to these plants by rail, of coal coke specifically.
    Our conclusion is that the 7 million tons could be moved 
for an additional cost of $70 million per year if the O'Brien 
and Chicago locks were closed. On a weighted average basis, we 
believe the extra handling and transportation costs to move the 
freight would be $10 a ton.
    Similar figures have been reported elsewhere. The Texas 
Transportation Institute says barge shippers--says barge 
shippers nationally save $11 a ton. At the Burns Harbor port 
Web page I mentioned, they indicate that their port saves 
shippers $10 per ton over other locations.
    So, in just a couple of quick last points: If barriers were 
established at the O'Brien lock, the annual cost increase of 
$70 million would equal 13 one-thousandth of 1 percent of the 
521-billion Chicago area economy.
    I've got a couple other points here. The truck traffic in 
the Chicago region would increase by one-tenth of 1 percent. We 
have a few other points.
    But, just to close, let me say that--let me summarize, a 
conservatively estimated additional transportation and handling 
costs of shifting the existing barge traffic to other modes of 
transportation would be $70 million a year.
    [The prepared statement of Mr. Taylor follows:]

Prepared Statement of John C. Taylor, Associate Professor and Director 
  of Supply Chain Programs, School of Business Administration, Wayne 
                  State University, Detroit, Michigan

    Senator Stabenow, and Members of the Committee on Public Works and 
the Environment: My name is Dr. John C. Taylor and I am an Associate 
Professor of Supply Chain Management and Director of Supply Chain 
Programs in the School of Business at Wayne State University in 
Detroit, Michigan. Today I am providing testimony on research that 
former Michigan DOT Manager James L. Roach and I conducted in our roles 
as expert witnesses for the Michigan Attorney General's case on Asian 
Carp control. I should note, however, that this testimony is my own, 
and is not on behalf of the Michigan Attorney General's Office.
    My expertise is in the areas of logistics and transportation. I 
hold a Ph.D. in logistics from Michigan State University's School of 
Business. I am a past member of the Congress and President's National 
Commission on Intermodal Transportation, and several other 
transportation advisory committees. I am also Editor of the Journal of 
Transportation Management.
    The research and report that I am testifying about today examines 
the freight transportation and handling cost impacts of establishing 
physical barriers at the Chicago Lock in downtown Chicago, and at the 
the O'Brien Lock and Dam located south of Lake Calumet. A copy of the 
report* has been provided for the record. A look at the chart on the 
easel and attached to our testimony here may help clarify the geography 
 . . . . . . . 
---------------------------------------------------------------------------
    * The report has been retained in subcommittee files.
---------------------------------------------------------------------------
    Our analysis determined that closure of the locks in question would 
affect some 7 million tons of cargo at the O'Brien Lock on the Calumet 
River, and some 100,000 plus tons at the Chicago Lock. These figures 
represent averages from 2007 and 2008 and are referred to in more 
detail in our report. Our volume findings are consistent with the Army 
Corps reported figures.
    We highlight this number because there has been much confusion 
about the volume of commerce that would be affected by lock closures. 
Numerous news articles have referenced much higher tonnages in the 
range of 16 million tons. However, these cited tonnages in many cases 
involve goods moving through all portions of the Illinois Waterway 
System or the unaffected Lockport Lock downriver. The cited figures 
could also be due to some misunderstandings that assumed the Lockport 
Lock could be closed, even though Michigan has not requested this. We 
believe it is important to understand that the actual freight volume 
affected by a lock closure is primarily the 7 million tons at the 
O'Brien Lock.
    While 7 million tons may seem like a lot of freight it is important 
to put the volume into perspective. For instance:

  <bullet> The 7 million tons represents about 1 % of freight 
        originations and terminations in the Chicago region.
  <bullet> In 2007 a total of 4475 loaded barges moved through the 
        O'Brien Lock, or 18/day for a 250 day year. There were 50 
        loaded barges in 2007 at the Chicago Lock.
  <bullet> The volume is about the same amount of cargo that moves in 
        two daily loaded rail unit trains. And the Chicago region has 
        500 freight trains each day.

    In order to estimate the cost impact of closing the lock, we 
examined alternative means of accommodating the cargo affected by the 
closures. Common to all of them was the likelihood that most of the 
cargo would continue to move by barge to transload terminals downstream 
of the O'Brien Lock with subsequent movement via truck, rail, or 
pipeline to existing users. That being said some cargo could shift to 
rail for the entire move. It is very important to understand that use 
of multiple modes for one move is common today. For instance grain 
moves by truck and then by rail. Likewise, in a move that would be 
unaffected by the Lock closure, coal moves by rail to Romeoville and 
then is barged about 10 miles to power plants on the Chicago Sanitary 
and Ship Canal (CSSC). Similarly, construction sand is barged to a 
terminal and then trucked to its usage point.
    It is also important to understand that other modes such as rail 
currently carry the greatest percentage of many of these commodities 
total tonnage moving in the region. For instance:

  <bullet> Only 6.8% of the cargo handled by water at the NW Indiana 
        Lake Michigan ports moves by barge.
  <bullet> These ports also handle a large volume of goods that use 
        other modes than water. For instance the Burns Harbor web page 
        states that it annually handles 10,000 railcars, 500,000 
        trucks, 250 barges, and 100 ships. The 250 barges is the 
        equivalent of 15,000 trucks, or 3% of current truck movements.
  <bullet> A total of .52 million tons of steel moved outbound by barge 
        at the three Lake Michigan ports, or just 1.9% of the Chicago 
        Region's 2007 production of 27.3 million tons of steel.
  <bullet> For the three steel mills on Lake Michigan, their respective 
        ports received just 232,000 tons of coal coke by barge, 
        compared to some 4 million tons moving to these plants by rail.

    Our conclusion is that the 7 million tons could be moved for an 
additional cost of $70 million dollars per year if the O'Brien Lock was 
closed. On a weighted average basis we believe the extra handling and 
transportation costs to move the freight would be$10/ton. Similar 
figures have been reported elsewhere. The Texas Transportation 
Institute says barge shippers nationally save $11/ton. And, the Burns 
Harbor port web page indicates that their port saves shippers $10/ton 
over other locations.
    Following are some key points about the impact:

  <bullet> If barriers are established at the O'Brien Lock, the annual 
        cost increase of $70 million would equal 13/1000ths of 1 
        percent of the $521 billion Chicago area economy.
  <bullet> Great Lakes ship traffic would still be able to reach their 
        docks in the Calumet River, and 3 NW Indiana Lake Michigan 
        ports. These ships do not pass through the O'Brien Lock.
  <bullet> Truck traffic in the Chicago region would increase by less 
        than 1/10th of 1 percent. If all the freight transferred to 
        truck at transload points, an extra 1000 daily truck trips 
        would be required in a region with several hundred thousand 
        trips per day.
  <bullet> Almost all significant shippers have direct or proximity 
        access to rail. There is also more than sufficient rail and 
        truck capacity and it could readily be provided.
  <bullet> Most of the claimed environmental, air quality, safety and 
        energy benefits associated with barge transportation would 
        continue.

    We do acknowledge in the report that there would be negative 
impacts on the barge industry and that some businesses and terminals 
would be adversely affected by the closures. That said, barge volumes 
at the O'Brien have been dropping for many years. For instance, using 
the average volumes in 1993-95, and comparing to average tonnages in 
2006-08, volume dropped 30.5%. We also note that inland waterway 
traffic in general has been declining as other modes such as rail and 
truck have shown significant increases. This despite a 1992 CBO study 
that found that barge is the most heavily subsidized mode.
    In conclusion, waterway closure at the Chicago and O'Brien Locks 
would have a localized impact on already declining commercial cargo 
traffic that comprises only a tiny fraction of economic activity in the 
metropolitan Chicago area. The conservatively estimated additional 
transportation and handling costs of shifting the existing barge 
traffic to other modes of transportation for portions of the trip is 
$70 million/year. While there have been several stories indicating that 
lock closure would devastate the local economy and Illinois' role in 
the regional, national and global economy, our report does not justify 
this conclusion.

    Senator Stabenow. Thank you very much.
    Mr. Andy Buchsbaum, thank you so much for being here.

  STATEMENT OF ANDY BUCHSBAUM, DIRECTOR, GREAT LAKES REGIONAL 
  CENTER, NATIONAL WILDLIFE FEDERATION, CO-CHAIR, HEALING OUR 
         WATERS--GREAT LAKES COALITION, ANN ARBOR, MI

    Mr. Buchsbaum. Madam Chairwoman, Senator Bayh, thank you 
for the opportunity to testify here today about the worst--one 
of the worst crises ever facing the Great Lakes.
    In addition to my position with the National Wildlife 
Federation, I'm also the cochair of the Healing Our Waters 
Coalition, a 11-member organization that is dedicated to 
protecting and restoring the Great Lakes.
    As you well know, the Asian carp are a enormous threat to 
the ecology and the economy of the Great Lakes. But, they're 
more than that. They also pose a threat to the unity of the 
Great Lakes and Great Lakes leadership. That's important, 
because you all have shown that, when the Great Lakes comes 
together, that we can do amazing things, like the Great Lakes 
Restoration Initiative, like the Great Lakes Water Resources 
Compact. So, this issue--this Asian carp issue has not only 
threatened our ecosystem, but it's also threatened our 
effectiveness and our ability to get things done together.
    Let me suggest a way--and you've heard a little bit about--
already here--let me suggest a way to solve both of these 
problems, and that is to reverse the way that we're looking at 
this problem. Until now, we have been focused on what to do 
tomorrow, what to do the next day to stop these carp from 
getting into the Great Lakes. We've been on an emergency basis. 
We've been doing that for 3 months.
    I guess I suggest now it's time to look at what we actually 
ultimately want to happen, and that's ecological separation. I 
don't think there's a disagreement that, ultimately, the only 
solution is to stop the movement of live organisms between the 
Mississippi River system and the Lake Michigan basin. I don't 
think there's disagreement that we can't save the Great Lakes 
unless that happens.
    What does that mean? It doesn't have to mean closing the 
locks at Chicago and O'Brien and Wilmette. It may mean that, 
but you can separate the ecosystem--there's a map at the side 
there--you can separate the ecosystem at several different 
points. At Lockport, you can separate in between those at 
Lockport and the other locks. That's important, because that 
means that there's flexibility. That means that there are costs 
and benefits associated with each of those, and you can 
maximize safeguarding the Lakes while minimizing economic 
disruption.
    There is a gentleman in the room, Joel Brammeier, from the 
Alliance for the Great Lakes, who has done a study with the 
Great Lakes Fishery Commission that suggests different points 
of doing that type of separation.
    That's the reason--the flexibility is the reason the Great 
Lakes Commission came out with its resolution saying, ``Yes, 
ecological separation is something we all agree on.'' When I 
say ``we all agree on,'' that included the States of Illinois, 
it included the States of Indiana.
    So, how do we get to that endpoint? No. 1 is, there has to 
be a directive, an objective that every--that is actually--the 
agencies are directed to do. The Army Corps of Engineers and 
the other agencies, they need a mission that says ecological 
separation is the permanent solution that we need to get to. 
Second, there needs to be funding. Third, there needs to be an 
accelerated timeframe; we need to do this quickly. Fourth, we 
have to make sure that we buy enough time for this solution to 
occur, and that's where the emergency measures come into play.
    Unfortunately, the focus on the emergency measures alone 
has split the community. Those emergency measures pose special 
problems, and that's--there are legitimate disagreements on 
what to do with those. What one can say about the emergency 
measures right up front, though, is that none of them is 100-
percent effective. The electric fence, no, not 100-percent 
effective. Lock closures--two of the 5 openings to Lake 
Michigan are not covered by locks; those are not 100-percent 
effective. Poisoning is not 100-percent effective. 
Electrofishing is way less than 100-percent effective.
    So, the issue isn't whether to do all of them. Certainly we 
need to do them all. The issue is, How do we sequence them, how 
do we pull them together in a plan that maximizes the 
protection of the Great Lakes, even if we can't guarantee their 
protection because we simply don't have the technology to 
guarantee their protection right now?
    So, where does the framework--how does the framework line 
up with that? The framework has some very, very good points 
that I've provided in detail in my written testimony, but it 
has two major gaps:
    No. 1 is, it doesn't specify what the long-term solution 
is. It doesn't specify a permanent solution. It has a study to 
study what a permanent solution might be, and that study takes 
to long to do, but it doesn't tell--the Army Corps of Engineers 
does not say, ``Let's figure out how to do ecological 
separation,'' it asks, actually, whether to do ecological 
separation or something else. That needs to be fixed, and 
that's a--that's something that is all in your power to do.
    The second thing is that the framework has a number of good 
possible potential actions, but it doesn't sequence them; it 
doesn't have a true contingency plan; it doesn't have a 
channel-by-channel plan on how you minimize a chance that Asian 
carp are going to get to the Great Lakes. It's essential that 
it do that, and that it do that quickly.
    So, I just would like to conclude by encouraging you all to 
help this process along by providing the Army Corps of 
Engineers and the Federal agencies with the mission they need 
to get this done, and to do it quickly, and thereby reestablish 
the potential for unity among our Great Lakes leadership, which 
is going to be so important to solving this crisis.
    Thank you.
    [The prepared statement of Mr. Buchsbaum follows:]

 Prepared Statement of Andy Buchsbaum, Director, Great Lakes Regional 
 Center, National Wildlife Federation, Co-Chair, Healing Our Waters--
                  Great Lakes Coalition, Ann Arbor, MI

    Madame Chairwoman, members of the Committee, good morning. My name 
is Andy Buchsbaum. I'm here today wearing two hats: one as the director 
of the National Wildlife Federation's Great Lakes Regional Center, and 
the other as the co-chair of the Healing Our Waters--Great Lakes 
Coalition. The National Wildlife Federation is America's conservation 
organization, inspiring Americans to protect wildlife and the habitat 
they depend on, like the Great Lakes, for our children's future. The 
HOW Coalition is a partnership of 114 national, regional, state and 
local organizations dedicated to protecting and restoring the Great 
Lakes.
    Thank you for the opportunity to testify before you today about the 
worst crisis to face the Great Lakes since the colonization of the 
lakes by zebra and quagga mussels. Of course, I am talking about the 
potential invasion of two species of Asian carp, the bighead and silver 
carp. Your hearing today is most welcome because we have very little 
time to stop these species before immense and irrevocable damage is 
done to the Great Lakes. Madame Chairwoman, I was present when you 
spoke at the Asian carp public meeting in Ypsilanti, Michigan, last 
week, and your words perfectly describe the challenges we all face. The 
task of preventing Asian carp from invading the Great Lakes is a hard 
one: between the technical challenges, the difficulties of finding 
effective deterrents, and the desire to reduce the impacts of control 
measures on jobs and the economy, there are some very tough choices to 
be made. But the task of protecting the Great Lakes once Asian carp 
establish breeding populations is far harder--in fact, it is 
impossible. Once the invasive carp colonize the lakes, there is no 
turning back; the damage will be done. So as tough as our job is to 
prevent the invasion of these carp, the alternative is far worse. We 
have no choice; we have to do whatever is necessary to stop the Great 
Lakes' colonization by Asian carp. And we have to take action quickly, 
while there is still time to save the lakes.
    As you know, over the past three months, federal and state agencies 
have been working in crisis mode to stop the Asian carp. Many dedicated 
people in those agencies have worked night and day, through weekends 
and holidays, to combat the carp. And I believe they have made 
progress. But because of institutional and political barriers, that 
progress has been uneven, often incomplete, and too slow. That 
description unfortunately also describes the agencies' most recent 
effort, the Draft Asian Carp Control Strategy Framework (Environmental 
Protection Agency, 2010; hereinafter, ``Framework''). Unless that 
Framework is significantly upgraded, the Great Lakes remain highly 
vulnerable to invasion by Asian carp. With today's testimony, I would 
like to share with you our analysis of the Framework--its strengths and 
weaknesses--and our recommendations for improvements and action.

                     ASIAN CARP AND THE GREAT LAKES

    The Great Lakes are a phenomenal natural resource, a network of 
five inland seas that span 94,000-square miles of surface area, contain 
20 percent of all surface freshwater on the planet and comprise the 
world's largest freshwater ecosystem. The five lakes--Superior, 
Michigan, Huron, Erie and Ontario--provide drinking water for 25 
million people, support a $7 billion fishery, a $16 billion tourism 
industry (Great Lakes Commission, 2007), and are an integral part of 
North America's cultural and economic heritage.
    But the lakes are under siege from more than 180 invasive species--
nonnative fish, mussels and other creatures that entered via manmade 
canals and ocean freighters (Framework, p. 4). Asian carp is the latest 
threat and it could be the worst invader of all time if it establishes 
breeding populations in the lakes (Framework, p. 5).
    Asian carp were imported to Arkansas in the 1970s to control algae 
in commercial catfish farms. The fish escaped into the Mississippi 
River during a 1993 flood and spread to the Illinois River and the 
Chicago Waterway System, a series of manmade canals that carries 
Chicago's sewage to the Mississippi River. Those canals link the Great 
Lakes and Mississippi River watersheds, creating an artificial 
superhighway for Asian carp to reach Lake Michigan.
    The Asian carp have taken over the waterways they invade. They are 
large fish, up to 5 feet long and 100 pounds. They are voracious filter 
feeders, eating up to 20% of their body weight in algae and zooplankton 
every day (Framework p. 4). And they reproduce rapidly. Where they have 
invaded in the Mississippi River basin, they have become established in 
great numbers and outcompeted native fish (Chapman 2003). One species, 
the silver carp, panics when it hears a boat engine and flings itself 
out of the water, sometimes causing injuries to boaters, anglers, and 
water-skiers. Their presence has depressed fishing and recreation in 
the Mississippi River (Framework, p. 5).
    If Asian carp colonize the Great Lakes, their impact is likely to 
be immense. Scientists from the U.S. (Kolar et al 2005) and Canada 
(Mandrak and Cudmore 2004) have conducted risk assessments indicating 
that the Great Lakes have multiple carp-friendly habitats, including 
Green Bay, west Michigan, Saginaw Bay, Lake St. Clair, and western Lake 
Erie. The Great Lakes Restoration Initiative Action Plan published this 
week identifies precisely those nearshore areas as needing special 
protection (White House Council on Environmental Quality, et al., pages 
26-27). Not only are these some of the most popular boating and fishing 
spots in the region; they also are the most biologically productive and 
sensitive areas in the Great Lakes system. These areas are most 
important for the overall health of the Great Lakes. According to an 
assessment by the region's top scientists, the Great Lakes' self-
regulating mechanisms--their ability to recover from insults and damage 
from a variety of sources--is based in the near-shore communities and 
major tributaries of the lakes (Bails, et al., 2005). Those are exactly 
the areas most likely to be damaged by the establishment of Asian carp 
in the lakes.
    Scientists, resource managers, Congress and the public have known 
about the threat of Asian carp to the lakes for almost a decade. 
Concern about an Asian carp invasion prompted Congress in 2007 to fund 
the Army Corps of Engineers construction of a new electric fence in the 
Chicago Sanitary Ship Canal, about 20 miles from Lake Michigan, to stop 
the carp's passage through the canals. But due to construction delays 
and operational disagreements among federal agencies, the new barrier 
did not become fully operational until 2009.
    The hope that the electric fence would stop the Asian carp from 
reaching Lake Michigan was shattered late last year. In November, the 
Corps released the results of a new type of eDNA testing conducted by a 
team of scientists led by Dr. David Lodge at the University of Notre 
Dame. These tests sample the waters where fish swim for minute traces 
of Asian carp DNA. Some of the eDNA samples tested positive for Asian 
Carp in areas past the electric fence--that is, beyond the last barrier 
protecting Lake Michigan. Most recently, the positive eDNA tests 
indicate Asian carp DNA at multiple points beyond the electric fence: 
in the Calumet Sag Channel; near the O'Brien Lock; near the Wilmette 
Pumping Station; and in Calumet Harbor, which is in Lake Michigan 
itself. See Figure 1 (Framework p. ES 1).* At the Asian Carp public 
meetings this month in Chicago and Ypsilanti, Dr. Lodge and his 
colleague, Dr. Lindsay Chatterton, noted that these eDNA tests do not 
necessarily mean that live Asian carp are present, but that the 
likelihood of live fish being in these locations is very high based on 
the frequency and pattern of the positive DNA samples.
---------------------------------------------------------------------------
    * Graph has been retained in subcommittee files.
---------------------------------------------------------------------------
    Despite that bad news, there is reason for hope if we act quickly. 
No one has seen live or dead Asian carp beyond the electric fence. The 
Illinois DNR has conducted extensive electrofishing and netting beyond 
the fence in the past three months and caught hundreds of common carp, 
but no bighead or silver carp. Fisheries managers and scientists 
believe the lack of live or dead fish means that the positive eDNA 
tests are due to isolated Asian carp in the areas beyond the electric 
fence. That is good news because it means that the Asian carp probably 
have not yet established breeding populations in the Great Lakes. 
Quoting Dr. David Lodge, the ``establishment of a self-sustaining 
population of either silver carp or bighead carp in Lake Michigan--what 
biologists would refer to as an invasion--is not a foregone 
conclusion.'' Framework p. ES 2.
    No one can say what would constitute a self-sustaining population 
of Asian carp in Lake Michigan--whether it would be two fish or two 
hundred fish. But there is universal agreement that lower the number, 
the better. That mandates a dual approach: stop any more Asian carp 
from reaching Lake Michigan, and kill any Asian carp that are already 
present in or might soon reach the lake.

                             THE FRAMEWORK

    This month, the federal and Illinois agencies released their 
strategy to combat Asian carp, the Draft Asian Carp Control Strategy 
Framework. (Environmental Protection Agency, 2010). Although it has 
many useful and potentially effective elements, it is not nearly enough 
to protect the Great Lakes. Most fundamentally, it does not shut the 
door on additional Asian carp reaching Lake Michigan.
    As Senator Stabenow noted, the challenge the Framework attempts to 
meet is not easy. Over the past 100 years, the Chicago canal system has 
grown and created interconnections with five different outlets to Lake 
Michigan (Figure 1 above describes the five outlets). Three of those 
outlets have control structures--locks--before they empty into the 
lake; two do not. Water flows from the lake through the outlets into 
canals and then to the Chicago Sanitary Ship Canal, southwest through 
the electric fence and the Lockport Lock into the Illinois River. But 
this system of waterways does not always remain intact. The DesPlaines 
River runs next to the Chicago Sanitary Ship Canal for several miles 
northeast of (beyond) the electric fence. During large storms, the 
DesPlaines River sometimes floods into the canals--carrying live 
organisms into the canal system well beyond the where the electric 
fence is designed to stop the movement of Asian carp. Because eDNA 
samples from the DesPlaines River also have tested positive for Asian 
carp, flooding of the DesPlaines could send additional invaders into 
the canal system without the protection of the electric fence.
    The Framework appropriately attempts to plug these invasion vectors 
through several dozen short- and long-term actions. Some are likely to 
be effective and represent real progress, including:

  <bullet> The Framework addresses the critical problem of flooding 
        from the DesPlaines River, committing to the construction of 
        barriers and fences by October, 2010 to contain flooding from 
        the DesPlaines and to keep Asian carp from being carried from 
        the DesPlaines to the canal system. This is essential in the 
        short-term. Framework 2.1.5, p. 17.
  <bullet> For the first time, the agencies commit to using all 
        possible measures for short-term Asian carp control: chemical 
        treatment (poison), electrofishing, netting, and temporary lock 
        closures. Although it is still unclear how such measures would 
        work together, this is the first time that modified operations 
        of the O'Brien, Chicago River, and Wilmette locks have been 
        included as action measures in a plan. Framework 2.1.4, pp. 15-
        16.
  <bullet> The Framework includes enhanced and accelerated actions at 
        Asian carp hotspots--particularly increased testing and 
        targeted removals using chemical and physical measures. 
        Framework 2.1.1 and 2.1.2, pages 13-14. These measures are 
        important to reduce and eliminate Asian carp that have gone 
        beyond the electric fence and to minimize the chance they can 
        move into Lake Michigan.
  <bullet> The Framework also expands the scope and scale of eDNA 
        sampling and accelerates the capacity to analyze those eDNA 
        samples so they can be used for rapid response.
  <bullet> The Framework includes important research to find biological 
        means of killing and controlling Asian carp. That research, if 
        successful, may be helpful for long-term solutions but is not 
        likely to be completed soon enough to incorporate into short-
        term plans.

    Despite these positive features, the Framework has some major flaws 
that make it ineffective in protecting the Great Lakes from Asian carp:

  <bullet> In the short term, there is not enough detail on how or when 
        the various measure will be used together to impede the 
        movement of Asian carp. Those measures have to be used in 
        sequence at specific locations over specific time frames to be 
        effective. The Framework now is like a list of ingredients 
        without a recipe. Unless you combine the ingredients in the 
        right proportions and sequence, you will have a disastrous 
        meal. We cannot afford that for the Great Lakes. What we need 
        is a true contingency plan of triggers and timelines, with 
        channel-by-channel and lock-by-lock actions sequenced for 
        maximum protection of the Great Lakes.
  <bullet> The short-term actions do not lead to a long term solution. 
        The Framework's long-term strategy is a series of studies, none 
        of them committed to a course of action. The most important 
        study for the long-term--the Corps' Inter-Basin Feasibility 
        Study on ecological separation--only considers ecological 
        separation; it does not commit to it. As discussed below, that 
        is a fatal flaw. The only way to protect the Great Lakes from 
        Asian carp is to stop the movement of live organisms between 
        the Mississippi River system and the Lake Michigan basin--to 
        separate the two ecologically. Unless that is the goal of the 
        Framework, it is doomed to failure.
  <bullet> The agencies are taking too long to develop an effective 
        plan. They have had three months to develop contingency plans 
        with triggers and timetables and a path toward a long-term 
        solution. After all that time, they have produced an incomplete 
        and flawed Framework, promising more details later. Every day 
        we wait, the chances increase that Asian carp will establish a 
        breeding population in Lake Michigan. The agencies need to act 
        faster.

                    CONCLUSIONS AND RECOMMENDATIONS

    I attended both of the Asian carp Framework public meetings this 
month in Chicago and Ypsilanti and was impressed by the passion 
exhibited at each. There was a surprising consensus around the need to 
protect the Great Lakes from Asian carp, shared even by those most 
concerned that their jobs and livelihoods could be jeopardized by some 
of the remedial measures. Where the greatest polarization occurred was 
over one measure: closure of the O'Brien and Chicago Locks. That 
polarization is also reflected by the positions that different states 
have taken in the litigation before the U.S. Supreme Court.
    The focus on lock closures can obscure the larger issues that we 
might get agreement on if we could get everyone to focus on them. We 
need a larger plan for short-term measures and how lock closure or 
modification might fit into that strategy. What gets lost is the 
concept that no single measure is effective by itself. The electric 
fence is certainly not 100 percent effective. Nor is poisoning, or 
electrofishing, or commercial fishing, or lock closure. The real issue 
is how to put all those measures together to stop movement of Asian 
carp into Lake Michigan.
    The emphasis on lock closure also leads to confusion about the 
long-term goal of ecological separation--that is, stopping the movement 
of live organisms between the Mississippi River system and Lake 
Michigan. Ecological separation is essential for the Great Lakes. It is 
the only way of safeguarding the lakes from Asian carp. Anything short 
of complete separation will fail sooner or later, and if experience 
over the past few months is any guide, that failure is likely to be 
sooner. Unfortunately, many equate such separation with closure of the 
Chicago and O'Brien locks when in fact there are many other options. 
The system can be separated at other points in the canals that would 
leave the locks open (and could actually enhance passenger boat traffic 
and tourism). Those options are what we hope the Army Corps of 
Engineers is exploring in their Interbasin Feasibility Study. My 
colleague Joel Brammeier from the Alliance for the Great Lakes has done 
a study of several of those options (Brammeier, et al., 2008), and 
additional possibilities may also be feasible.
    The other conclusion I drew from the Framework meetings is that the 
federal agencies, and particularly the Army Corps of Engineers, need 
additional direction from Congress. The Corps is the key decisionmaker 
here, and it is unclear as to whether the Corps is equipped to make 
good decisions. All the other agencies have roles in the Asian carp 
task force, but when it comes to long-term separation, canal 
modification, and lock modification and/or closure, the Corps decides. 
In Ypsilanti, the Corp's chief, Assistant Secretary to the Army Jo 
Ellen Darcy, repeatedly said the Corps would ``balance all interests'' 
in making its decision. ``Balancing'' is not a good standard for an 
agency whose historic mission is navigation and whose record 
overwhelmingly favors commerce over ecological protection. The Corps 
needs a new mission: in order to protect the Great Lakes from Asian 
carp, stop the movement of live organisms between Mississippi River 
system and Lake Michigan. That should be their priority.
    These conclusions lead to the following recommendations:

  <bullet> We recommend that Congress give the Corps a new mission to 
        stop the movement of live organisms between the Mississippi 
        River system and the Great Lakes. As part of that mission, 
        Congress should direct the Corps to conduct its Inter-Basin 
        Feasibility Study to determine how to best separate the 
        Mississippi River system and the Great Lakes--not whether to 
        separate them, as the Corps seems to be interpreting its 
        mission now. Congress should also direct the Corps to complete 
        the study in one year--by mid-2011---and then to implement the 
        conclusions.
  <bullet> We also recommend that Congress declare Asian carp to be an 
        imminent and substantial threat to the Great Lakes and that 
        stopping their movement into the Great Lakes be given the 
        highest priority and urgency by the Corps and the other federal 
        agencies as they design and implement short-term and long-term 
        measures to combat the carp. Such a declaration will set the 
        right parameters and timeframe for how the agencies balance 
        different interests as they refine and implement the Framework.
  <bullet> We support the agencies' plans to implement many of the 
        short-term measures in the Framework: the flooding protections, 
        optimizing the operation of the Barrier IIA (the electric 
        fence), bringing Barrier IIB (the second electric fence) on 
        line, expanding and enhancing eDNA and other monitoring, 
        targeting hotspots for Asian carp eradication, and installing 
        temporary barriers on the two channels into Lake Michigan that 
        have no locks. We also support the search for methods to 
        interfere with Asian carp spawning and to suppress existing 
        populations.
  <bullet> We recommend that Congress demand from the agencies a true 
        contingency plan, with triggers and timelines and a channel-by-
        channel, lock-by-lock strategy for stopping the movement of 
        Asian carp into Lake Michigan. While it is encouraging that the 
        Framework contemplates partial lock closures as part of its 
        ``modified lock operations'' plan, it needs to incorporate much 
        more aggressive closures much more quickly and integrate them 
        with other activities, such as chemical treatment and other 
        removal measures.
  <bullet> The implementation of these measures will require funding. 
        We are fortunate that the Great Lakes Restoration Initiative 
        funds are available for short-term and emergency measures. For 
        longer term measures that will be more costly, additional 
        funding will be required. It would be unwise to drain the GLRI 
        funds to combat a single threat, no matter how urgent that 
        threat might be.

    Despite the weekly and sometimes daily drumbeat of alarming news 
about Asian carp, I am still optimistic that we can stop these invaders 
before they colonize Lake Michigan. I believe our biggest challenge is 
not technical, but political. Our region's leadership and people are in 
conflict over how to respond to this menace, and it is slowing and 
stalling the search for solutions. Our region has shown that we can do 
amazing things if we work together. Just in the past 18 months, 
Congress has enacted and the White House has signed two historic, 
unprecedented major initiatives for the Great Lakes, the Great Lakes-
St. Lawrence Water Resources Compact and the Great Lake Restoration 
Initiative. These measures were possible because Congressional members, 
governors, municipal leaders, tribes, businesses, and the public in our 
region were united in favor of them. We need that same unity if we hope 
to do the hard work needed to protect the Great Lakes from Asian carp.

    Senator Stabenow. Thank you very much.
    Thank you, to all of you.
    Let me followup, Mr. Buchsbaum, by asking you to talk a 
little bit more about what it means when we say ``ecological 
separation.'' This is something that I'm learning more and more 
about, and have now seen pictures of boatlifts that have been 
used in other countries so that, essentially, commerce could be 
conducted with barriers, in terms of the water and so on, and 
species. But, I wonder if you might just describe more what 
you're talking about, for those of us who are still learning 
about how this would work.
    Mr. Buchsbaum. That's a great question, Senator. The--it's 
important to define what we mean by ``ecological separation,'' 
and I think the definition that I just mentioned earlier, in 
passing, is probably the one we want to stick with, and it's 
something that the Great Lakes Commission has in their 
resolution, as well, and that is stopping the movement of live 
organisms between the Mississippi River system and Lake 
Michigan.
    There's a great deal of flexibility in how you do that. 
It's--to guarantee the cessation of that movement, you actually 
have to physically separate those two systems, and--which means 
putting a barrier in somewhere along the Chicago Waterway 
System, one or multiple places, depending on where it's 
optimal, from both an ecological and economic standpoint.
    Those barriers--you could have a barrier that was a berm; 
you could have barriers that were pipes; you could have 
barriers that were different canal systems. There are--you 
could, kind of, change the canal system--there's all sorts of 
options that are possible now, which is why it's so important 
for the Army Corps of Engineers study to look at how to do that 
separation.
    As you point out, there are many mitigation mechanisms that 
are available to--once ecological separation is achieved. 
Boatlifts is one, certainly, that's being used other places. 
Tim Eder, the director of the Great Lakes Commission, actually 
has pictures of that, if you're interested.
    Others, though--others are going to involve multimodal 
transportation, like Dr. Taylor talked about. One things that 
Dr. Taylor has in his report, that I've seen before, is that 
the opportunity to do multimodal transportation is a job growth 
opportunity. It takes people, not just to build those 
offloading stations, those uploading stations, but also to 
operate them. Dr. Taylor had concluded that, if multimodal 
transportation--I don't want to put words in his mouth--but if 
it's done correctly, there could be a net job growth for the 
Chicago area. It makes sense. That $70 million in extra costs 
isn't going up in smoke, that's going to go to something. It's 
going to go to the--those extra transportation costs will go to 
jobs to make that transportation happen.
    Senator Stabenow. Thank you. At this point, just to 
followup as you were talking about the fact there's no silver 
bullet, unfortunately--we wish there was, in the short run--
but, could you talk a little but more, though, about our 
ability to mitigate the carp moving into the Great Lakes while 
we are focused on this longer-term goal?
    Obviously, we have to have a longer-term goal, a solution--
and not that long; when I say ``long-term,'' I mean that we 
need to do this as quickly as possible--but, what about the 
immediate, in terms of what we know about the carp?
    Mr. Buchsbaum. Again, it's a--that's a--it's a very vexing 
question. We need a channel-by-channel--there's 5 different 
channels--we need a channel-by-channel control strategy that 
minimizes the chance that the carp are going to move through 
the system. That strategy needs to include sequenced, timed 
measures like poisoning, combined with electro-fishing, 
combined with herding, combined with testing, combined with 
lock closures in the channels which have locks, combined with, 
also, very rapid installation of other barriers in the two 
channels where there are no barriers now.
    Lock closures is important. We support, as Michigan does, 
the closures of the locks until other things can happen, but 
lock closures, by themselves, are not 100-percent effective. We 
have other criticisms of the framework that have nothing to do 
with lock closures. We believe the framework can be 
strengthened in multiple ways, lock closures being one of them.
    I guess I would suggest that the more we focus on lock 
closures as the lead thing to happen, the more it's difficult 
to get the focus on--where it needs to be, on this channel-by-
channel plan.
    One of the encouraging things in the framework was that it 
talked about, for the first time, modifying lock operations. 
Those partial lock closures, in conjunction with poisoning at 
the right time, could be done like the lock was closed in 
Lockport, with the poisoning done with the--when the electric 
fence maintenance happened. So, you poison an entire stretch 
where the lock is closed. You can open the lock, because 
there's no--they're--you've eradicated the fish nearby.
    Those are the kinds of the flexible and innovative things 
that we need to look at.
    Senator Stabenow. Thank you. Let me ask Mr. Miller for your 
thoughts, as it relates to what Mr. Buchsbaum has said. I know 
that Illinois is part of the Great Lakes Commission that is now 
recommending the long-term solution of the ecological 
separation. I wonder if you might expand on that, in terms of--
from the Illinois perspective.
    Mr. Miller. I'd be happy to. Madam chair, just for the 
record, not only is Illinois a part of the Great Lakes 
Commission, Governor Pat Quinn, my boss, is the chairman----
    Senator Stabenow. Thank you for----
    Mr. Miller [continuing]. Of the Great Lakes Commission.
    Senator Stabenow [continuing]. Correcting me. Yes.
    Mr. Miller. As he was here this week to participate, we did 
discuss what ``ecological separation'' meant. It--from our 
perspective, it means, exactly as Andy said, that we do not 
want to have organisms going back and forth between the two 
basins--the Mississippi and the Great Lakes. But, it does not 
mean that we cannot move commerce and have navigation or other 
kinds of traffic in between.
    The same type of vision and engineering feat that it took 
to reverse the Chicago River will be needed in order to deal 
with this challenge for the next century. Governor Quinn has 
seen the potential here, not only to create jobs, but create a 
better infrastructure, but this is something that we must do in 
the long run. It is the long-term solution to keep invasive 
species from traveling between the two very important basins, 
and something that we need to do.
    What it does not mean, though, to us, is that we should 
close the locks. The locks themselves are leaky, as Nancy 
Sutley said this morning. There are two avenues to get into the 
Great Lakes that do not possess locks. The map over here to my 
right does not include the whole system, but the Grand Calumet 
River and the Little Calumet River both go into Indiana and 
then into Lake Michigan without an obstruction, such as a lock. 
We need to address all of these things in a very thoughtful 
way.
    Sewage treatment in Chicago, storm water in Chicago, are 
going to be challenges to ecological separation. We will not 
have an--a very easy fix for this, but we need to do it in a 
thoughtful manner and move forward so that we can have what is 
really a every-100-year conversation about how to deal with the 
water in Chicago, Illinois.
    Senator Stabenow. Thank you. I wonder--I'd like to ask you 
and Mr. DeBeaussaert more specifically--you've talked about the 
emergency actions that were taken--and thank you, to both of 
you--and the efforts there. But, after the efforts that you 
were involved in, looking back on it now, is there more that 
can or should have been done? Are there things that we should 
be doing? Are there other resources that should've been 
available at the time, any limits that you felt, in terms of 
doing what it was that you felt should be done?
    Mr. Miller, why don`t you go ahead.
    Mr. Miller. In terms of the--the Rapid Response Plan in 
December, I think that we performed an unprecedented feat, and 
pulled it off with professionalism and results, and I'm very 
proud of our staff and the partners for that.
    I will say that we do need to get resources to the States 
faster. We need to make that commitment to make sure that we 
have the resources to do those types of actions. The Great 
Lakes Restoration Initiative is a great example of how we can 
do that, but we need to make sure that in--when we have these 
emergency situations, that the money will flow quickly.
    As other States deal with this issue, they're going to also 
need to have resources quickly, because we don't have it at the 
State level. Illinois DNR took a great leap of faith using what 
we had in our budget to address this issue, and, fortunately 
for us, other partners, other States came through with money on 
that $3.1&llion operation.
    In terms of what we need to do to make it better, I think 
that we need to continue to define what environmental DNA means 
for adaptive management. We don't have a lot of answers. We 
need to have that information more quickly so that we can send 
crews in where we know the hotspots are, and get to them with 
our techniques.
    I think it is efficient when we pair commercial netting 
with electrofishing. We're able to get to the fish and get 
them. We need to have better response time there.
    Senator Stabenow. OK.
    Mr. DeBeaussaert.
    Mr. DeBeaussaert. Thank you, Madam Chair. The State of 
Michigan, as I noted, did participate, upon the request of 
Illinois and the other agencies, as did, I think, most of the 
States and Provinces as part of that team effort. We were not 
actually part of the overall planning exercise, so it's hard 
for us to provide some detailed comments on it in that regard. 
What I would say, though, is that it--moving on go-forward 
basis, a couple of things that would be helpful is--one is to 
recognize that the massive effort that was undertaken there is 
not sustainable on a long-term basis, that we need these long-
term solutions of--that we've been talking about here. The 
State of Michigan provided, you know, staff time and chemicals 
and equipment, but, you know, a rotenone application on a 
regular basis for maintenance isn't sufficient and--or 
sustainable. I--our DNRE director, you know, commented on that 
when she testified before the House committee.
    The other area I think that we could improve on is that of 
communications. I think that the framework talks about the need 
to do additional outreach. I think that having all the States 
involved in a more direct way in these planning activities 
might lead to better communication and of understanding of the 
overall process. Recognizing that this was an emergency--rapid-
response activities--there wasn't the luxury of doing all the 
things that, in hindsight, people might have wanted to do, I 
think that is an area where we could improve.
    The only other thing I would comment on--and we've--in 
terms of the other--if I could, the questions that we've heard 
about, in terms of the long-term planning and the concerns 
about the need to take some short-term actions while we wait 
for that long-term--just, as I said earlier, based on our past 
experience with the delays; you know, when we talk about the 
delays in the electrical barrier, when the Governor went to her 
meeting at the White House, she carried with her a yellowed 
copy of a newspaper from 2004 that talked about the need for 
the electrical--2003 perhaps--about the need for the electrical 
barrier to prevent the gobies from getting into the 
Mississippi. I mean, the line of defense was really, in some 
respects, first seen as protecting the Mississippi from the 
invasives in the Great Lakes. Obviously, it didn't get put in 
place in time for that to occur. So, it just is one example, I 
think, of why we need to take short-term measures, where we may 
have some disagreements, but we need to continue to work 
through those while we wait for this real goal of the 
ecological separation.
    Senator Stabenow. Thank you.
    Yes, I know. Senator Bayh, I'll turn to you.
    Senator Bayh. Thank you. Thank you, Madam Chairman.
    Those of you who favor the closure of the locks, I'd like 
to ask a question. My Governor is very concerned about that, 
and the Congressman who represents that part of my State is 
very concerned about that, because they feel that it's going 
to--we have a flooding problem there that is--can be quite 
substantial, in terms of, you know, hardship to the families 
that--who are displaced from their homes, and the economic loss 
that comes with that. For those of you who favor the closure of 
the locks, what can be done about this flooding issue?
    Mr. DeBeaussaert. Senator, I would just note that, in the 
actions that Michigan undertook, in terms of the court filings, 
as we made that request related to lock closure, we did note 
that it would have to be done in a way that was protective of 
public health and safety, recognizing that there are 
circumstances where flooding issues might come into play----
    Senator Bayh. How would you----
    Mr. DeBeaussaert.----where----
    Senator Bayh [continuing]. How would you do that?
    Mr. DeBeaussaert. If----
    Senator Bayh. They think closing the locks is going to 
cause the flooding. So, I mean, just saying, in a court filing, 
``don't cause, you know, collateral damage'' doesn't keep the 
flooding from taking place. So, if you close the lock, how do 
you keep the flooding from happening?
    Mr. DeBeaussaert. In an emergency situation where flooding 
might occur, you could operate the locks in a way that might 
mitigate that concern. But, on a--the normal period of time 
when that flooding issue--and I--over a period of years, I 
think there were about 8 times where that flooding situation 
arose over a period----
    Senator Bayh. This last----
    Mr. DeBeaussaert.--of time. So, it's not----
    Senator Bayh. This last year was quite bad.
    Mr. DeBeaussaert. Yes. I--and I don't know--I can't predict 
the future activities, but on a go-forward basis until those 
situations arise, we think that taking the actions that would 
be protective are appropriate, recognizing that there are 
situations that would arise, where you might have to, you know, 
adjust accordingly.
    Senator Bayh. Right. From our State's point of view, I 
mean, any action like that is going to have to have some 
guarantee that--not just kind of a hope and a prayer, that 
our--you know, hundreds of people aren't going to be flooded 
out of their houses, but, in fact, they're going to be 
protected when the need arises. So, I just kind of recommend 
that to your thinking, because it's a legitimate issue that has 
to be addressed.
    Mr. DeBeaussaert. We understand that. That's why I think it 
was, in fact, acknowledged, but----
    Senator Bayh. It was acknowledged, but we need more than 
just kind of a vague assertion that, ``Don't worry. Trust us, 
it'll be taken care of.'' We need to have something a little 
more concrete than that.
    The second thing I would ask--Mr. Taylor, your $70-million 
figure, the increased costs, was that for the entire Chicago 
metropolitan area, including northwest Indiana, or how--what 
area did that cover?
    Mr. Taylor. That's for the volume that goes through the 
locks, the 7 million tons that goes through the 2 locks, with 
98 percent of that being at the O'Brien lock.
    Senator Bayh. So----
    Mr. Taylor. That's extra transportation and handling 
costs----
    Senator Bayh. So, customers in Indiana that are paying--the 
extra costs--the $70-million figure, reflects the extra amount 
they'd have to pay for--you know, for shipping around, or 
however they'd get around this thing
    Mr. Taylor [continuing]. Just keep in mind this is----
    Senator Bayh. Because some of them----
    Mr. Taylor [continuing]. It's basic commodities. So, 
those--the costs of moving those basic commodities that move 
through the system would go up by the--the transportation costs 
would go up by $70 million. Now, the transportation cost is a 
percentage of their overall cost.
    Senator Bayh. Right.
    Mr. Taylor. On average, $10 a ton. Steel sells, you know, 
for multiples--hundreds of dollars-plus per ton.
    Senator Bayh. Right.
    Mr. Taylor. So, it's not a one-to-one correlation.
    Senator Bayh. You can imagine they're a little concerned 
about this, because the steel industry's doing a little better 
right now, but, if you look over the last 10 years, I mean, 
they've contracted substantially, and thousands of jobs have 
been lost. So, they're a little concerned about increasing 
their costs at a moment like this. But I just wanted to----
    Mr. Taylor. Right.
    Senator Bayh. The reason I asked the first panel about the 
previous mitigation strategy is, I think somebody had 
indicated--maybe one of you--maybe Mr. Miller, it was you; I 
can't remember--it was about $3 million to do the fish kill. 
You could have 23 fish kills in a year, for the $70-million 
figure. That's why I was, kind of, curious--I mean, is that a--
Mr. Buchsbaum indicated--nothing's perfect, and, of course--you 
know, other than ecological separation, I understand that. But, 
I was just try and do sort of a cost-benefit analysis here. I 
mean, how effective, you know, are these fish kills? If you did 
one every 3 weeks, how certain could you be that you were 
keeping the carp from getting upstream? Unless they were using 
the underground waterway that, I think, one of the first 
panelists indicated.
    Mr. Miller. The use of fish toxicants, as we planned for in 
December, was very effective. We used hard structures to make 
sure that there was a acute dose delivered to every fish; it 
could not escape. We would use nets and other things to make 
sure that fish were--had the residence time to receive that.
    So, I think that using rotenone is a highly effective tool. 
We want to be careful about how we use it and how much we use 
it. We would like to move into a paradigm where we can find out 
where the fish are, identify where they are, and then possibly 
use rotenone as a sampling technique to understand what kind of 
abundance they have. What we don't know is how many fish are 
actually above that--or above that barrier, or behind our 
enemy--you know, behind our lines. We don't know. We're using 
environmental DNA as a--in a precautionary way to inform our 
decision. We're using every possible technique that we can, 
knowing that we must find them. But, we don't know how many are 
there. We--there may not be many at all. We're trying to find 
out, through environmental DNA, what that--
    Senator Bayh. I think that was Mr. Farrell's point. Mr. 
Farrell, I'd like to ask you--you had a number of 
recommendations here. I guess I'd like to focus on No. 5 and 
No. 6, maybe starting with No. 6. I mean, is there some way to 
reduce the oxygen levels in the water so it just doesn't 
sustain aquatic life? Is that----
    Senator Bayh. Can you tell us a little about that?
    Mr. Farrell. Certainly. Senator, thank you for the 
question.
    I made the point that our suggestions were done separate 
from the framework, so it's not like we were working in 
concert. But, the Metropolitan Water Reclamation District 
recognizes this as--one of their suggestions is to create some 
type of ``dead zone.'' Historically, they note that this 
problem didn't exist back when we were in the unfortunate 
situation of the 1970s, with high pollution in the Chicago 
Waterways. Nothing got through.
    Far be it from us to ever suggest that--returning to that 
point, but, on a daily basis, to reach the attainment levels 
mandated by EPA, the Water Reclamation District is monitoring 
and adding oxygen, as needed. In fact, part of the problem they 
have with this lock closure is that they're mandated, in 
certain weather conditions, to open the locks to bring 
freshwater in from Lake Michigan to maintain these oxygen 
levels.
    So, what we were trying to do is agree that--separation is 
a tremendous idea. We'd just like to see it happen away from 
the lakefront and away from these locks. The point that we 
picked to begin the discussion--we don't think this is a 
panacea, but the point we picked to begin this discussion was 
the subcontinental divide, which means that anything we do 
would have a propensity to go downstream, as opposed to the 
Lakes.
    Senator Bayh. Your point No. 5, that was, I guess, the 
same----
    Mr. Farrell. I----
    Senator Bayh [continuing]. Same thing.
    Mr. Farrell. I think this is an interesting point, in that 
locks--it's--locks might be considered as an ally in this 
battle, as opposed to an enemy. In fact the Corps' use of 
moderated lock operations includes activities which would 
jeopardize the industry that--when folks don't realize it, 
because they're intending to tab activities in the river while 
they close the locks, which means--it's not as if things can 
happen on one side versus the other, they're going to close the 
locks as a tool to help them do something else.
    But, this suggestion recognizes the point that Lockport, in 
foreign policy terms, is like Checkpoint Charlie in the Berlin 
Wall; it's where everything comes into the region. You have at 
your disposal a 600-foot chamber that's roughly 100 feet wide, 
and, when full, is 50 feet high. All the Chamber is saying is 
that this is, basically, an aquarium in which to work while 
boats are navigating. We're--don't stop the operation to solve 
the problem at the locks, but recognize the value of this 
contained environment in which you can do chemical injection on 
a much smaller scale. I'm certain that everyone here wants to 
make sure that we don't have too many chemicals in too large a 
quantity.
    Senator Bayh. I'm done, Madam Chairman. Just so that people 
don't misconstrue my comments, I'm pretty alarmed about the 
prospect of these things getting in the Great Lakes. That would 
be a very bad thing. There's no going back once they get in 
there. But, I am saying that this flooding issue is a real one, 
and it's causing great distress. I think we ought to vigorously 
explore all the options. You know, if there are some things 
that we have a very high degree of confidence will be 
effective, that don't cause some disruption, well, they deserve 
some serious consideration. You know, if the only way to go is 
just, you know, ``pftt,'' well, then you do what you've got do. 
But, I think we've got to look at some of these issues, like 
you put on the table, and the fish kill and other things, to 
kind of assess just how effective they would be. So, that's the 
point I'm making.
    I think the oxygen thing was kind of intriguing, you create 
a mini ``dead zone,'' and maybe that's enough to get the job 
done.
    So, in any event, thank you for your time. I do appreciate 
it.
    Madam Chairman, thank you.
    Senator Stabenow. Thank you. Thank you very much, Senator 
Bayh. I think we all want to create a situation that has the 
least amount of disruption, whether it's commerce or to 
communities. But, I would just emphasize, again, that when 
we're debating environmental DNA and, you know, ``What does 
that mean?'' and ``It's above the barriers''--I mean, we're 
past, sort of, just theoretical discussions. I mean, we--this 
is serious. This is--and I'm sure you share that.
    Senator Bayh. Yes. No, we've got to act. There's a----
    Senator Stabenow. Yes.
    Senator Bayh [continuing]. Real sense of----
    Senator Stabenow. Yes.
    Senator Bayh [continuing]. Urgency here. I----
    Senator Stabenow. Yes.
    Senator Bayh [continuing]. Share that.
    Senator Stabenow. Yes.
    Senator Bayh. I think we're all on the same page.
    Senator Stabenow. I think we are.
    Senator Bayh. We've got to act. It's just a question of----
    Senator Stabenow. Right.
    Senator Bayh [continuing]. What's the best course of 
action.
    Senator Stabenow. Right. One of the things that I think has 
come forward this week, that's been very positive, is the 
unifying effort of looking at the ecological separation where 
the--what the Chamber is talking about, from a commerce 
standpoint; what the Governors are talking about; the 
environmental community, and so on. So, it's a--I think one of 
the big questions for me is, How do we move much more quickly 
and much more focused on that as a long-term solution?
    The Army Corps, at this point, is doing a study on possible 
suggestions, and the--before they would even look at how to do 
it. So, I--from--one of the takeaways, for me today, is that we 
need to shorten that and move that into a study on how do we do 
it, and how do we do it as quickly as possible, so that we can 
get to that long-term solution that appears to have the ability 
to bring people together.
    So, I think--and at the same time, knowing that we have 
short-term issues right now--they're very serious--that we have 
to address. We have to be deploying everything. Nothing's 
perfect, but we have to deploy every tool that we have 
available.
    So, I want to thank all of you.
    Dr. Taylor, I want to thank you, as well, for your 
comments, in terms of how we look at transportation, and the 
jobs created from looking at this from a multimodal 
perspective, and making sure that we are looking at those costs 
and how do we, in fact, reconstruct a transportation system so 
that commerce and jobs can thrive and we can protect the Great 
Lakes. I know that was your message to us. So, I thank you for 
that.
    I think we have run out of our allotted time. I wanted to 
thank--and, Secretary Hayden, thank you very much for bringing 
a broader perspective to this. We don't want to be sending the 
carp your way, and we share the zebra mussels and have the same 
stories that you can tell about what has happened in the Great 
Lakes. We certainly want to be protecting our waterways and 
tackling, with a sense of urgency, what is happening on 
invasive species.
    So, thank you very much. The hearing is adjourned.
    [Whereupon, at 12:25 p.m., the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

        Response of Leon Carl to Question From Senator Brownback

    Question 1. Addressing Asian carp in the Great Lakes is of great 
importance and deserves the Committee's attention. However, it is one 
part of a national problem. Do you plan to turn your attention to 
implementation of existing federal authorizations and crucial policy 
changes needed to protect the economy and natural resources of the 
nation from invasive species on a long term basis?
    Answer. The USGS is committed to assisting DOI managers and the 
nation by responding rapidly and effectively to growing threats from 
invasive species in U.S. ecosystems. The USGS Invasive Species Program 
provides methodologies and information to address impacts to ecological 
systems and native species due to the introduction and spread of 
invasive species. This research includes cooperative efforts to 
document and monitor the introduction and spread of invasive species, 
study the ecology of invaders and the ability of habitats to resist 
invasion, forecast probabilities and locations of future invasions, 
provide methods and information to assess and manage risks, and develop 
methods to prevent and control invasive species to minimize their 
environmental and economic impacts. In addition to Asian Carp, USGS 
researchers are providing technical assistance on numerous other 
invasive plant and animal species including tamarisk, Zebra/Quagga 
mussels, Brown Tree snakes, python (and other large constrictor 
snakes), leafy spurge, nutria, cactus moth, feral pigs and buffelgrass. 
The USGS works in cooperation with the National Invasive Species 
Council, the Aquatic Nuisance Species Task Force and other entities to 
ensure that research efforts are coordinated and implemented in a 
strategic manner.

                                 ______
                                 
     Response of John C. Taylor to Question From Senator Brownback

    Question 1. Have you been able to estimate, in dollar amounts, the 
possible loss in state revenue that would result if Asian Carp were 
introduced into Lake Michigan?
    Answer. This question falls outside our area of expertise. My 
colleague and I are experts on the logistics cost impacts on industry 
of closing the locks in the Chicago area. These costs would relate to 
moving the goods by other modes of transportation plus extra handling. 
We estimate these costs at $70 million per year.
    Other economists have studied the question of costs to the Lakes 
economy (or lost tourism, and related fisheries revenues, if carp get 
in and established. David Lodge at Notre Dame and colleagues of his 
would be closer to this question. You see estimates in the $4-7 billion 
range but we are not experts in this area.

                                 ______
                                 
       Response of Marc Miller to Question From Senator Brownback

    Question 1. What studies have been conducted to examine the 
negative effects toxicants as a method for controlling the spread of 
Asian carp have on native species?
    Answer. Rotenone was the toxicant Illinois Department of Natural 
Resources (IDNR) used in the December Rapid Response effort. It is a 
natural substance derived from the roots of several tropical and 
subtropical plants in the bean family. Use of this toxicant in North 
America began in the 1930s in ponds and lakes as a tool to sample fish 
populations or to completely eradicate undesirable fish populations.
    In 2007 the U.S. EPA completed a thorough evaluation of the human 
health and ecological risks associated with rotenone. For more 
information on the EPA evaluation, you can visit the following website: 
http://www.epa.gov/oppsrrd1/REDs/rotenone_red.pdf.
    In that evaluation, EPA concluded that rotenone could be used 
safely for fish management if used properly with the following 
conditions:

  <bullet> In situations where treated water is likely to move outside 
        of the direct area of application, rotenone must be deactivated 
        with a chemical agent (typically potassium permanganate) to 
        ensure that fish and aquatic life outside the treatment area 
        will not be adversely affected.
  <bullet> Applicators must post signs at access points to the affected 
        area to prohibit recreational access during treatment, prohibit 
        swimming for at least three days following treatment, and 
        prohibit consumption of dead fish taken from the treated area.

    Many options were considered as control strategies including 
heating the water, capturing the fish with nets, herding the fish with 
noise or lights and trapping them, using explosives, removing oxygen 
from the water, increasing the flow at the lock, and sonic disruption.
    However the scientific literature is clear that rotenone is the 
best option to control Asian carp populations. Rotenone affects all 
species of fish, although susceptibility to the chemical varies between 
species. The chemical inhibits a biochemical process at the cellular 
level making it impossible for fish to use oxygen in the release of 
energy needed for body processes. For more information on this study 
you can visit the following website: http://www.cerc.usgs.gov/pubs/
center/pdfDocs/carp_rotenone.pdf.
    Rotenone is used annually in Illinois on an average of 65 lakes 
totaling 475 acres of water. IDNR fisheries biologists have over 40 
years experience using rotenone in various aquatic environments to 
control nuisance populations and improve fisheries habitat.
    Rotenone is non-persistent, so there is no accumulation in the 
water, soil, plants or surviving animals. The breakdown process is very 
rapid. Ultimately, rotenone breaks down into carbon dioxide and water.
    In an effort to mitigate possible effects on other fish and 
wildlife, the Illinois Department of Natural Resources (IDNR) conducted 
electro-fishing operations in the treatment area prior to the rotenone 
application to remove any sport fish that were present before 
application. Desirable fish caught were relocated outside the treatment 
area, and the area will be restocked with more desirable fish in the 
future, improving the overall quality of fish in the area.
    Secondly IDNR accelerated the natural detoxification process by 
adding potassium permanganate to the water once treatment was 
completed.
    I would like to thank the subcommittee for the opportunity to 
answer these questions and explain IDNR's history and commitment on 
this issue. I also wish to reaffirm our desire to continue the 
successful working relationship we have established with our federal, 
state and local partners to protect the Great Lakes from this invasive 
species.

                                 ______
                                 
       Response of Jim Farrell to Question From Senator Brownback

    Question 1. You indicate that the results from eDNA testing 
performed on waters upstream of the electronic fish barrier have yet to 
produce definitive evidence of live or dead Asian carp, and should 
instead only be looked at as a warning sign and not an alarm to the 
potential threat this species poses. Why would a warning sign not 
warrant the type of remedial measure sought by the state of Michigan? I 
say this because as many of you already know, and what we've 
experienced in Kansas, is that once this species infiltrates a water 
system it's too late.
    Answer. Senator Brownback, thank you for the question regarding 
eDNA. The Illinois Chamber of Commerce Infrastructure Council points 
out the distinction between a warning and an alarm for two reasons. 
First, the confusion created in the media has caused the public and, 
more importantly, policy makers to believe there is proof that the 
Asian Carp is already in or near Lake Michigan--which is not the case. 
The Asian Carp certainly is not in the Lake or above the electronic 
fish barrier in any sustainable or established population. Second, the 
request of Michigan to close the Locks--though dramatic and 
simplistic--is an ineffective response that does nothing to halt the 
migration of Asian Carp while devastating commercial navigation which 
plays a vitally important role in the regional economy.
    Further, as stated in the United States Solicitor General's 
Response to Michigan: ``In August of 2009 the Corps entered into a 
cooperative agreement with Dr. David Lodge of the University of Notre 
Dame to use an experimental technique [bold for emphasis] known as 
environmental DNA (eDNA) testing.'' We have yet to find any peer 
reviewed publication regarding this experimental technique. 
Additionally over 30,000 fish were killed and found in December 2009 
with only a single Asian Carp found which was down stream of the 
electronic fish barrier.
    The Chamber applauds the effort to stop this invasive species and 
believes that the efforts should be focused many miles downstream and 
far from Lake Michigan and the Chicago and O'Brien Locks.
    The Chamber has put forth eight Suggestions for Action, which I 
have listed below.

                         SUGGESTIONS FOR ACTION

          1. Conduct a study of the ability of Asian Carp to survive 
        and/or thrive in Lake Michigan. This is a bottom feeding river 
        fish that seems to have entered Lake Erie in a very limited way 
        without doing harm. [In Framework]
          2. Study the efficacy of eDNA testing. This newly developed 
        test seems to have received much of its approval by its implied 
        endorsement from the US Army Corps of Engineers' decision to 
        try what was thought to be the best available test when no 
        other technology was available. If the test is not going to be 
        halted, then it should be considered merely a warning not an 
        alarm. [In Framework]
          3. Expand as planned the fish barrier system. This system 
        appears to be working--no live Asian Carp or Asian Carp carcass 
        has been found above the fish barrier. [In Framework]
          4. Utilize the five miles between the Lockport Lock and the 
        fish barrier at Romeoville as a designated ``Kill Zone''. These 
        kills can be implemented on an as needed basis. [In Framework]
          5. Install chemical kills and/or acoustical barriers in, and 
        adjacent to, the 600-foot lock chamber at Lockport to be used 
        as commercial and recreational traffic are locked through the 
        chamber. Lockport is the ``Check-Point'' of the region.
          6. Block the passage of fish of all types by issuing an 
        Executive Order and/or Congressional Mandate charging the 
        United States Environmental Protection Agency to mandate 
        adjusted standards which maintain oxygen levels that will not 
        support an aquatic ecosystem in the 15-mile section of the 
        Sanitary and Ship Canal as well as the Cal Sag Channel upstream 
        from Lockport Lock. This is a man-made channel, which is 
        currently 70% treated effluent. This would create an ``Aquatic 
        Dead Zone'' between Lockport and the Sub Continental Divide. 
        [In Framework]
          7. Install south of Lockport a remedial oxygenation program 
        to enhance water quality south of the Chicago Area Waterways 
        and protect the ecosystem in the balance of the Illinois 
        Waterways and the Mississippi River Basin.
          8. Provide incentives and support commercial harvesting of 
        Asian Carp from Peoria to Lockport and in the southern end of 
        the Des Plaines River. [In Framework]

    All of these suggestions focus on preserving and protecting the 
quality of the Great Lakes while accommodating the use of the locks on 
a consistent and continually operating basis. Six of these eight 
suggestions are in principle found in the Asian Carp Strategy Framework 
published recently by the Asian Carp Rapid Response Group. We believe 
Michigan's action is unnecessary and counterproductive to a 
constructive effort to stop Asian Carp.
       Response of Jim Farrell to Question From Senator Sessions
    Question 1. Can we find a more balanced solution to closing the 
locks or ecologically separating the inland river system from the Great 
Lakes? One that protects the jobs and economy that depend on the goods 
moved by the barge industry, the most environmentally-friendly mode of 
freight transportation, while still preventing invasive species from 
traveling into the Great Lakes?
    Answer. Senator Sessions, thank you for the question about a 
balanced solution. The Illinois Chamber of Commerce Infrastructure 
Council believes lock closures are largely symbolic and should be 
removed from any list of solutions. In regards to ecological 
separation, we believe that it can be accomplished without impacting 
commercial navigation which we agree is the most environmentally-
friendly mode of freight transportation.
    From a short-term perspective we must all agree that stopping the 
Asian Carp is the priority. We have put forth eight suggestions for 
action which are listed below:

                         SUGGESTIONS FOR ACTION

          1. Conduct a study of the ability of Asian Carp to survive 
        and/or thrive in Lake Michigan. This is a bottom feeding river 
        fish that seems to have entered Lake Erie in a very limited way 
        without doing harm. [In Framework]
          2. Study the efficacy of eDNA testing. This newly developed 
        test seems to have received much of its approval by its implied 
        endorsement from the US Army Corps of Engineers' decision to 
        try what was thought to be the best available test when no 
        other technology was available. If the test is not going to be 
        halted, then it should be considered merely a warning not an 
        alarm. [In Framework]
          3. Expand as planned the fish barrier system. This system 
        appears to be working--no live Asian Carp or Asian Carp carcass 
        has been found above the fish barrier. [In Framework]
          4. Utilize the five miles between the Lockport Lock and the 
        fish barrier at Romeoville as a designated ``Kill Zone''. These 
        kills can be implemented on an as needed basis. [In Framework]
          5. Install chemical kills and/or acoustical barriers in, and 
        adjacent to, the 600-foot lock chamber at Lockport to be used 
        as commercial and recreational traffic are locked through the 
        chamber. Lockport is the ``Check-Point'' of the region.
          6. Block the passage of fish of all types by issuing an 
        Executive Order and/or Congressional Mandate charging the 
        United States Environmental Protection Agency to mandate 
        adjusted standards which maintain oxygen levels that will not 
        support an aquatic ecosystem in the 15-mile section of the 
        Sanitary and Ship Canal as well as the Cal Sag Channel upstream 
        from Lockport Lock. This is a man-made channel, which is 
        currently 70% treated effluent. This would create an ``Aquatic 
        Dead Zone'' between Lockport and the Sub Continental Divide. 
        [In Framework]
          7. Install south of Lockport a remedial oxygenation program 
        to enhance water quality south of the Chicago Area Waterways 
        and protect the ecosystem in the balance of the Illinois 
        Waterways and the Mississippi River Basin.
          8. Provide incentives and support commercial harvesting of 
        Asian Carp from Peoria to Lockport and in the southern end of 
        the Des Plaines River. [In Framework]

    From a long-term prospective ecological separation is a worthy 
goal, which we believe can be accomplished without impacting commercial 
navigation.
    Suggestion number 3 (Expand as planned the fish barrier system) is 
pertinent because the electronic fish barrier is working and is about 
to be expanded.
    Suggestion number 6 (Create an ``Aquatic Dead Zone'' between 
Lockport and the Sub Continental Divide) is the only solution that has 
any precedent of success. As noted in the Asian Carp Work Group 
Framework, ``Historically, poor water quality in Chicago's urban 
waterways had controlled the transfer of invasive species between the 
Great Lakes and Mississippi River watersheds.''[Framework 1.2, page 4] 
Though we would never suggest returning to the poor water quality of 
the 1950's and 60's, we know that the Metropolitan Water Reclamation 
District in Chicago is continually adding oxygen to reach and maintain 
mandated levels of oxygen. Logic says that we should be able to manage 
oxygen levels marginally below the level required to support aquatic 
life and still have reasonable water quality. Suggestion number 7 
(Install south of Lockport a remedial oxygenation program to enhance 
water quality south of the Chicago Area Waterways) would re-establish 
water quality for the benefit of those downstream.

                                 ______
                                 
  Responses of Hon. Nancy H. Sutley to Questions From Senator Stabenow

    Please consult as needed with the U.S. Army Corps of Engineers and/
or the Environmental Protection Agency.

                         SHORT TERM MONITORING

    Question 1. Testimony made it clear that there is not one single 
solution to prevent carp from entering the Lakes in the short-term; 
therefore there is a significant importance to adequately coordinate 
all possible short-term management activities and ensure that we are 
conducting all of them as sufficiently as possible. As federal agencies 
and partners continue to review the Asian Carp Control Strategy 
Framework and comments made to it, can you assure me that we will spare 
no resources and ensure that the entire litany of activities to prevent 
carp from reaching the Lakes are properly budgeted for?
    Answer. The Administration takes very seriously the threat Asian 
carp may pose and is responding to this threat with a high level of 
focus and attention. Officials are working in an urgent, coordinated 
manner toward a single goal--to prevent Asian carp from establishing in 
the Great Lakes.
    Restoring the Great Lakes has received unprecedented support under 
the Obama Administration. The FY 2011 Budget requests $300 million for 
the Great Lakes Restoration Initiative (GLRI) in addition to $475 
million from FY 2010 enacted, yielding a total Federal investment of 
$775 million over two years to significantly advance Great Lakes 
protection.
    In February 2010, a draft Asian Carp Control Strategy Framework was 
released which reflected the collaboration of Federal, State, and local 
partners. The draft Framework presents a multi-tiered strategy to 
combat the spread of Asian carp into the Great Lakes and to ensure 
coordination and the most effective response across all levels of 
government. The Asian Carp Regional Coordinating Committee (ACRCC), 
composed of the same Federal, State, and local partners who drafted the 
Framework, is now implementing this plan, one of the most comprehensive 
plans ever undertaken to control invasive species. GLRI and other FY 
2010 funding will be directed to the short-term actions listed in the 
Framework. Within the totals requested for FY 2010 and 2011 for Great 
Lakes restoration, sufficient funding will be available for actions 
necessary to reduce the threat of Asian carp.
    Question 2. Are there any activities identified in the Framework 
that could receive more funds to do more preventative work? For 
example, I am concerned that the monitoring activities such as EDNA 
testing, including in other Lake Michigan tributaries this spring, 
could be expanded with more resources than are listed in the Framework. 
Can we expedite and perform additional EDNA monitoring?
    Answer. Monitoring efforts using eDNA to detect Asian carp are 
being led by the Army Corps of Engineers (USACE) and Notre Dame 
University. These eDNA field sampling plans are being coordinated 
between the U.S. Fish and Wildlife Service (FWS) and Illinois 
Department of Natural Resources (IDNR), the Agencies that have 
responsibility for ``standard'' fish monitoring (electro-fishing and 
gill netting).
    The current geographic scope of eDNA testing is the Chicago Area 
Waterway System (CAWS). The ACRCC is in the process of expanding eDNA 
processing capability for more sampling within the CAWS. They also are 
developing a multi-agency monitoring strategy to include electro-
fishing, netting and eDNA sampling within the CAWS. Monitoring 
activities are adequately funded and are being conducted at the 
necessary level. As more is learned from field efforts, we will assess 
the potential need for expanded activity.

                          LONG TERM SEPARATION

    Question 1a. The issue of ecological separation, as discussed in 
the hearing, is receiving more and more attention for being the only 
certain measure which can keep Asian carp and other aquatic invasive 
species from entering the Lakes or leaving the Lakes to infiltrate 
other parts of the country. Both aspects make this a national issue, 
not merely an issue for Illinois or Michigan. Can you describe to me 
the current parameters of the Army Corps study on ecological separation 
of the Chicago waterway from Lake Michigan?
    Answer. WRDA 2007 authorized the Great Lakes and Mississippi River 
Interbasin Study (GLMRIS) to: (1) identify the hydraulic connections 
between the basins, including episodic pathways, (2) identify current 
and potential future invasive species, including Asian carp in these 
basins, and (3) investigate potential options and controls for 
reduction of transfer risk of these aquatic invasive species (AIS). 
Ecological separation will be considered as an alternative for reducing 
transfer risk. The GLMRIS will focus on all relevant hydraulic 
connections, although the effort will begin with consideration of the 
CAWS and the threat of Asian carp specifically.
    Question 1b. Can we budget more for this part of the Interbasin 
Feasibility Study than the $1 million currently suggested in the 
Framework to expedite the process so that Congress can review the 
options that may be implemented?
    Answer. The Great Lakes and Mississippi River Interbasin Study 
(GLMRIS) is authorized through 2014 under WRDA 2007. The portion of the 
GLMRIS focusing on CAWS and Asian carp has been expedited and an 
interim report will be released prior to the completion of the full 
study; the Corps anticipates completing this report in 2011. In 
addition to the FY 2010 enacted level, GLRI funds are being used to 
support the expedited portion of this study. The President's FY 2011 
Budget would provide another $400,000, but the U.S. Army Corps of 
Engineers (USACE) has the capacity for this study to be funded at $2.5 
million.
    Please note that the capability estimate for each study or project 
is the USACE estimate for the most that it could obligate efficiently 
during the fiscal year for that study or project. However, each 
capability estimate is made without reference to the availability of 
manpower, equipment, and other resources across the Army Civil Works 
program, so the sum of the capability estimates exceeds the amount that 
the Corps actually could obligate in a single fiscal year. The Budget 
allocates funding among studies and projects on a performance basis in 
a manner that will enable the Corps to use that funding effectively. 
Furthermore, the overall funding level proposed in the Budget for the 
Army Civil Works program reflects the Administration's assessment of 
national priorities in view of the range of potential private and 
public uses of funds. Consequently, while the Corps could obligate 
additional funds for some studies and projects, offsetting reductions 
within the Army Civil Works program would be required to maintain 
overall budgetary objectives.
    Question 1c. Does the Army Corps need additional direction from 
Congress to fully analyze how to implement such ecological separation?
    Answer. No additional authority is needed to study ecological 
separation as a part of the Great Lakes and Mississippi River 
Interbasin Study (GLMRIS). USACE intends to evaluate multiple 
alternatives that may effectively address AIS transfer between the two 
basins. The study includes efforts to identify: all potential AIS 
pathways and vectors, current and future AIS of concern, and 
technologies, capabilities and methods for preventing AIS transfer. 
USACE will examine the concept of ecological separation as part of 
these efforts. However, since the outcomes of the study are not 
predetermined, implementation of ecological separation of the Great 
Lakes and Mississippi River basin is not a legislatively mandated goal 
of this study.

 Responses of Hon. Nancy H. Sutley to Questions From Senator Brownback
    Question 1. In developing the Control Strategy Framework, did the 
agencies involved examine other states' efforts in combating aquatic 
invasive species and, if so, what are some examples of areas in the 
United States that have experienced significant success?
    Answer. Parts of the Asian Carp Control Strategy Framework draw 
upon other existing aquatic nuisance species management plans and 
control efforts. For example, the Framework included components from 
the Management and Control Plan for Bighead, Black, Grass, and Silver 
Carps in the United States\1\, a nationwide strategy for controlling 
Asian carp that was completed in 2007 at the request of the Aquatic 
Nuisance Species Task Force. This plan identified 133 recommendations 
for blocking or controlling Asian carp expansion, and was developed 
with input from States and Federal agencies, industry, and other groups 
with experience in managing Asian carp and other AIS in the United 
States.
---------------------------------------------------------------------------
    \1\ Conover, G., R. Simmonds, and M. Whalen, editors. 2007. 
Management and control plan for bighead, black, grass, and silver carps 
in the United States. Asian Carp Working Group, Aquatic Nuisance 
Species Task Force, Washington, D.C. 223 pp.
---------------------------------------------------------------------------
    A fundamental component of the Framework is the development and 
support of a ``rapid response'' capability so that partner agencies can 
quickly deploy assets to key locations when there is a high risk of 
species introduction or movement. This ``rapid response'' approach has 
been used in efforts to eradicate or control other AIS in the United 
States and elsewhere.
    The Framework also incorporates a multi-pronged ``integrated pest 
management'' approach, a model used through a U.S./Canadian Federal 
partnership to successfully control the invasive sea lamprey in the 
Great Lakes.
    Question 2. Addressing Asian carp in the Great Lakes is of great 
importance and deserves the Committee's attention. However, it is one 
part of a national problem. Do you plan to turn your attention to 
implementation of existing federal authorizations and crucial policy 
changes needed to protect the economy and natural resources of the 
nation from invasive species on a long term basis?
    Answer. Invasive species are one of the primary threats to native 
fish and wildlife resources in the Unites States. The Federal 
Government continues to work diligently with States, Tribes, non-
governmental organizations, and others to identify potential threats 
from invasive species before they become established, and to control or 
(where possible) eradicate species already introduced.
  Responses of Hon. Nancy H. Sutley to Questions From Senator Bingaman
    Question 1. The Asian Carp Control Strategy Framework is a great 
start at combating Asian carp. There are numerous management and 
scientific measures in the plan. Given that we are spending a 
significant amount of tax payer dollars, Congress would like to see 
prioritized items with their respective price tag. How are you 
prioritizing your efforts?
    Answer. The goal of this multi-tiered defense is to prevent Asian 
carp from becoming established in the Great Lakes. Federal, State, and 
local partners are taking advantage of this unique opportunity to 
prevent economic and ecological harm before it occurs. While the 
Framework identifies short and longer term actions to prevent the 
spread of this invasive species, all of the steps outlined in the 
Framework are considered important.
    Last month, FWS and IDNR crews began breaking ice on the waterways 
to fish, net, and electroshock potential Asian carp wintering grounds 
near warm water discharges and in areas that eDNA analysis signaled 
carp may be. As waters are warming, crews continue their intense 
efforts to locate Asian carp in the CAWS. No Asian carp have been found 
past the electrical barriers. At the same time, USACE is increasing 
eDNA sampling capacity, constructing a third electrical barrier, and 
acquiring land to build mesh screens and erect jersey barriers to 
prevent the fish from bypassing the electrical barriers in flooding 
events. The last activities--constructing mesh screens and jersey 
barriers--were recommendations made in Interim Report I of the 
Congressionally-authorized Efficacy Study. The near-term actions 
identified as part of this study are intended to provide interim 
protection as additional measures are either studied or are ongoing.
    USACE is also developing a recommendation for modified structural 
operations, and continuing to work on the Great Lakes and Mississippi 
River Interbasin Study, which is considering ecological separation as 
one potential method among others to reduce movement of invasive 
species from one basin to another.
    Question 2. The Framework has budgeted $300,000 for commercial 
fishing below the Lockport pool where the population of Asian carp is 
very high. This number seems very low compared to the other action 
items-for example you have $5 million budgeted for rotenone treatments 
during barrier maintenance shutdowns. It would seem to me that reducing 
the population of Asian carp downstream is one of the best ways to slow 
their movement. Can you please comment on this action item?
    Answer. With Asian carp, our objective in including commercial 
fishing is to decrease carp numbers downstream and reduce pressure on 
the barrier system.
    This action will employ commercial fishermen in the pools below the 
barrier to use traditional methods in a sustained program of catch and 
removal. The Framework budget for this is calculated based on current 
rates for commercial fishermen and the scope of work the ACRCC 
anticipates.
    This action is designed to blunt the leading edge of the Asian carp 
advance, which biologists believe to be in the stretch of river between 
the electrical barrier and the Brandon Road Lock and Dam, based on eDNA 
sampling.
    Commercial fishing crews will operate from March through October 
2010 for a total of 33 weeks. These crews will report weekly on species 
and number of fish removed. Based on positive results (actual capture 
of Asian carp), this area may be extended downstream to include the 
stretch between the Dresden Island Lock and Dam and the Brandon Road 
Lock and Dam.
    Further eDNA testing in conjunction with these commercial fishing 
efforts will allow us to clearly define the leading edge of the Asian 
carp migration. This is an important component in developing and 
enhancing future control options.
    Question 3. In the Framework, $3 million is allocated towards 
commercial market enhancement ideas. Can you explain your idea of 
commercial market enhancement?
    Answer. As intensive commercial fishing begins this spring to 
reduce population pressure below the electrical barrier, Illinois 
Department of Natural Resources (IDNR), is leading efforts to determine 
how carp remains can be used. IDNR is working with the Illinois 
Department of Commerce and Economic Opportunity and the Illinois 
Department of Agriculture to determine if carp can be used in products 
such as animal feed, organic fertilizers, or Omega 3 oils.
   Response of Hon. Nancy H. Sutley to Question From Senator Sessions
    Question 1. We understand that the Corps is planning intermittent 
lock closure. Can you explain to the Committee how lock closures will 
stop the Asian carp from entering the Great Lakes?
    Answer. Currently, the locks operate on a ``show and go'' system, 
which allows any boat to request lock passage at any time. The purpose 
of intermittent lock closure is to restrict the time the locks are open 
to certain, pre-determined periods. This would allow control measures 
to be taken to restrict carp movement through the locks while they are 
open. It is also important to note that even when locks are closed, 
there are alternate, uncontrolled paths to Lake Michigan, around 
Chicago's locks. USACE is studying the ability of intermittent lock 
closure to impede carp movement. USACE intends to submit this report 
(Interim Report III of the Congressionally-Authorized Efficacy Study) 
with recommendations to the Assistant Secretary of the Army for Civil 
Works by the end of April.

                                 ______
                                 
     Response of Andy Buchsbaum to Question From Senator Brownback

    Question 1. In addition to the funds spent from the Great Lakes 
Restoration Initiative, how much federal funding do you anticipate will 
be necessary to prevent introduction of Asian Carp into the Great 
Lakes? Now I understand how vitally important these bodies of water are 
to the economic stability of your state, but it's also important to 
keep in mind that states like Kansas receive almost no federal funds to 
combat invasive species. In fact, last year the Kansas Department of 
Wildlife and Parks received only $37,000 to combat aquatic invasive 
species.
    Answer. We agree that it is important to increase federal 
investment in combating invasive species in every region of the 
country. But we also note that the Great Lakes have long been 
recognized as being a national priority transcending any single state's 
interest.
    The Great Lakes are vital to the economy and quality of life to the 
35 million people who live in the eight states that border them--and 
also to the nation as a whole [3]. The Great Lakes are the economic 
engine for an eight state region from New York through Minnesota that 
comprises 28 percent of the nation's the GDP [5]. They provide the 
clean, usable water that powers the nation's manufacturing heartland, 
including the steel, automobile, and manufacturing industries. They 
support a $7 billion a year fishing industry and a $16 billion tourism 
industry [6]. The Great Lakes are the source of drinking water for 
approximately 26 million people in the U.S [6a]. These lakes contain 
20% of the world's surface fresh water and 95% of the nation's [6]. The 
Great Lakes make the United States the Saudi Arabia of fresh water. 
Protecting their health from threats like invasive species is not an 
issue for a single state; it is a national imperative.
    The federal government has repeatedly recognized this imperative 
for over a century. The U.S. and Canada in 1909 entered into the 
Boundary Waters Treat which led to the Great Lakes Water Quality 
Agreement and then to a special amendment to the federal Clean Water 
Act to protect Great Lakes water quality (Great Lakes Critical Programs 
Act, 33 U.S.C. sections 1268 et seq). More recently, former President 
Bush issued an Executive Order in 2004 that designated the Great Lakes 
as an area of ``national significance'' and established a multi-federal 
agency task force to protect them [2]. The Executive Order also created 
a multi-stakeholder collaboration that resulted in EPA publishing a 
comprehensive restoration plan, the Great Lakes Regional Collaboration 
Strategy to Protect and Restore the Great Lakes, in 2005 [3]. President 
Obama used this Strategy as the blueprint for his Great Lakes 
Restoration Initiative Action Plan published last month [6].
    As detailed in my February testimony and the testimony of the other 
panelists, an invasion of the Great Lakes by Asian carp would 
permanently and significantly damage the ecology of the lakes and the 
economy of the region. In addition to the direct effects on the $7 
billion fishery and the $16 billion tourism industry, an Asian carp 
infestation could threaten drinking water supplies and the clean water 
that industry needs to prosper. Avoiding those impacts is the reason 
that there is an emerging consensus on the need to ecologically 
separate the Mississippi River system from the Great Lakes basin.
    There is a second reason that federal investment in separating the 
Mississippi River system from the Great Lakes basin is a national 
priority. Although the February 25 hearing focused on stopping a 
particular invasive species, Asian carp, from moving via the Chicago 
canals from the Mississippi River system into the Great Lakes, it is 
equally important to stop invasive species in the Great Lakes from 
moving into the Mississippi River basin and across the country. Several 
invasive species--zebra mussels, quagga mussels, and round gobies--have 
jumped from the Great Lakes to the Mississippi and Missouri Rivers, 
their tributaries, and inland lakes using the same canals that are now 
transporting the Asian carp [7, 8, 9]. As J. Michael Hayden, Secretary, 
Kansas Department of Wildlife and Parks, testified before the 
Subcommittee on February 25:

          We have heard discussions about the potential Asian carp 
        impacts on native species in the Great Lakes but we are 
        ignoring the non-native interchange of water, waste, and 
        species between the Great Lakes and the Mississippi River Basin 
        through the Chicago Sanitary and Ship Canal. Sources indicate 
        there are roughly 180 non-native species currently in the Great 
        Lakes. There are several invasive species such as the snakehead 
        fish in the Mississippi River Basin moving upstream. Which one 
        will be the next species to invade the Mississippi River Basin, 
        Great Lakes or somewhere else in the nation? As long as there 
        is a direct connection between these two large basins we will 
        continually be fighting this battle.
          Abraham Lincoln once said, ``If I were to go west, I would go 
        to Kansas''. While Lincoln never took residence in Kansas, 
        several invasive species have. Coincidentally, one of them, the 
        Zebra Mussel, was transported in the ballast water of a ship 
        and became established in the Great Lakes in the 1980's. It has 
        since spread across the nation, including Kansas, and has 
        become a very large problem. Zebra Mussels now inhabit 6 
        federal reservoirs in Kansas and many other smaller lakes and 
        streams. Similarly to Asian carp, they pose a threat 
        economically, environmentally, and directly to human health. 
        They clog water intakes, kill native mussel species, damage 
        boats and cut the feet of swimmers. . .[4]

    Ecological separation of the Mississippi River and Great Lakes 
basins is important to Kansas and other states threatened by invasive 
species that now reside only in the Great Lakes. This separation is 
necessary to protect all of the nation's waterways from invasive 
species in the Great Lakes, and federal funding and support of that 
separation is essential.
    As to how much federal funding will be needed on an annual basis to 
prevent the invasion of Asian carp in the Great Lakes (and to stop 
Great Lakes species from invading the Mississippi River system), the 
answer depends on the strategy the federal government chooses to 
implement to prevent an invasion. Presently, the Draft Asian Carp 
Control Strategy Framework [1] is the best indicator of the federal 
strategy, but it is preliminary and incomplete. The Framework has 
identified 13 short-term actions that would be funded mostly from the 
GLRI. Non-GLRI funding of $2.3 million for these actions has already 
been appropriated. The Framework also identifies 16 long-term actions 
primarily funded by the GLRI; the non-GLRI funding (already 
appropriated) totals $4.3 million for these actions. One long-term 
action (additional rotenone treatment) at a cost of $5 million is 
unfunded; it is unclear whether this cost would be funded by the GLRI 
or another source. Finally, the Framework identifies two ongoing 
actions by the Army Corps of Engineers (barrier maintenance and 
construction) totaling $16.75 million. Both have been appropriated from 
non-GLRI sources. The total spending project from all these projects is 
$55,226,000 from the GLRI; $23,350,000 from non-GLRI funds (all of them 
already appropriated); and $5,000,000 from either or both sources.
    Additional funding from GLRI and non-GLRI sources for ongoing and 
long-term actions will also be required. The Framework identifies 
several actions that already have appropriations but which might 
require future appropriations because they are ongoing, including 
barrier maintenance and more eDNA testing, but we do not know what the 
cost of those activities will be in the future and how much will be 
funded by the GLRI. More significantly, the Framework includes a 
feasibility study by the Corps on ecological separation and other 
measures to prevent the spread of invasive species between the 
Mississippi River system and Lake Michigan. Implementing those 
recommendations is likely to require substantial resources, but it is 
impossible to say what the costs of those measures will be until the 
study has been completed and the response actions have been chosen.
    The Great Lakes are a national resource vital to the country's 
economy and security. We urge Congress and the Administration to 
protect them from an invasion by Asian carp, one of the worst threats 
to their ecology and our economy, by authorizing and funding the 
ecological separation of the Mississippi River system from Lake 
Michigan. That separation will both prevent invasive species from 
entering the Great Lakes from the west and also stop invasive species 
from leaving the Great Lakes and contaminating the Mississippi River 
system and its neighboring states, including Kansas.

                               REFERENCES

    [1] Draft Asian Carp Control Strategy Framework (2010) http://
www.asiancarp.org/RegionalCoordination/documents/
AsianCarpControlStrategyFramework.pdf
    [2] Executive Order 13340 of May 18, 2004, Establishment of Great 
Lakes Interagency Task Force and Promotion of a Regional Collaboration 
of National Significance for the Great Lakes, http://www.glrc.us/
documents/EO13340.pdf.
    [3] Great Lakes Regional Collaboration Strategy (2005) http://
online.nwf.org/site/DocServer/
prescriptionforgreatlakes_1_.pdf?docID=2621, at page 9.
    [4] Hayden, J. Michael, Secretary, Kansas Department of Wildlife 
and Parks, Testimony before the Subcommittee on Water and Power, 
February 25, 2010 http://energy.senate.gov/public/_files/
HaydenTestimony022510.pdf
    [5] Regional Economic Accounts, U.S. Bureau of Economic Analysis, 
Table 1. Real GDP by State, 2005-2008, released June 2, 2009, available 
at http://www.bea.gov/newsreleases/regional/gdp_state/
gsp_newsrelease.htm.
    [6] U.S. EPA, Great Lakes Restoration Initiative Action Plan (2010) 
http://greatlakesrestoration.us/action/wp-content/uploads/
glri_actionplan.pdf, at pages 3-6.
    [6a] U.S. EPA, Great Lakes National Program Office, Great Lakes 
Monitoring (2006) http://www.epa.gov/glnpo/monitoring/
great_minds_great_lakes/social_studies/without.html
    [7] USGS, Non Aquatic Invasive Species Maps, Round Goby (2009) 
http://nas2.er.usgs.gov/viewer/omap.aspx?SpeciesID=713
    [8] USGS, DREISSENA SPECIES FAQs, A CLOSER LOOK (2009) http://
fl.biology.usgs.gov/Nonindigenous_Species/Zebra_mussel_FAQs/
Dreissena_FAQs/dreissena_faqs.html#Q9
    [9] USGS, PROGRESSION OF THE ZEBRA MUSSEL (Dreissena polymorpha) 
DISTRIBUTION IN NORTH AMERICA (2009) http://fl.biology.usgs.gov/
Nonindigenous_Species/ZM_Progression/zm_progression.html

                                 ______
                                 
    Response of Ken DeBeaussaert to Question From Senator Brownback

    I appreciated the opportunity to testify at the hearing regarding 
Asian Carp and the Great Lakes before the subcommittee on Water and 
Power of the Senate Energy and Natural Resources Committee on February 
25, 2010. I am responding to your important follow-up questions 
concerning the closing of locks in the Chicago Area Waterways (CAW) to 
control dispersal of the Asian Carp into Lake Michigan; and to your 
question about attacking the potential threat further downstream where 
Asian Carp are already present. I am pleased with the attention of the 
subcommittee to the issue of Asian Carp. Michigan has a lot to lose if 
Asian Carp get into the Great Lakes and we believe that all emergency 
actions to prevent that should be considered and implemented.
    In response to your first question, there are a number of reasons 
why closing of the Chicago Lock and the O'Brien Lock in the CAW until a 
permanent ecological barrier is constructed between the Mississippi 
River Basin and the Great Lakes Basin is critical and must be 
undertaken immediately.
    The discovery of Asian Carp DNA is a clear indication that they are 
in the CAW. This is not just the view of the state of Michigan; it is 
confirmed by the testimony before the House Transportation and 
Infrastructure Committee by Dr. David Lodge, the federal government's 
expert witness in their brief before the Supreme Court. Dr. Lodge noted 
that a Quality Assurance audit team, led by the U.S. Environmental 
Protection Agency, reviewed his team's environmental DNA (eDNA) 
protocols and concluded that ``the eDNA method you are using is 
sufficiently reliable and robust in reporting a pattern of detection 
that should be considered actionable in a management context'' (cite 
testimony @ http://transportation.house.gov/Media/file/water/20100209/
Lodge%20Testimony.pdf).
    Even though a live Asian Carp has not been found to-date on the 
Lake Michigan side of the electrical barrier in the Chicago Sanitary 
and Ship Canal, the finding of eDNA is sufficient evidence for 
emergency actions. Waiting until a live Asian Carp is found, or waiting 
until extensive feasibility studies can be completed, may delay action 
until it is too late. Of special concern to Michigan is that Asian Carp 
eDNA was found in Calumet Harbor on Lake Michigan. Asian Carp present 
in this location would pose special challenges for rapid response and 
everyone hopes there is not an established population in that area.
    Asian Carp passage through the O'Brien Lock is the most immediate 
threat as it lies between the areas where eDNA testing has determined 
the presence of Asian Carp in the Calumet-Sag Channel and Calumet 
Harbor. If this lock is allowed to continue to operate and enable 
passage of boats to and from Lake Michigan, it will permit the Asian 
Carp to get into that lake. There is currently no mechanism in place 
that prohibits any fish from swimming into the lock when it is opened 
to allow a boat to enter, or to stop the fish from escaping the lock 
when it opens to allow a boat to exit the lock on its way to Lake 
Michigan. The U.S. Army Corps of Engineers and U.S. Coast Guard 
recognized this danger when they shut down the Calumet-Sag Channel to 
boat traffic, and closed the O'Brien Lock for several days in December 
based on the discovery of the eDNA evidence. Similarly, there is 
nothing in their path to stop the Asian Carp from eventually entering 
Lake Michigan through the Chicago Locks in downtown Chicago.
    Although no one can predict with certainty how long it will be 
before the Asian Carp establish populations in Lake Michigan, if they 
are present in the areas where the eDNA evidence shows they are, and 
given the track record of the Asian Carp and its ability to swim 10 to 
15 kilometers a day, there is no reason to believe that the danger is 
not imminent. Given the unimaginable devastation to the Great Lakes 
ecosystems and economies if no action is taken, there is no real choice 
but to immediately take whatever measures are necessary and possible to 
stop the Asian Carp from passing from the CAW into the Great Lakes.
    The answer to your second question is straightforward. When actions 
are taken to stop dispersal of an invasive species, those actions must 
be taken in front of the leading edge of the invasion. Actions taken 
after a species has established populations are too late. There are 
extremely few examples of invasive species that have been successfully 
eradicated so the effort must be on prevention in the case of Asian 
Carp and the Great Lakes.
    Michigan recognizes that no one action by itself may be enough to 
prevent Asian Carp dispersal to Lake Michigan, but collectively action 
that can be taken will significantly reduce that risk. The full suite 
of actions I put forward in my testimony are required and will reduce 
the risk for Asian Carp dispersal into the Great Lakes. If you have 
further questions about Michigan's positions regarding Asian Carp in 
the Great Lakes, please feel free to contact me. Thank you again for 
your interest and attention to the issue.

                                 ______
                                 
   Responses of J. Michael Hayden to Questions From Senator Brownback

    Question 1. What has been the biggest obstacle for the Kansas 
Department of Wildlife & Parks in dealing with our state's invasive 
species problem?
    Answer. Financial shortfalls have been the biggest obstacle for 
invasive species management in Kansas. Approved by Governor Kathleen 
Sebelius in 2005, the Kansas Aquatic Nuisance Species Management Plan 
(Plan) established a program to specifically address the issue of 
aquatic invasive species in Kansas. The effort to develop the Plan was 
led by the Department of Wildlife and Parks in conjunction with 
personnel from other government agencies and private organizations. 
Identified as the coordinating agency for the Plan, the Department of 
Wildlife and Parks has been increasing and improving their capacity to 
prevent, control, contain, and eradicate invasive species in Kansas. 
Utilizing state funds, federal grant assistance through the National 
Invasive Species Act of 1996, and private donations as the primary 
funding mechanism for implementation of the plan, it is apparent these 
funding sources are limited and have made successful management 
difficult. We do have a well developed management plan, but without the 
financial resources to properly implement the identified objectives, it 
is largely ineffective. A budget enhancement would allow for us to hire 
the necessary staff to contain current infestations (physical 
containment at infested waters as well as an effective education 
program), monitor for future issues, address introduction vectors such 
as aquatic imports, and eradicate invading populations where feasible.
    Question 2. What has Kansas done to help mitigate the spread of 
Asian Carp throughout the state?
    Answer. The aforementioned invasive species management plan 
addresses all aquatic invasive species, including Asian carp in a broad 
sense. Actions specific to Asian carp include the listing of four Asian 
carp as prohibited species under Kansas Administrative Rule 115-18-10. 
Further, we have supported the listing of species as injurious wildlife 
by the U.S. Fish and Wildlife Service by submitting comments through 
the Federal Register. In addition to regulatory actions, we rely 
heavily on outreach and education activities. Educational videos, high 
profile news reports (front page of Wichita Eagle), print materials for 
distribution, an online education and certification course, and 
appropriate signage at infested waters are all tools employed across 
the state to inform aquatic users of the risk Asian carp pose and what 
precautions need to be taken to prevent further spread. We have 
conducted research to identify various vectors for spread, but 
recommendations have not yet been implemented. To directly address 
human/Asian carp interactions, the U.S. Army Corp of Engineers 
routinely increases water discharges to flush the carp out of public 
access areas below the dam to limit the possibility of human/fish 
interaction. Fortunately, physical barriers exist to limit natural 
dispersal upstream where established in Kansas. However, if we were to 
have a major flood or an uninformed water user accidentally moved them 
above a barrier, Asian carp would spread throughout a much greater 
portion of the state.
    We sincerely hope the comments provided address the concerns of the 
committee and Senator Brownback. If further clarification is necessary, 
please contact us again.


                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

              Statement of Ducks Unlimited, Ann Arbor, MI

    Ducks Unlimited is non-profit wetlands conservation organization 
with more than 650,000 members nationwide, and approximately 200,000 
members in the Great Lakes states. Our mission is to conserve wetlands 
and associated habitats for the benefit of waterfowl, people and other 
wildlife.
    Non-native invasive plants and animals have a long history of 
negatively impacting ecosystems. The Great Lakes have been particularly 
vulnerable due to the many vectors leading into, and out of, the lakes. 
Exotic plants such as purple loosestrife, flowering rush and common 
reed (Phragmites australis) are recent invaders that have reduced 
wetland productivity for wildlife and people. Exotic animals that have 
impacted wetlands have been minimal, but the common carp, introduced in 
the late 1800s to the US, has had a major negative impact on wetlands. 
Common carp thrive in shallow wetlands where their activity uproots 
native vegetation and increases turbidly, thereby decreasing 
productivity and quality of the wetlands.
    Four species of recently-introduced carp are now on the verge of 
invading the Great Lakes through man-made connections between the Great 
Lakes and Mississippi River basins. Already known to have devastating 
impacts on the Mississippi River ecosystem, these fish species now 
threaten the Great Lakes. DU is especially concerned about two of those 
four species that have received little attention. Grass carp (white 
amur) and black carp are quite different from the silver and bighead 
carp that have received most of the notoriety. Grass carp are 
herbivores and eat their weight in vegetation daily. They are long-
lived and have great potential to cause further degradation to the 
shallow water bays/wetlands in the Great Lakes. These shallow bays and 
coastal wetlands provide important feeding areas for waterfowl and 
nursery areas for fishes. For example, submersed aquatic vegetation 
(SAV) in Lake St. Clair provides key food resources for approximately 
150,000 canvasbacks and tens of thousands of redheads, scaup and other 
diving ducks each fall and spring. If SAV abundance further declines 
due to grass carp, one of the most important mid-migration areas for 
waterfowl in North America will be lost.
    Black carp feed on mollusks and snails and therefore also compete 
with waterfowl for food resources. They also have the potential to 
negatively impact populations of native mussels, already stressed by 
other exotic competitors such as zebra and quagga mussels.
    DU encourages federal, state and local agencies and public groups 
to work together to immediately implement a short term strategy to 
prevent Asian carp migration into the Great Lakes, and develop a long 
term solution that would prevent exotic invasive species from traveling 
between two of the nations key watersheds: the Great Lakes and the 
Mississippi River systems. If carp are successful in invading the Great 
Lakes system, considerable resources currently dedicated to natural 
resource conservation stand to be diverted to strategies needed to 
mitigate impacts on fisheries and water recreation. Eliminating the 
impacts of exotic invasive species is a key strategy to protect and 
restore the Great Lakes, as stated in the Great Lakes Regional 
Collaboration's Restoration Strategy that DU contributed greatly to and 
supports.

                                 ______
                                 
                    Statement of Capt. Mike McElroy

    Honorable Ladies and Gentlemen, I wish to call to your attention 
what I believe to be a series of mistakes and unfortunate assumptions 
that have led the USACE to the brink of making a very serious mistake.
    Today as this distinguished Sub Committee meets to discuss the 
progress and science behind the Control Strategy Framework many 
Americans in Chicago are in fear of losing thier Jobs. They are afraid 
because they have been told that in haste a decision has been made by 
the USACE to cut our employers operations in half. This will be done 
because of a fish. This fish has not been seen, we are not sure if it 
can live here and the best science around cannot tell us any more than 
that. Our employer also cannot tell us when this will occur because he 
also does not know. People watching the news are cancelling boat rides, 
they are not sure if we can leave our dock let alone through the lock. 
Daily we lose business, daily anxiety grows with the crew yet still no 
actual real fish.
    The Locks are not actually what the name implies. They are not 
water tight. Not even close. Closing them does nothing except ensure 
businesses go under. Then ,should the fish arrive, they will swim right 
through the lock gates right past our deserted ships.
    What will do something is actually doing something very well right 
now. The barriers. A very large concrete wall at the narrowest part of 
the CSSC in Lamont would also do many things, including satisfy 
Michigan, Chicago and the fish.
    Bypass Chicago flood water could be pumped past the wall, barges 
could be lifted over the wall and if the fish ever leave we could take 
the wall down. It is Cheap, quick and involves no loss of jobs. For 
once it will actually create them. No controversial experimental 
unproven science required.
    After reading your recently posted memorandum on Establishing and 
Applying Categorical Exclusions under the NEPA, Mrs. Sutly, as the 
protector of NEPA,I ask that you reconsider giving the USACE a 
categorical Exclusion for this project. now more than ever NEPA is 
needed now to protect our rights and our environment. A full EIS is 
warrented based on the massive impacts related to this action,this is 
clear to see.

                                 ______
                                 
Statement of Michael Borgstrom, President, Wendella Sightseeing Boats, 
                              Chicago, IL

    Please consider the following facts:

  <bullet> Despite the media hype, Asian carp are not an imminent 
        threat to enter Lake Michigan. ``To date there has been no 
        physical carp seen or captured above the electric barrier.'' 
        Colonel Vincent Quarles. USAGE Chicago District Commander
  <bullet> According to the Asian Carp Workgroup Framework ``Even if 
        the United States Army Corps of Engineers (USAGE) were to close 
        the Chicago Lock and take measures to make it watertight, fish 
        can get into the lake through the lock and other, unregulated 
        access points.''
  <bullet> Dr. John Taylor's Logistics and Transportation Study, cited 
        below, did not include the commercial passenger vessel industry 
        or the effect that closing the Looks will have on Chicago's $12 
        billion tourism industry..
  <bullet> eDNA is an untested, unpublished research project that does 
        not provide solid confirmation of the presence of Asian Carp 
        and has not been tested or used in any marine environment other 
        than a laboratory or the Chicago Area Waterway System.
  <bullet> The economic effects of closing the Chicago Lock, the second 
        busiest lock in the nation on a permanent, temporary or 
        modified operational basis will be devastating and immediate.

    My name is Michael Borgstrom. I am president of Wendella 
Sightseeing Co. Inc. (Wendella) in Chicago. I am the third generation 
of this locally owned, family business that has provided a variety of 
guided boat tours, private charters and Chicago WaterTaxi service on 
the Chicago River and Lake Michigan. My businesses have been built 
around the Chicago Lock. In fact, Wendetla has been a user of the 
Chicago Lock since it opened in 1938. Any closure of the Chicago Lock 
and Chicago River to commercial passenger vessels on a permanent, 
temporary or modified operational basis would be devastating if not 
catastrophic to my business and the entire industry.
    As Chairwoman of the hearing to examine the science and policy 
behind the Federal response to Asian carp, l urge you to keep the above 
bulleted facts in mind when listening to and/or questioning the 
witnesses appearing before you on Thursday.
    Dr. John Taylor, an Associate Professor at Wayne State University, 
in his written affidavit for the Supreme Court in connection with the 
State of Michigan lawsuit requesting immediate lock closure, that the 
``documents submitted by the United States and Illinois to this Court, 
have seriously exaggerated the economic and transportation impacts 
associated with closure of portions of the Chicago Waterway System at 
the Chicago and O'Brien Looks...'' He made this statement, despite the 
admission, in a conference call last week with members of the media, 
that he ``did not study any effects on tourism or the passenger vcooel 
industry in Chicago.'' Dr. Taylor's Study was commissioned and financed 
by the State of Michigan.
    As stated by Dr. Taylor, in his affidavit to the Supreme Court, his 
conclusions and resulting report were based on the following:

          1. A boat tour he took with Metropolitan Water Reclamation 
        District of Greater Chicago in 2006.
          2. (He) observed portions of the study area by land in 
        January 2010 (when commerce and river usage is at its lowest.)
          3 (He) reviewed publicly available aerial photographs, as 
        well as Illinois Waterway Navigation Charts.
          4. (He) researched publicly available information concerning 
        waterway traffic.

    This does not qualify as a complete and comprehensive study of a 
large, complex industry. Obviously, no due diligence was performed.
    The proposed decision to close the Chicago Lock is being made based 
on results from Dr. David Lodge's research project on eDNA. However, 
what is actually known about eDNA?

  <bullet> General John Peabody of the USAGE in his testimony before 
        Congress stated, ``ft (eDNA) has not been peer-reviewed, nor 
        has it been independently tested for its validity,''
  <bullet> In its Laboratory Audit Report of February 5m, the 
        Environmental Protection Agency only concluded that the test 
        detects eDNA. They wrote ``the protocols utilized by the Lodge 
        laboratory group to detect environmental eDNAdie reliable.'' 
        The audit ``did not address Interpretation of tine eDNA results 
        in regards to the presence or absence, proximity, or abundance 
        of silver or bighead carp, the presumed source of eDNA.''
  <bullet> Dr. Lodge agrees. In a January 19th press release put out by 
        the USAGE he said ``It (eDNA) does not yet provide information 
        about Asian carp quantity that may be present, age, size, how 
        they got there or how long they've been there.''

    In short, eDNA does not and cannot explain how the eDNA ended up in 
a particular location. it could have been present in the testing 
locations long before hand. It could have been carried by birds or 
other fish or on the bottom of a boat or barge that has transited 
through a waterway where the presence of live Asian carp has been 
documented.
    Based on the use of eDNA and its findings, closure of the Chicago 
Lock, the second busiest in the nation, would be arbitrary and 
capricious.
    In fact, late last year, eDNA testing indicated the presence of 
carp near the O'Brien Lock. The USAGE in conjunction with the illinois 
Department of Natural Resources (IDNR) and the Metropolitan Water 
Reclamation District (MWRD) conducted one of the largest fish kills in 
US history. More than fifty thousand pounds of dead fish were 
recovered; not one Asian carp was found. In another test a few weeks 
ago, crews from the IDNR and the U.S. Fish and Wildlife Service 
conducted netting operations in a warm water outflow of the river, 
again not one Asian carp was found. In fact, according to Colonel 
Vincent Quarles, USACE Chicago District Commander, ``To date there has 
been no physical carp seen or captured about our barrier system.''
    There is no science or evidence that would indicate an imminent 
threat to the Great Lakes from Asian carp. However, the catastrophic 
consequences of its closure of the Chicago Lock, whether permanent, 
temporary or on a modified operational basis are quite clear to our 
industry.
    I urge you to look past the hype and hysteria that has been created 
and actively support other more effective, less destructive and proven 
measures to prevent the migration of the Asian carp.

                                 ______
                                 
            Statement of Captain Michael Strain, Munster, IN

    My name is Michael Strain. I am the owner and Captain of a 200 
passenger charter boat that docks on the Chicago River and cruises on 
Lake Michigan. Our company is a small family owned business. I am the 
Captain. My wife is the bartender and handles foodservice. My son is a 
crew member. And my sister handles sales.
    If the Chicago lock is closed we will be forced to shut down our 
business and will go bankrupt. We have worked extremely hard to start 
and build this business and it seems utterly impossible that the 
Chicago Lock may be closed because edna suggest the possibility of 
Asian carp beyond the fish barrier.
    Nobody wants to see Asian carp in the Great Lakes. Rut as you 
examine the issue remember that no live Asian carp have been found in 
or near Lake Michigan The existing barriers are working.

                                 ______
                                 
                   Statement of Capt. Jennifer Perry

    The progression of the concern over Asian carp is disappointing. 
The people and agencies allowing the issue of Asian carp to evolve into 
a debate causing hysteria and panic are irresponsible.
    It's unacceptable that those urging the closing of two major locks 
have disseminated misleading information. Many people, including the 
news media, are being falsely led to believe that Asian carp are 
bouncing off the lock gates, ready to charge into Lake Michigan to seek 
and destroy. They are neglecting to do their homework.
    The draft of the Asian Carp Control Strategy Framework is filled 
with inadequacies and contradictions that recklessly promote panic of 
an invasion. The factual statements are found on page 8 of the ACCSF 
regarding ``Risks and cost associated with closure''. The ACCSF group 
is prepared to spend $84,516,000 on speculation and inconclusive 
research. Again, irresponsible. Furthermore, the panel of experts at 
the two ACCSF meetings I attended, seemed bewildered by the technical 
questions and comments by the represented commercial vessel industries. 
It was discouraging to hear the facilitator tell many of us; ``time's 
up'', ``wrap it up'', ``it's not technical enough'', ``that's a 
comment, not a question'', when companies are in jeopardy of losing 
their businesses, jobs lost, families devastated, and the dreadful 
ripple effect of even more crippling of our already struggling economy,
    Is urgent action required to abate a threat of Asian carp migrating 
into Lake Michigan? Yes. Take the urgent action to where the Asian carp 
are, which is 33 miles from Lake Michigan, not where they aren't. It is 
incumbent upon the ACCSF group to do better, be guided by the facts, 
and be more responsible. www.aisiancarpfacts.com
    ``To date there has been no physical carp seen or captured above 
our barrier system...33 miles from Lake Michigan, south.'' Colonel 
Quarles, Commander, Chicago District, United States Army Corps of 
Engineers.

                                 ______
                                 
 Statement of Edmund B. Welch, Legislative Director, Passenger Vessel 
                      Association, Alexandria, VA

    The Passenger Vessel Association (PVA) wishes to emphasize that the 
thriving commercial passenger vessel industry in Chicago, so integral 
to the city's tourism economy, will be jeopardized if there is a 
closure of the Chicago River waterway and the federally-operated lock 
in downtown Chicago connecting the river with Lake Michigan.
    On behalf of its Chicago-area members, PVA urges you to actively 
resist efforts to close the river and lock and instead support other 
more effective, less destructive measures to prevent the Asian carp 
from entering Lake Michigan.
    The Passenger Vessel Association (PVA) is the national trade 
association for U.S.-flagged passenger vessels of all types. PVA 
members in the Chicago area that operate vessel tours and charters that 
move through the Chicago River Controlling Works lock connecting Lake 
Michigan and the Chicago River include:

  <bullet> Chicago Cruises (Great Lakes Development LLC) 
        (www.chicagocruises.com)
  <bullet> Chicago's First Lady Cruises (www.cruisechicago.com)
  <bullet> Chicago from the Lake, Ltd. (www.chicagoline.com)
  <bullet> Mercury Sightseeing Boats (www.cruisechicago.com)
  <bullet> Shoreline Marine Company (www.shorelinesightseeing.com)
  <bullet> Wendella Sightseeing Boats (www.wendellaboats.com)

    Most operators offer the famous boat tours to showcase Chicago's 
architecture. Should the lock be closed, each would be prevented from 
providing lake-to-river and river-to-lake excursions, upon which their 
businesses rely. For Chicago vessel companies and their hundreds of 
employees, lock closure would be economically injurious or completely 
crippling. A vibrant, successful part of Chicago's tourism industry 
would be tossed aside.
    PVA member companies operate at least 36 vessels with a combined 
passenger capacity of 4,115 that must pass through the Chicago River 
lock. Their vessels carried at least 691,674 passengers and made at 
least 7,790 transits through the lock in 2009. These PVA members employ 
at least 604 workers in high-quality, good-paying jobs and have an 
annual payroll of at least $7,033,396. Tens of millions of dollars of 
investment assets and resources are at risk if the passenger vessels 
cannot be employed in their normal income-producing activity.
    In addition, another PVA company--American Canadian Caribbean Line 
of Warren, RI--operates the U.S.-flagged Niagara Prince, a small-ship 
overnight cruise vessel, on a route between New Orleans and Chicago. 
That vessel must transit the O'Brien Lock twice in May and June of this 
year.
    Recently, the U.S. Army Corps of Engineers distributed a document 
describing several different possible modifications in lock and 
waterway navigation operations. While PVA understands that the Army 
Corps of Engineers put forward the alternate scenarios in good faith, 
and while PVA acknowledges that there is intense public pressure on the 
Corps to make changes in waterway management to impede the spread of 
the Asian Carp toward the Great Lakes, PVA must report frankly that the 
alternatives presented, including Alternative 2, will cause grievous 
economic harm to the Chicago-area passenger vessel operators. This is 
because continued operation of the Chicago Harbor Lock and the nearby 
Chicago River are essential to the thriving passenger vessel industry 
in Chicago. Because of this industry's integral role in Chicago's 
tourism industry, jeopardizing passenger vessel operations, including 
the famous Chicago Architectural Tours, will eliminate jobs, cause 
widespread economic harm as ``ripple effects'' engulf businesses that 
service, support, and supply the passenger vessel operators, and 
deprive Chicago of a unique attraction to visitors and tourists.
    Rather than closing (in full or in part) the Chicago Harbor Lock 
and restricting navigation on the nearby Chicago River during the 
operating season of the commercial passenger vessels, PVA urges the 
Corps to adopt countermeasures against the Asian Carp that are more 
effective and less destructive economically. PVA stands ready to assist 
the Corps and federal agencies in identifying such measures.
    Federal policymakers must understand the business operating model 
of the passenger vessel companies. Most of them use the same vessels to 
provide two services, often on the same day: scheduled ticketed tours 
open to the public at large and private chartered events. One operator 
confines itself to charters only.
    Despite being ``small businesses,'' the Chicago passenger vessel 
companies employ more than 600 individuals each year. In responding to 
a PVA inquiry in December, the operators declared that they provide at 
least 604 workers in high-quality, good paying jobs. The combined 
payroll for these workers exceeds $7 million.
    At a meeting hosted by the Army Corps of Engineers in Chicago 
earlier this month, several of those employees spoke publicly of their 
fears about their jobs. The harm that will be inflicted on them if the 
passenger vessel operators cannot maintain these jobs is real. We know 
what will happen if the operators cannot sail because of closures of 
the lock and river; these jobs will go away and will do so this very 
year. With respect to the captains and other maritime workers on the 
vessels, it will be difficult if not impossible to locate replacement 
jobs in the maritime sector without leaving Chicago. PVA does not wish 
to denigrate the predictions of economic harm that might occur if Asian 
Carp reach the Great Lakes and establish a destructive population 
there; nevertheless, predictions of that harm are just that--
predictions. In PVA's view, the Corps should give greater weight to the 
foreseeable, immediate loss of existing jobs in Chicago.
    It would be ironic if, at the same time that the Congress of the 
United States is on the verge of enacting multi-billion dollar 
legislation to create jobs, federal agencies adopted an Asian Carp 
prevention strategy that would cause substantial jobs loss this year!
    Alternative 2 will prevent the passenger vessel operators from 
conducting their tours at least half of the time during their 
restricted business season; no small entity can absorb such a blow and 
still survive. It is essential for the Corps to understand that these 
businesses don't conduct their vessel tours year-round but instead do 
so in the months between spring and fall. Their operating seasons 
differ somewhat, but most have a business season of seven months or so. 
However, their peak revenue periods are concentrated in just a few 
weeks in mid-and late summer.
    At its meeting in Chicago, the Corps made clear that operators 
should expect that additional preventive measures would take place in 
conjunction with closures of the Chicago Harbor Lock. Therefore, the 
passenger vessel industry is to assume that commercial navigation on 
the Chicago River would be shut down at the same time the lock is 
closed. As a result, under Alternative 2, at the same time lake-to-
river and riverto-lake vessel tours would be blocked by the closed 
locks, all-river tours would also be shut down because of the 
complementary preventive measures. In essence, under Alternative 2, 
nearly all passenger vessel operations would have to cease from 3-4 
days each week during the vessel operating season, including the peak 
revenue periods.
    The economic damage to the passenger vessel operators cannot be 
calculated by simply using a ``straight-line'' method (that is, 
shutting down navigation for three days out of seven would result in 
loss of 3/7 of expected revenue). A business that caters to tourists 
and visitors must be available when they wish to enjoy it. The 
scheduling uncertainty and unreliability that would be introduced under 
Alternative 2 would deter and repel customers, especially the many that 
make relatively ``spur of the moment'' decisions to take advantage of 
the tours.
    Passenger vessels compete for charter business against shoreside 
venues; moreover, advance contracting is common. At the Chicago 
meeting, one operator told the Corps of how many charters she has 
already booked for the coming summer season. The Corps must reasonably 
expect that implementation of Alternative 2 under any configuration 
will inevitably mean that many of those contracted-for charters will 
fall on days when the lock and river will be shut down. The Corps must 
also understand that it will be extremely hard, if not impossible, for 
the vessel operators to reschedule those weddings, prom dinners, and 
other date-sensitive events to times and days when vessel operations 
will be achievable. The result will be the loss of those contracts as 
the chartering parties make arrangements for other venues. Furthermore, 
the loss of good will and reputation, and the perception that the 
vessel operator is an unreliable business that is unable to perform a 
contracted-for service will impede the ability to attract and contract 
for other charters.
    Customers, especially those who charter vessels, want river-to-lake 
and laketo-river vessels tours. A vessel operator who cannot provide 
this risks losing the charter altogether. The vessels of tour companies 
are usually based entirely at river facilities or based entirely on 
Lake Michigan. They don't have some vessels at one location and more at 
the other (although one company does have boats so located). Thus, it 
is not possible, as Michigan's Attorney General recently suggested, 
that a single company can offer lake tours with its lake-based. vessels 
and river tours with its river-based vessels. To provide its customers 
with both lake and river experiences on the same cruise, the vessel 
operator must transit the Chicago Harbor Lock. If it is closed for 3-4 
days each week, the customer will not receive the desired experience 
and the likelihood of the charter goes down immensely.
    Alternative 2 will jeopardize the world-famous Chicago Architecture 
Vessel Tours. One might be tempted to conclude that these tours, so 
much a part of the city's tourism draw, would be unaffected by closures 
of the Chicago Harbor Lock. This is not the case. Other preventive 
measures will render the nearby Chicago River unavailable to commercial 
navigation when the lock is closed. Thus, for 3 or 4 days per week, the 
Chicago Architecture tours could not be performed. Also, there is great 
concern about the water level and quality of the Chicago River. Would 
closure of the lock and other associated measures alter the river's 
water levels? Would it make the river stagnant, or dirty, or smelly? 
Anything that might make the river experience less appealing to someone 
on the passenger vessel will jeopardize this tour. In its Architecture 
Tour, Chicago can offer a visitor an experience unlike anything 
available in any other American city. The federal government must do 
everything it can to ensure that this experience is preserved.
    PVA takes seriously any credibly-demonstrated harm that could ensue 
to the ecology of the Great Lakes should the Asian Carp establish a 
presence there. Maintenance of healthy natural aquatic communities is 
critical to PVA's vessel members wherever they operate, and PVA members 
operate throughout the Great Lakes in addition to Chicago. 
Nevertheless, PVA believes that the federal government can prevent the 
migration of the Asian Carp into the Great Lakes by employing a range 
of concerted actions other than closure of the Chicago River and 
Chicago Harbor Lock pursuant to the alternatives presented (including 
Alternative 2).
    Cannot the Corps concentrate its ``defense in depth'' strategies in 
locations further down the South Branch of the Chicago River below the 
area of navigation for Chicago's passenger vessels? Could not the Corps 
also employ defensive measures in the 15-mile downriver zone discussed 
by several speakers at the Chicago meeting? Would it not make sense to 
employ the anti-Carp techniques in spots that inflict the least 
economic harm on existing going concerns, including the Chicago 
passenger vessel operators? PVA encourages the Army Corps of Engineers 
to rethink its strategies along these lines and not confine itself to 
the economically damaging alternatives recently presented, especially 
Alternative 2.
    Thank you for the opportunity to provide these observations. PVA 
stands ready to provide this subcommittee with more information about 
the Chicago-area passenger vessel industry and to work with all federal 
agencies on a viable, effective, and economically constructive strategy 
to fight the Asian Carp.


</pre></body></html>
